<html>
<title> - ``LESSONS LEARNED'' DURING OPERATION ENDURING FREEDOM IN AFGHANISTAN AND OPERATION IRAQI FREEDOM, AND ONGOING OPERATIONS IN THE UNITED STATES CENTRAL COMMAND REGION</title>
<body><pre>[Senate Hearing 108-654]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-654
 
 ``LESSONS LEARNED'' DURING OPERATION ENDURING FREEDOM IN AFGHANISTAN 
   AND OPERATION IRAQI FREEDOM, AND ONGOING OPERATIONS IN THE UNITED 
                     STATES CENTRAL COMMAND REGION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2003

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
96-501 PDF                 WASHINGTON DC:  2004
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 ``Lessons Learned'' During Operation Enduring Freedom in Afghanistan 
   and Operation Iraqi Freedom, and Ongoing Operations in the United 
                     States Central Command Region

                              july 9, 2003

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense...................    10
Franks, Gen. Tommy R., USA, Commander, United States Central 
  Command........................................................    18

                                 (iii)


 ``LESSONS LEARNED'' DURING OPERATION ENDURING FREEDOM IN AFGHANISTAN 
   AND OPERATION IRAQI FREEDOM, AND ONGOING OPERATIONS IN THE UNITED 
                     STATES CENTRAL COMMAND REGION

                              ----------                              


                        WEDNESDAY, JULY 9, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Talent, Chambliss, Dole, 
Cornyn, Levin, Kennedy, Byrd, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Dayton, Bayh, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; Cindy Pearson, assistant chief clerk and security 
manager; Kenneth Barbee, security clerk; and Pendred K. Wilson, 
receptionist.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Brian 
R. Green, professional staff member; Ambrose R. Hock, 
professional staff member; Gregory T. Kiley, professional staff 
member; Thomas L. MacKenzie, professional staff member; and 
Lynn F. Rusten, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Kenneth M. Crosswait, professional staff member; 
Richard W. Fieldhouse, professional staff member; Jeremy L. 
Hekhuis, professional staff member; and Maren R. Leed, 
professional staff member.
    Staff assistants present: Leah C. Brewer, Andrew W. 
Florell, Andrew Kent, and Sara R. Mareno.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Dan Twining, assistant to Senator 
McCain; John A. Bonsell, assistant to Senator Inhofe; James 
Beauchamp, assistant to Senator Roberts; Jayson Roehl, 
assistant to Senator Allard; Arch Galloway II, assistant to 
Senator Sessions; James P. Dohoney, Jr., assistant to Senator 
Collins; D'Arcy Grisier, assistant to Senator Ensign; James W. 
Irwin and Clyde A. Taylor IV, assistants to Senator Chambliss; 
Christine O. Hill, assistant to Senator Dole; Russell J. 
Thomasson, assistant to Senator Cornyn; Sharon L. Waxman, Mieke 
Y. Eoyang, and Jarret A. Wright, assistants to Senator Kennedy; 
Christina Evans and Erik Raven, assistants to Senator Byrd; 
Aaron Scholer, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Richard Kessler, assistant to 
Senator Akaka; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; William 
Todd Houchins and Mark Phillip Jones, assistants to Senator 
Dayton; Todd Rosenblum, assistant to Senator Bayh; Andrew 
Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this morning to 
receive testimony from the Secretary of Defense and General 
Tommy Franks, who has just stepped down as the Commander of 
U.S. Central Command (CENTCOM). We also step aside from a very 
sobering and important hearing to congratulate the Secretary on 
reaching his 71st year. Today is his birthday.
    Secretary Rumsfeld. You didn't need to do that.
    Chairman Warner. I know that. You're joined, I understand, 
by members of your family this morning, which is wonderful. 
General Franks, we hope the opportunity comes for us to meet 
your wonderful wife.
    General Franks. Sir, thank you very much.
    Chairman Warner. The American public, indeed the world, are 
awaiting this testimony this morning, and, consequently, I'm 
going to put my full statement into the record and make brief 
opening remarks out of deference to my colleagues, who are 
anxiously awaiting to hear the testimony and participate in the 
questions and indeed the public that are following the hearing.
    First, we open being mindful of the loss of life, loss of 
limb, and the families who have suffered the consequences as 
they have throughout the history of this Nation and other 
nations in times of war. They've paid a great price, and those 
risks continue, as we well know, each day. They showed courage, 
the men and women of the coalition forces, they showed 
commitment. Our delegation of nine Senators witnessed that just 
days ago when we spent time in Basra, Baghdad, and Kirkuk. We 
thank you, Mr. Secretary, and your staff, Tommy Korologos, 
Secretary Cambone, and others who made this trip very 
successful.
    We salute all the men and women of the coalition forces and 
their families. The leadership that has been shown is 
remarkable--our President, Secretaries of State and Defense, 
our military, General Franks, all those in your command. Our 
hearing this morning covers not only Iraq, but also 
Afghanistan, and indeed the possible military commitment in 
Liberia. So I hope each of you, that is you, Mr. Secretary, 
touch on that issue of Liberia.
    Civilian control of the military has been a part of our 
history, but I look upon the relationship that you, Mr. 
Secretary, had with General Franks as really one of 
partnership. I guess that's the way it should be. The buck 
finally stopped on your desks, but having watched the two of 
you as partners, conducting the operations in Iraq and in 
Afghanistan, is truly remarkable.
    When Senator Levin and I, on two occasions, visited 
Afghanistan, and I think to an extent in the Iraqi campaign, we 
were impressed by the leadership of the noncommissioned 
officers, and indeed the junior officers, but the 
noncommissioned officers, how groups of 15, 20, 25, would go in 
on a mission at night with one officer, and that officer 
knowing full well that each man or woman, as the case may be, 
knew exactly what their missions were. A remarkable chapter in 
history, and also of jointness, joint operations between the 
Army, the Navy, the Marine Corps, and the Air Force.
    While the major field maneuvers of our troops, division 
level, regimental level, have stopped, nevertheless the 
fighting continues at the company level. When we visited the 
4th ID, the commander went into great detail--three operations, 
General Franks. I think one is still continuing--taking the 
battle to the remaining enemy, not waiting for the enemy to 
come, but taking it to them. To meet that challenge, we would 
like to have your views this morning on the force levels, the 
adequacy, the rotation policy, and how other coalition nations 
are joining. Mr. Secretary, I personally felt that tremendous 
efforts have been made from Washington and the other capitals 
of the world to bring in other troops, not only to augment our 
existing force structure, but hopefully to provide and 
facilitate for the rotation of our forces and those of Great 
Britain back home.
    Intelligence is a matter of great interest. Your views on 
the adequacy of that intelligence from a military standpoint--
troop commanders told us when we asked the question that they 
had a high degree of confidence in the intelligence that they 
received. Nevertheless, Mr. Secretary, the issue of 
intelligence is of importance, as you well know, and how the 
intelligence was utilized in the policy-making levels, at your 
level, and with your subordinates as you address the American 
public in open forums, and as you address Congress, how you 
utilize that intelligence in such a manner to--I certainly 
feel--remain accurate at all times.
    The Task Force 20, which is performing, General Franks, the 
specialized mission of searching out Saddam Hussein, a bounty 
quite properly now having put on his head, and how they are 
operating to not only find him and his two sons, but indeed the 
others that had significant roles in perpetrating the horror 
throughout Iraq and the threat to the world with their weapons 
of mass destruction. On weapons on mass destruction, Mr. 
Secretary, you've brought in David Kay, a man with impeccable 
credentials and a long background and history in this subject, 
working with General Dayton. You've given them a charter to go 
out and use every asset that they need to uncover the mystery 
of these weapons of mass destruction.
    Lastly, I want to credit Ambassador Bremer. I've known him 
through the years, but I think he's doing an extraordinary job, 
and he laid down the three objectives that he has at this time 
to try and lessen the risk to our troops and at the same time 
bring about the fulfillment of our mission to provide freedom 
for the Iraqi people. The first is to take the battle to the 
enemy, and that's being done, to root out the last pockets of 
resistance.
    The second is to utilize every effort to find Saddam 
Hussein and the other principals, and the third is to form an 
interim government, composed initially of two parts: one, a 
governing council of Iraqis who will elect their own chairman 
of that council to supervise the several ministries, whether 
it's the creation of a policy force, whether it's education, 
whether it's the preservation of artifacts, whether it's 
sewers, whether it's electricity; and two, to formulate a group 
of individuals that will sit down, Iraqis, and write a 
constitution, because without a constitution, we cannot expect 
elections to be held nationally. There's just no infrastructure 
on which an election can be established until that constitution 
is put in place and candidates can address their views with 
respect to the fulfillment of the provisions of that 
constitution.
    Now, while our delegation was there we met in Kirkuk with 
Iraqis who are assuming local office as mayors, assistant 
mayors, and so forth--and Bremer is to be congratulated--in 
pockets here and there where possible putting together groups 
of Iraqis who sort of elect themselves and take over the 
responsibilities of community matters. But the national 
elections have to await the constitution.
    On the whole, speaking for myself, I feel very positive on 
my return from this inspection trip, and I once again salute 
those in uniform, the coalition forces, who night and day are 
taking the risks, and their families at home who are sharing in 
those risks.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The committee meets this morning to begin a series of hearings on 
``lessons learned'' during the major combat phases of Operation 
Enduring Freedom in Afghanistan and Operation Iraqi Freedom, as well as 
to receive testimony on ongoing military operations in the area of 
responsibility of the U.S. Central Command (CENTCOM). We welcome 
Secretary of Defense Donald Rumsfeld and General Tommy Franks, former 
Commander, U.S. CENTCOM, back before the committee. On Monday, General 
Franks turned over command of CENTCOM to General John Abizaid. We are 
thankful for the opportunity to receive testimony from General Franks 
before he departs for a well-earned retirement and to thank him for an 
enormously successful command tour in the most volatile region of the 
world. We in Congress applaud the leadership you have provided, General 
Franks, in the successful military operations to remove the Taliban 
from power in Afghanistan and Saddam Hussein from power in Iraq. You, 
together with Secretary Rumsfeld, and President Bush, have rallied an 
international coalition to fight terrorism, tyranny, and proliferation 
in that important part of the world. Congratulations on a job, very 
well done. The world is a safer place as a result of your efforts.
    As I said, this hearing is the first in what will be a series of 
hearings on lessons learned in recent military operations in 
Afghanistan and Iraq. Both of these campaigns were decisive military 
operations and a tribute to the professionalism of the men and women of 
the U.S. Armed Forces and their leaders. Both operations quickly 
achieved their primary military objectives--removing regimes from power 
that were a threat to the security of the United States and, indeed, 
the world community. Both have also required extensive ``post-
conflict'' stability operations that are ongoing and will require 
significant manpower, resources, time, and commitment in the future to 
fully secure the peace. We are mindful of the fact that coalition 
forces continue to be exposed to significant personal risks through 
this ongoing phase of operations.
    Senator Levin and I, along with six other committee colleagues and 
Senator Rockefeller, Vice Chairman of the Senate Intelligence 
Committee, have just returned from a most informative trip to the 
CENTCOM area of responsibility (AOR)--a trip which included 3 days in 
Iraq. We received extensive briefings from General John Abizaid, the 
new CENTCOM Commander; Lieutenant General Ricardo Sanchez, the senior 
U.S. military commander in Iraq; Ambassador L. Paul Bremer, head of the 
Coalition Provisional Authority and his staff; David Kay and Major 
General Keith Dayton of the Iraq Survey Group concerning the WMD search 
effort; and several other coalition military and civilian leaders. I 
want to thank Secretary Rumsfeld and General Franks for their help in 
providing our delegation with the access and information we needed. It 
was a very productive trip that will prove invaluable to our 
understanding of the ongoing challenges and opportunities in this very 
important region.
    I want to share a few of my strongest impressions about our visit. 
First and foremost, as Americans, we can all take pride in our 
magnificent troops. As we traveled across Iraq, we met soldiers, 
sailors, airmen, and marines doing their job and doing it well in the 
harshest of conditions--120 degree temperatures, many without minimal 
shelter or relief from the unrelenting heat, day or night. As we talked 
with these great Americans, it was very clear that they understood the 
importance and necessity of performing their duty and the enormity of 
the task, and they appreciated the support of the American people. 
Their morale is strong, as to be expected, and they are fully committed 
to getting the job done.
    Were there complaints? Some, but mostly in the nature of 
constructive ideas. The biggest concern, almost universally, was simply 
the uncertainty about when they, as individuals, would be returning 
home. I know you are diligently working that problem, Mr. Secretary, 
and the Department needs to develop a rotation plan as soon as 
possible.
    Second, I was encouraged by the level of involvement of other 
nations. Eight countries currently have forces on the ground, and over 
30 more are committing to provide forces to the coalition effort in the 
near future. By the fall, British and Polish Divisions, composed of 
troops from many nations, will be operating in Iraq. Dutch and Italian 
forces are scheduled to begin operating in sectors being vacated by 
U.S. marines this month.
    Likewise, Ambassador Bremer's efforts are truly international. He 
has eight nations currently involved, with more expected to contribute. 
Ambassador Bremer is doing an admirable job, as he and his team attempt 
to rebuild the economic, social, and political infrastructure of Iraq. 
His main goal is to put an Iraqi face on this effort and to put Iraqis 
in charge of the daily lives of the citizens of this nation. I commend 
his efforts.
    Connected to this is the issue of troop levels in Iraq. Military 
commanders we met with on the ground in Iraq were quite clear in 
telling our delegation that they have adequate troops to successfully 
accomplish the mission. That being said, I think Secretary Rumsfeld has 
taken the proper course by asking General Abizaid to review the 
situation. It is always prudent to reevaluate during the course of a 
military operation in light of developments on the ground. We look 
forward to hearing the results of General Abizaid's assessment.
    Third, I was left with the impression that the search for weapons 
of mass destruction and related programs is making strong progress. Dr. 
David Kay and General Dayton are leading a careful, deliberate process 
that I am confident will ultimately yield the evidence that Saddam 
Hussein had a complex, very capable WMD program that was a threat to 
the Iraqi people, to Iraq's neighbors, and to the world. Saddam Hussein 
spent the last decade building a WMD program that was deceptive and 
well-concealed from the world's eyes--including efforts by U.N. 
inspection teams. It will take time to uncover these years of 
successful planning and deception. I am confident we have the right 
team in place to do the job. The key will be information from Iraqi 
citizens, from scientists to those who wielded the shovels to build a 
concealed WMD infrastructure.
    Because of questions raised about intelligence related to WMD, I 
asked our military commanders in Iraq how they felt about the quantity 
and quality of intelligence and analysis they received on all relevant 
subjects, including WMD. They all expressed full satisfaction and 
confidence in the intelligence they received, and all remarked how well 
the entire intelligence systems worked together, across agency 
boundaries. Mr. Secretary, I expect you will address the issue of how 
policy officials in the Department used available intelligence in 
briefings to Congress and to the American public.
    My next impression is related. I did not fully appreciate before 
visiting Iraq and talking with Iraqi citizens and officials, the 
absolute fear Saddam Hussein inflicted on this nation. There is a 
palpable fear that Saddam Hussein may somehow return to power, and 
anyone who has cooperated with the coalition will be executed. This is 
impeding the WMD search effort, as knowledgeable Iraqis are still 
reluctant to cooperate, and encourages those who are perpetrating the 
violence in central Iraq. It is essential that Saddam Hussein be 
found--dead or alive, and that the nightmare he still represents for 
Iraqis be brought to an end.
    I was also left with the impression that Americans at home are not 
getting the full story on what their Armed Forces are accomplishing. 
Coalition forces are taking the fight to the enemy, aggressively 
pursuing them and eliminating their funding and safe havens.
    Of equal importance, coalition forces are decisively involved in 
rebuilding Iraq--not from war damage, but from years of neglect under 
Saddam Hussein. Our forces are rebuilding hundreds of schools, 
hospitals, bridges, and other important infrastructure throughout Iraq, 
and facilitating the development of local governments. The American 
people were understandably proud of our rapid military victory, but 
they also need to know that the good work these young people are doing 
now is equally, if not more, important. Our troops deserve the full, 
informed support of the American people.
    One final thought I must share is that the enormity of the task of 
rebuilding Iraq after 30 years of neglect and abuse by Saddam Hussein 
is daunting. But, it is crucial that we succeed. This is clearly a 
moment of enormous consequence for Iraq, for the region, and for the 
world. We must seize the moment, demonstrate our commitment, and bring 
a sense of optimism and reform to this troubled region.
    It is a responsibility of this Congress, as a co-equal branch of 
government and on behalf of the American people, to fully review and 
understand all aspects of the significant military operations which 
this Nation undertakes. This is in keeping with the precedent of this 
committee and is a constructive undertaking to evaluate the performance 
of our weapons systems, our infrastructure, our organizational 
structures, and our people. Only through this process can we make 
informed decisions about future investments in defense.
    Again, I welcome our witnesses and applaud your successful efforts 
to date. We look forward to your assessment of the current situation, 
the way ahead, and the things we, in Congress, can do to best support 
our Armed Forces as they prepare for current and future threats.

    Chairman Warner. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. I will also shorten 
my statement and ask that the entire statement be made part of 
the record.
    Chairman Warner. Without objection.
    Senator Levin. First, General Franks, let me thank you for 
your life of commitment to this Nation. In your public service 
as a solider, you've proven yourself time and time again during 
a unique period in our history. Historians will someday judge 
the military campaigns that you led in Afghanistan and Iraq 
that swiftly defeated the Taliban and the forces of Saddam 
Hussein as brilliantly planned and executed examples of the 
military art, and as foreshadows of future military tactics. 
While you would be the first to acknowledge that most of the 
credit and thanks must go to all who assisted you in that 
effort, and especially to the fighting men and women of the 
U.S. Armed Forces who executed those campaigns, your role as 
their commander was indispensable.
    Any inquiry into lessons learned will inevitably tend to 
emphasize areas of concern, and will tend to spend less time on 
the innumerable things that were done well. It is essential 
that that be done, but it must not detract in any way from our 
appreciation for the superb performance of duty by the men and 
women of our Armed Forces as they continue to conduct stability 
operations in Afghanistan and Iraq and prepare to execute other 
missions in support of our national military strategy.
    We must succeed in this endeavor, and we need to understand 
the strategy for ensuring that success. Part of that strategy 
hopefully will be an attempt to internationalize the security 
and nation-building efforts. To achieve that end, I hope that 
we will seek NATO and United Nations support and endorsement. 
That will facilitate the recruitment of their member nations to 
our effort in terms of providing troops, resources, expertise, 
and international legitimacy. The whole world has a stake in 
the stability of Iraq.
    It is a mystery to me why apparently we have not reached 
out to NATO and to the United Nations as institutions. Their 
support could bring significant additional forces, such as 
German and French forces through NATO and Indian and Egyptian 
forces through a U.N. endorsement.
    We're going to be in Iraq a long time. A large number of 
troops are going to be needed, as the President acknowledged 
last week. There are a number of advantages to having a 
significant number of additional forces from other countries 
join us in the stability operations in Iraq. First, some U.S. 
forces, including Reserves, have seen extended combat and other 
exhausting duty. With U.S. forces stretched thin around the 
world, increasing the number of non-U.S. forces who can 
substitute for us in Iraq would reduce the numbers of, and the 
burden on, U.S. forces. As of now, the number of troops of 
other countries present on the ground will increase from the 
present number of 12,000 to a total of only 20,000 by the end 
of the summer--an increase of a mere 8,000 troops out of about 
165,000. That is difficult to sustain.
    Second, I would hope that internationalization would serve 
to reduce the threat to U.S. forces in more ways than reducing 
the quantity of our forces on the ground. Up until now, we have 
been the main target of those Baathists who stand to lose most 
when democracy is established in Iraq because we were the ones 
who brought down Saddam's regime, which provided privileged 
status to the Baathist minority. It would be harder for those 
Saddam loyalists to sustain attacks on forces wearing NATO or 
U.N. patches on their shoulders, because it would be dramatized 
to the people in Iraq that this is not a U.S./British 
occupation, but is an international effort to bring stability 
to the nation and to the region.
    Just as reaching out to the world is necessary, so is 
reaching in to the Iraqi people to help this effort succeed. As 
our chairman has indicated, that means turning over the 
civilian government as quickly as possible to the people of 
Iraq so that they understand that they are deciding their own 
future. It also means making better use of our TV capability in 
Iraq, so that Iraqis can be interviewed about, and talk to 
their fellow countrymen about the thousands of projects that we 
are engaged in to help rebuild their nation. We are rebuilding 
schools, we are bringing back water, we are fixing up 
neighborhoods, we are supplying food, we are moving garbage, 
and doing many other tasks needed to reconstruct Iraq. But we 
have done an inadequate job of getting that information to 
Iraqis.
    False propaganda that we blew up a mosque must be countered 
by Iraqis speaking about our rebuilding efforts in their 
communities, and assuring Iraqis that we are not there for 
domination, but to help them rebuild. Mr. Secretary, during our 
trip, we talked to Principal Deputy Under Secretary Cambone 
about speeding up that television presence and projection to 
Iraq. I know that he has probably by now already discussed that 
with you. The chairman and I and all the members of the 
delegation had some strong feelings about the importance of 
speeding up that effort.
    The United States has taken upon itself the daunting task 
of nation building in both Iraq and Afghanistan. The 
administration and Congress must work together to ensure 
success in those endeavors. It's essential in that regard for 
our Nation to understand the strategy and the milestones for 
achieving our objectives. Surely, we need to know how we will 
continue over the foreseeable future to maintain a large 
American military presence in your former region of command, 
General. It's been now, what, 2 days or 1 day?
    General Franks. Two days.
    Senator Levin. I know that the relaxation in your face is 
palpable. Just kidding. You did that with great glory. You 
handled it absolutely brilliantly, and never even showed the 
stress. But we have to let the American people know how we're 
going to be able to execute other missions of our national 
military strategy as well as maintaining the large presence in 
the CENTCOM region.
    Mr. Secretary, we very much look forward to your testimony 
as well as that of General Franks. We thank you for your 
service, your commitment, and I know you're grateful for the 
presence of your family today.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    General Franks, I want to add my congratulations and thanks for 
your life of public service as a soldier, culminating as combatant 
commander of the U.S. Central Command. You have proven yourself time 
and again during a unique period in our history. Historians will 
someday judge the military campaigns you led in Afghanistan and Iraq 
that swiftly defeated the Taliban and the forces of Saddam Hussein as 
brilliantly planned and executed examples of the military art and as 
foreshadows of future military tactics. While you would be the first to 
acknowledge that most of the credit and thanks must go to all who 
assisted you in that effort, and especially to the fighting men and 
women of the U.S. Armed Forces who executed those campaigns, your role 
as their commander was indispensable.
    Today we delve into the lessons learned and still are learning from 
the Afghanistan and Iraq campaigns and the ongoing stability 
operations. Of course, we can only scratch the surface of those issues 
here today. Some of the lessons learned will require time to develop, 
as the records of the wars are examined and input is received from all 
the levels for all of the Services that participated in those 
campaigns.
    Any inquiry into lessons learned will inevitably tend to emphasize 
areas of concern and will tend to spend less time on the innumerable 
things that were done well. It is essential we do this but that must 
not detract in any way from our appreciation for the superb performance 
of duty by the men and women of our Armed Forces, as they continue to 
conduct stability operations in Afghanistan and Iraq and prepare to 
execute other missions in support of our national military strategy.
    As thoroughly planned and brilliantly executed as the initial 
military phase of Operation Iraq Freedom appears to have been, the 
transition to post-conflict stability operations and the conduct of 
those operations appear to be far less so. We must succeed in this 
endeavor, and we need to understand the strategy for ensuring that 
success. Part of that strategy, hopefully, is the attempt to 
internationalize the security and nation-building efforts. To achieve 
that end, I believe it is critically important to seek NATO and United 
Nations support and endorsement. This will facilitate the recruitment 
of their member nations to our effort--in terms of providing troops, 
resources, expertise, and international legitimacy.
    The whole world has a stake in the stability of Iraq. It is a 
mystery to me why the administration has not reached out to NATO and to 
the U.N. Their support could bring significant additional forces, such 
as German and French forces through NATO, and Indian and Egyptian 
forces through a U.N. endorsement.
    We should end the feud with Germany and France. Those countries are 
major participants with us in Afghanistan and Bosnia and Kosovo. They 
should be asked to join with us in Iraq. We are going to be in Iraq a 
long time and a large number of troops are going to be needed as the 
President finally acknowledged last week.
    There are a number of advantages to having a significant number of 
additional forces from other countries join in the stability operations 
in Iraq. First, some U.S. forces, including Reserves, have seen 
extended combat and other exhausting duty in Iraq and, with U.S. forces 
stretched thin around the world, increasing the number of non-U.S. 
forces who can substitute for us, will reduce the numbers of and the 
burden on the U.S. forces. As of now, the number of troops of other 
countries that will be present on the ground will increase from the 
present number of 12,000 to a total of only 20,000 by the end of the 
summer--an increase of a mere 8,000 troops out of about 165,000. That 
is difficult to sustain.
    Second, I would hope that internationalization would serve to 
reduce the threat to U.S. forces in more ways than reducing the 
quantity of our forces on the ground. Up until now, we have been the 
main target of those Baathists who stand to lose most when democracy is 
established in Iraq, because we are the ones who brought down Saddam's 
regime which provided privileged status to the Baathist minority. It 
would be harder for those Saddam loyalists to sustain attacks on forces 
wearing NATO or U.N. patches on their shoulders, because it would be 
dramatized to the people of Iraq that this is not a U.S. occupation, 
but an international effort to bring stability to the nation and the 
region.
    Just as reaching out to the world is necessary, so is reaching in 
to the Iraqi people to help this effort succeed. That means turning 
over the civilian government as quickly as possible to the people of 
Iraq, so they understand they are deciding their own future. It also 
means making better use of our TV capability in Iraq, so Iraqis can be 
interviewed about and talk to their fellow countrymen about the 
thousands of projects that we are engaged in to help rebuild their 
nation. We are rebuilding schools, bringing back water, fixing up 
neighborhoods, supplying food, removing garbage, and many other tasks 
needed to reconstruct Iraq. But we have done a poor job of getting that 
information to Iraqis. False propaganda that we blew up a mosque must 
be countered by Iraqis speaking about our rebuilding efforts in their 
communities and assuring Iraqis we are not there for domination but to 
help them rebuild.
    The United States has taken upon itself the daunting task of nation 
building in both Iraq and Afghanistan. The administration and Congress 
must work together to ensure success in those endeavors.
    It is essential in that regard for our Nation to understand the 
strategy and milestones for achieving our objectives. Surely we need to 
know how we will continue over the foreseeable future to maintain a 
large American military presence in the CENTCOM region and still be 
able to execute other missions of the national military strategy.
    I look forward to the testimony and discussions to follow.

    Chairman Warner. Thank you, Senator Levin. I will now 
submit for the record Senator Allard's statement.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Thank you, Mr. Chairman. I welcome Secretary Rumsfeld and General 
Franks. I am pleased that you could join us today to share the lessons 
that we have learned during Operation Iraqi Freedom. Despite our 
victory, much is still going on--our forces are still trying to provide 
security and fend off attacks in Iraq; we are fighting a low-level 
insurgency in Afghanistan; and we are now considering sending troops to 
Liberia.
    I want to let you know that we appreciate your service and 
dedication to our country. Your leadership during this difficult time 
has been outstanding.
    I also want to take this moment to say a few words about the men 
and women in our military. Over the last 6 months, thousands of 
soldiers, sailors, airmen, marines, and coastguardmen have been 
mobilized and sent overseas to several remote and distant places. Over 
5,000 soldiers from Fort Carson, Colorado, have been deployed overseas. 
These soldiers have embraced their duty and have frequently expressed 
their determination to serve their country with pride and devotion.
    Also, we cannot overlook the service of our reservists and 
guardsmen. Many have had to leave their careers in order to answer the 
call of duty. They have responded with enthusiasm and commitment. I am 
thankful that we live in a nation where our military is widely 
respected and where so many are willing to step forward in defense of 
their country.
    Again, I thank you for appearing before us. I look forward to 
working with both of you to confront many of the national security 
challenges facing our country today.
    Thank you, Mr. Chairman.

    Chairman Warner. Mr. Secretary.

   STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE

    Secretary Rumsfeld. Thank you, Mr. Chairman, members of the 
committee. I would ask that my complete statement be put in the 
record.
    Chairman Warner. Without objection. The statements of both 
witnesses will be included in the record.
    Secretary Rumsfeld. I'd like to make a brief statement. 
I'll begin by saying a few words about the remarkable man 
seated next to me, General Tom Franks. On Monday, I was in 
Tampa to attend the change of command ceremony there. It was an 
occasion to reflect on General Tom Franks and what the CENTCOM 
leadership that he put together has accomplished during his 
tenure as combatant commander.
    Think back to September 11. It was a dark day for our 
country, to be sure, but how fortunate our country was to have 
General Franks and his team in command at CENTCOM. In the 
period since September 11, consider what has been accomplished. 
In just weeks, they developed and were executing a war plan for 
Afghanistan. They had employed a range of capabilities from the 
most advanced, such as laser-guided weapons, to antique 40-
year-old B-52s that had been updated with modern electronics, 
to rudimentary cavalry charges, driving the Taliban and al 
Qaeda from power in a matter of months.
    The plan they developed for Operation Iraqi Freedom was 
even more innovative and transformational, employing an 
unprecedented combination of speed, precision, surprise, and 
flexibility. One of the most interesting aspects of the 
campaign was mentioned in the opening statements about the 
lessons learned process. It began before the war ever began. 
There were something in excess of 50 to 70 people that General 
Franks installed as a team from Joint Forces Command in his 
command from the very start. They did a lot more than take 
notes to improve our performance for the next war. They 
actually provided immediate feedback, allowing CENTCOM 
leadership to apply lessons in real time and improve coalition 
performance in this war. General Franks has said to me that 
there wasn't a day that went by that there wasn't value added. 
I'll leave it to General Franks to describe the lessons he 
believes are most important. I've listed some in my testimony.
    We're still in the early stages of studying these lessons, 
and the conclusions that are drawn will most certainly affect 
how the Armed Forces of the United States and the Services 
organize, train, and equip for many years to come. This will be 
one of General Franks' truly enduring legacies. He led the 
coalition forces that liberated two nations, but how he 
liberated those two people--the tactics, the strategies that he 
developed and employed--will contribute to the freedom of our 
country and our people for years to come.
    So while General Franks may be leaving the Army, his 
service to our country will live on in the impact of Operation 
Enduring Freedom and Operation Iraqi Freedom that it will have 
on our budgets, our procedures, our training, our doctrine, and 
our joint warfighting. The people he led, those who served with 
him in Iraq and Afghanistan, will now take those 
transformational experiences to their next important commands 
and teach them to the next generation of leaders. So General 
Franks, I salute you and thank you for your truly remarkable 
service to our country.
    Today Iraqis do face the enormous challenge of rebuilding 
from decades of tyranny. Coalition forces are helping the Iraqi 
people get on the path to stability and democratic self-
government by helping Iraqis reestablish security and commerce, 
restore power and basic services, reopen schools and hospitals, 
and establish the rule of law. With each passing week, more 
services come online. Power and water are restored in more of 
the country, gas lines disappear, and more Iraqi police are on 
the streets.
    But we must not underestimate how difficult the task is 
before us. Yet despite the difficulties they face, most Iraqis 
are far better off today than they were 4 months ago. Let there 
be no doubt about that. The residents of Baghdad may not have 
power 24 hours a day, but they no longer wake up each morning 
in fear wondering whether this will be the day that a death 
squad would come to cut out their tongues, chop off their ears, 
or take their children away for ``questioning,'' never to be 
seen again.
    It's true there are some Iraqis who are not better off 
today. For the most part, they comprise a small, elite segment 
of Iraqi society that benefitted from the Saddam Hussein 
dictatorship, and they are understandably unhappy now that the 
regime that favored them, at the expense of the population, has 
been removed from power. Today some of them are in hiding, 
others are engaging in acts of sabotage and violence.
    Let me say a word about the security situation in Iraq. 
There seems to be a widely held impression that the regime 
loyalists are operating freely throughout the country, 
attacking coalition forces at will. That's clearly not the 
case. Large portions of Iraq are stable. If one looks at this 
map beside me, while there have been isolated incidents in 
other parts of the country, most of the recent attacks have 
been concentrated in Baghdad and in the three corridors that 
reach to the west, the north, and the east out of the Iraqi 
capital.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    At this moment, coalition forces are engaged in operations 
to deal with the threats in these areas. Indeed, a number of 
recent incidents in those regions are the result of offensive 
operations by the coalition, cases where the coalition forces 
have been seeking out and engaging pockets of enemy fighters. 
Mr. Chairman, the problem is real, but it's being dealt with in 
an orderly and forceful fashion by coalition forces.
    In Iraq, coalition forces drove the country's leaders from 
power, but unlike traditional adversaries in wars passed that 
sign a surrender document and hand over their weapons, the 
remnants of the Baath regime, Fedayeen death squads, and the 
Special Republican forces did not surrender. Some were killed 
or captured, but many others, particularly in Baghdad and to 
the north, faded into the population and are now forming 
pockets of resistance against coalition forces. We're now 
dealing with those remnants of the regime just as we are 
dealing with the remnants of al Qaeda and the Taliban that are 
hiding in the border areas of Afghanistan.
    In addition to the remnants of the former regime, coalition 
forces in Iraq are also dealing with tens of thousands of 
criminals, some estimate up to 100,000 that were let out of the 
prisons into the streets prior to the beginning of the war. 
They're dealing with foreign terrorists who have crossed into 
Iraq, in many cases from Syria, looking for an opportunity to 
harm the coalition and to try to shake our resolve in the war 
on terror. Well, they'll not succeed.
    So there are a number of sources of instability, but this 
much is certain: Iraq has been liberated. The Baathist regime 
has been removed from power and will not be permitted to 
return. But our war with terrorists, the remnants in Iraq, the 
remnants in Afghanistan, and terrorist networks across the 
globe continues. It will take time, but we will prevail. As 
President Bush made clear last week, there will be no return to 
tyranny in Iraq. Those who threaten the order and stability of 
that country will face ruin just as surely as the regime they 
once served.
    One of the challenges facing the coalition is finding 
Iraq's weapons of mass destruction, as the chairman mentioned. 
We're still early in that process, so the task before is 
sizable and complex. Major combat operations ended less than 10 
weeks ago. The Iraqi regime had 12 years to conceal its 
programs, to move materials, hide documents, disperse 
equipment, develop mobile production facilities, and sanitize 
known WMD sites, including 4 years with no U.N. weapons 
inspectors on the ground. Needless to say, uncovering those 
programs will take time.
    The coalition did not act in Iraq because we had discovered 
dramatic new evidence of Iraq's pursuit of weapons of mass 
murder. We acted because we saw the existing evidence in a new 
light through the prism of our experience on September 11. On 
that day, we saw thousands of innocent men, women, and children 
killed by terrorists, and that experience changed our 
appreciation of our vulnerability and the risks the U.S. faces 
from terrorist states and terrorist networks armed with 
powerful weapons.
    The United States did not choose war, Saddam Hussein did. 
For 12 years, he violated 17 U.N. resolutions without cost or 
consequence. His regime had an international obligation to 
destroy its weapons of mass destruction and to prove to the 
world that they had done so. He refused to do so. If he had, in 
fact, disarmed, why didn't he take that final opportunity to 
prove that his programs were ended and his weapons were 
destroyed? Why did he continue to give up tens of billions of 
dollars in oil revenue under U.N. sanctions when he could have 
had those sanctions lifted simply by demonstrating that he had 
disarmed? Why did he file what all agreed was a fraudulent 
declaration of his weapons with the United Nations? Why didn't 
he cooperate with the international community as Kazakhstan, 
Ukraine, and South Africa did?
    Had he done so, war would have been avoided. If he had, in 
fact, disarmed, he had everything to gain and nothing to lose 
by cooperating with the United Nations, yet he did not 
cooperate. He continued to lie and obstruct U.N. inspectors. 
The logical conclusion is that he did so because he wanted to 
keep his weapons, and he believed that he could continue to 
outwit the international community for another 12 years, just 
as he had for the past 12.
    The objective in the global war on terror is to prevent 
another attack like September 11 or a biological, nuclear, or 
chemical attack that would be worse before it happens. We can 
say with confidence that the world is a better place today 
because the United States led a coalition of forces into action 
in Iraq and because of General Tom Franks' skilled execution of 
the President's orders.
    Mr. Chairman, that completes my statement.
    [The prepared statement of Secretary Rumsfeld follows:]

             Prepared Statement by Hon. Donald H. Rumsfeld

    Mr. Chairman, thank you for this opportunity to meet with the 
committee. Let me begin by saying a few words about the remarkable man 
seated next to me--General Tommy Franks.
    On Monday, I was in Tampa to attend the change of command ceremony 
where General Franks handed the reins of U.S. Central Command to his 
able deputy, General John Abizaid.
    It was an occasion to reflect on General Franks and what the 
CENTCOM leadership team has accomplished during his tenure as the 
combatant commander. It is an extraordinary record of achievement.
    Think back to September 11--a dark day for our country. But how 
fortunate our Nation was to have General Franks and his team in command 
at CENTCOM.
    Consider what they have accomplished:
    In less than a month, they had developed and were executing a war 
plan for Afghanistan employing a range of capabilities--from the most 
advanced (such as laser-guided weapons), to the antique (40-year-old B-
52s updated with modern electronics) to the rudimentary (a cavalry 
charge)--they and our Afghan and coalition allies drove the Taliban and 
al Qaeda from power in a matter of months.
    The plan they developed for Operation Iraqi Freedom was even more 
innovative and transformational--employing an unprecedented combination 
of speed, precision, surprise, and flexibility.
    The Iraqi regime very likely expected the war to begin, as did the 
1991 Gulf War, with a sustained bombing campaign. Instead, General 
Franks started the ground attack before the air campaign--sending a 
large force of Special Operators into Western Iraq, followed by 
thousands of coalition forces streaming across the Kuwaiti border. 
Instead of a long march through the south, with pitch battles for each 
city along the way, they drove through to reach the gates of Baghdad in 
a matter of weeks--liberating the Iraqi capital and toppling the regime 
in less than a month.
    The plan was adaptable and flexible, allowing General Franks and 
his team to turn difficulties into opportunities. For example, the 
inability of coalition forces to enter Iraq from the north was 
disappointing. But instead of bringing the 4th Infantry Division out of 
the Mediterranean to the Gulf, General Franks kept them in the 
Mediterranean--creating the impression in Baghdad that the attack would 
not start until the coalition could open the northern front. This very 
likely contributed to the surprise of the Iraqi regime when the war 
began without those forces in the fight.
    One of the most interesting aspects of the campaign was the fact 
that the ``lessons learned'' process began before the war began. 
General Franks installed a ``lessons learned'' team from Joint Forces 
Command with his command from the start. They did more than take notes 
to improve our performance for the next war--they provided immediate 
feedback, allowing CENTCOM leadership to apply ``lessons learned'' in 
real time and improve coalition performance in this war.
    I'll leave it to General Franks to describe in detail the lessons 
he believes are most important. For my part, I'd say some key lessons 
so far include:

        <bullet> The importance of speed, and the ability to get inside 
        the enemy's decision cycle and strike before he is able to 
        mount a coherent defense;
        <bullet> The importance of jointness, and the ability of U.S. 
        forces to fight, not as individual de-conflicted Services, but 
        as a truly joint force--maximizing the power and lethality they 
        bring to bear;
        <bullet> The importance of intelligence--and the ability to act 
        on intelligence rapidly, in minutes, instead of days and even 
        hours; and
        <bullet> The importance of precision, and the ability to 
        deliver devastating damage to enemy positions, while sparing 
        civilian lives and the civilian infrastructure.

    Another lesson is that in the 21st century ``overmatching power'' 
is more important than ``overwhelming force.'' In the past, under the 
doctrine of overwhelming force, force tended to be measured in terms of 
mass--the number of troops that were committed to a particular 
conflict. In the 21st century, mass may no longer be the best measure 
of power in a conflict. After all, when Baghdad fell, there were just 
over 100,000 American forces on the ground. General Franks overwhelmed 
the enemy not with the typical three to one advantage in mass, but by 
overmatching the enemy with advanced capabilities, and using those 
capabilities in innovative and unexpected ways.
    There are many more lessons we will learn from the experience in 
Iraq, and we are still in the early stages of studying them. Admiral 
Giambastiani and his team at Joint Forces Command are leading this 
effort, and the conclusions that are drawn will most certainly affect 
how the U.S. Armed Forces and the Services organize, train and equip 
for many years to come.
    This will be one of General Franks' truly enduring legacies. He led 
the coalition forces that liberated two nations. But how he liberated 
those countries--the tactics and strategies he developed and employed--
will contribute to the freedom of our country and our people for years 
to come.
    So, while General Franks may be leaving the Service, his service to 
our country will live on--in the impact Operation Enduring Freedom and 
Operation Iraqi Freedom will have on budgets and procedures, training 
and doctrine. The people he led, those who served with him in Iraq and 
Afghanistan, will now take those transformational experiences to their 
next important commands, and teach them to the next generation.
    So, Tom, we salute you, and we thank you for your remarkable 
service to our country.

                                 * * *

    Mr. Chairman, Operation Iraqi Freedom will go down in history, not 
just for what was accomplished, but also for what did not happen as a 
result of the speed and flexibility of the war plan General Franks and 
his team employed. Consider just some of the things that did not occur:

        <bullet> Neighboring countries were not hit with Scud missiles.
        <bullet> The vast majority of Iraq's oil fields were not 
        burned.
        <bullet> There were no massive civilian casualties, or large 
        masses of refugees fleeing across borders into the neighboring 
        countries.
        <bullet> There was no large-scale collateral damage. The 
        infrastructure of the country is largely intact.
        <bullet> Bridges were not blown, and rail lines were protected.
        <bullet> The dams were not broken, and villages were not 
        flooded.

    So for all the difficulties in Iraq today--and there are tough 
challenges to be sure--it is important to keep in mind all of the 
problems that Iraqis do not have to overcome because of the way the war 
was fought. Today, Iraqis do not have to rebuild oil wells, bridges, 
roads and dams that were not destroyed in the war. They do not have to 
bury large numbers of innocent civilians, or rebuild residential 
neighborhoods, because of the compassion and precision with which 
coalition forces fought.
    Iraqis do face the enormous challenge of rebuilding from three 
decades of tyranny. We must not underestimate how difficult that task 
will be. But we can take comfort knowing that, as we freed them from 
tyranny, we did not add to their burden by destroying Iraq's 
infrastructure. To the contrary, we saved it.
    Today, coalition forces are helping the Iraqi people rebuild and 
get on the path to stability and democratic self-government. We are 
making progress in helping Iraqis reestablish security and commerce; 
restore power and basic services; reopen schools and hospitals; and 
establish rule of law. With each passing week, more services come 
online; power and water are restored in more of the country; gas lines 
disappear; and more Iraqi police are on the streets.
    Indeed, civil society is beginning to form. There are now dozens of 
independent newspapers sprouting up, in Baghdad and throughout the 
country. Town councils and associations are forming, and people are 
expressing opinions openly for the first time in decades.
    Vendors in Baghdad are selling videotapes detailing the atrocities 
that took place in Saddam's prisons. As the President put it last week, 
these are ``the true monuments of Saddam Hussein's rule--the mass 
graves, the torture chambers, the jail cells for children.''
    Despite the difficulties they face, most Iraqis are far better off 
today than they were 4 months ago. The residents of Baghdad may not 
have power 24 hours a day, but they no longer wake up each morning in 
fear, wondering whether this will be the day that the death squads come 
to cut out their tongues, chop off their ears, or take their children 
away for ``questioning''--never to be seen again.
    It is true there are some Iraqis who are not better off today--
those who comprised the small, elite segment of Iraqi society that 
benefited from the dictatorship. Such people exist in any dictatorship. 
They are understandably unhappy now that the regime that favored them 
has been removed from power. Today some of them are in hiding. Others 
are engaging in acts of sabotage and violence.
    Let me say a word about the security situation in Iraq today. There 
seems to be a widely held impression that regime loyalists are 
operating freely throughout the country, attacking coalition forces at 
will. That is not the case.
    Large portions of Iraq are stable. Most of the recent attacks have 
been concentrated in Baghdad and three corridors reaching west, north, 
and east out of the Iraqi capital.
    At this moment, coalition forces are engaged in operations to deal 
with the threats in these areas. Indeed, a number of the recent 
incidents in those regions are the result of offensive operations by 
the coalition--cases where coalition forces have sought out and engaged 
enemy fighters.
    Mr. Chairman, the problem is real--but it is being dealt with in an 
orderly and forceful fashion by coalition forces.
    Some may ask: Why is the Coalition still engaging hostile forces 
nearly 10 weeks after major combat operations ended? The answer has to 
do with the nature of the enemy.
    In Iraq, coalition forces drove the country's leaders from power. 
But unlike traditional adversaries of wars past that sign a surrender 
document and hand over their weapons, the remnants of the Baath regime 
and Fedayeen death squads in Iraq did not surrender. Some were killed 
or captured, but many others faded into the population and are forming 
pockets of resistance against coalition forces.
    We now have to deal with those remnants of the regime--just as we 
are dealing with the remnants of al Qaeda and the Taliban hiding in 
border areas of Afghanistan. Those battles will likely go on for some 
time.
    In Iraq, we face added challenges. In addition to remnants of the 
former regime, coalition forces are also dealing with tens of thousands 
of criminals the regime released into the streets before the war began. 
They are now at large and are doing what criminals do--looting, 
robbing, and killing people.
    In addition, our forces must also deal with foreign terrorists who 
crossed into Iraq for an opportunity to harm the coalition and to try 
to shake our resolve in the war on terror. They will not succeed.
    So there are a number of sources of instability. But this much is 
certain: Iraq has been liberated. The Baathist regime has been removed 
from power and will not be permitted to return. But our war with 
terrorists--the remnants in Iraq and Afghanistan and terrorist networks 
across the globe--continues. It will take time.
    Just as we are dealing with terrorist networks in Afghanistan--
breaking them up as they attempt to reconstitute--we will deal with 
them in Iraq. It will take time, but we will prevail.
    As President Bush made clear last week:

        ``There will be no return to tyranny in Iraq. Those who 
        threaten the order and stability of that country will face 
        ruin, just as surely as the regime they once served.''

    To help ensure long-term security, the coalition is forming a new 
Iraqi army. Walt Slocombe, the Director of Security Affairs for the 
Coalition Provisional Authority in Iraq, announced last month the start 
of recruitment for the new army, with an initial goal of having a 
division of 12,000 men ready within a year, and 40,000 less than 3 
years. As with the training of the Afghan National Army, the objective 
is to create a situation where, over time, Iraqis can take 
responsibility for their own stability and security and not need to 
depend on foreign forces.
    One of the challenges facing the coalition is finding Iraq's 
weapons of mass destruction programs. We are still early in the 
process, and the task before us is sizable and complex. Major combat 
operations ended less than 10 weeks ago. The Iraqi regime had 12 years 
to conceal its programs--to move materials, hide documents, disperse 
equipment, develop mobile production facilities, and sanitize known WMD 
sites--including 4 years with no U.N. weapons inspectors on the ground. 
Uncovering those programs will take time.
    The coalition did not act in Iraq because we had discovered 
dramatic new evidence of Iraq's pursuit of WMD; we acted because we saw 
the existing evidence in a new light--through the prism of our 
experience on September 11. On that day, we saw thousands of innocent 
men, women, and children killed by terrorists. That experience changed 
our appreciation of our vulnerability--and the risks the U.S. faces 
from terrorist states and terrorist networks armed with weapons of mass 
murder.
    The United States did not choose war--Saddam Hussein did. For 12 
years, he violated 17 United Nations resolutions without cost or 
consequence. His regime had an international obligation:

        <bullet> To destroy its weapons of mass destruction; and
        <bullet> To prove to the world that they had done so.

    He refused to do so.
    It was the U.N. Security Council which passed the 17th resolution, 
declaring Saddam Hussein was in ``material breach'' of his disarmament 
obligations and giving him one ``final opportunity'' to disarm. If he 
had in fact disarmed, why didn't he take that final opportunity to 
prove that his programs were ended and his weapons destroyed? Why did 
he continue to give up tens of billions of dollars in oil revenue under 
U.N. sanctions when he could have had those sanctions lifted simply by 
demonstrating that he had disarmed? Why did he file what all agreed was 
a false declaration with the U.N.? Why didn't he cooperate with the 
international community--as Kazakhstan, Ukraine, and South Africa did?
    Had he done so, war could have been avoided. If he had in fact 
disarmed, he had everything to gain and nothing to lose by cooperating 
with the U.N. Yet he did not cooperate. He continued to lie and 
obstruct the U.N. inspectors. The logical conclusion is that he did so 
because he wanted to keep his weapons--and believed that he could 
continue to outwit the international community for another 12 years--
just as he had for the past 12 years--and survive.
    Mr. Chairman, terrorist regimes have been removed in Iraq and 
Afghanistan--but the global war on terror continues. The President 
declared last week:

        ``As long as terrorists and their allies plot to harm America, 
        America is at war. . . . From the beginning, we have known the 
        effort would be long and difficult, and that our resolve would 
        be tested. We know that sacrifice is unavoidable. . . . We did 
        not choose this war. Yet, with the safety of the American 
        people at stake, we will continue to wage this war with all our 
        might.''

    The objective in the global war on terror is to prevent another 
attack like September 11--or a biological, nuclear, or chemical attack 
that could be far worse--before it happens.
    One wonders, looking back on history, what might have happened if 
the world heeded Winston Churchill's warnings in the 1930s; if, instead 
of ignoring the growing evidence, free nations had united, and formed a 
coalition to intervene and stop Hitler before he completely rearmed--
before he invaded Czechoslovakia, and Poland, and set Europe aflame. 
Consider the lives that would have been saved if the world had faced up 
to the mounting evidence and the compelling logic of the case Churchill 
presented, instead of waiting for perfect evidence of his capabilities 
and intentions in the form of 25 million dead human beings.
    The historical record of appeasement is a sorry one. In an age when 
terrorists and dictators are seeking nuclear, chemical, and biological 
weapons of mass murder, we need to consider the lessons of history.
    We can look to our experience on September 11. We can look to 
Saddam Hussein's brutal record of using chemical weapons on foreign 
forces and on his own people, his history of aggression against his 
neighbors, his rewards to families of suicide terrorist bombers, and 
his stated hostility against the United States. We can look to his 12 
years of defiance of the international community's demand that he 
disarm--and the near unanimous assessment of successive Democratic and 
Republican administrations, the Intelligence Community (both ours and 
those of foreign countries), Congress, and the U.N. that he had weapons 
of mass destruction. We can look at all this and imagine a world in 
which such a dictator was permitted to develop nuclear, chemical, or 
biological weapons, while the world's free nations stood by.
    We can say, with confidence, that the world is a better place today 
because the United States led a coalition of forces into action in 
Iraq--and because of General Tom Franks' skilled execution of the 
President's orders.
    So, yes, we are paying a price in Iraq and elsewhere around the 
world today--a price in lives and treasure. But it must be compared to 
the price we paid on September 11 and the price we would have paid for 
doing nothing.
    Thank you, Mr. Chairman.

    Chairman Warner. Mr. Secretary, before we hear from the 
General, I think it's important that you interpret in some 
detail this important map. While we hear daily the stories of 
attacks, my understanding of that map, based also on my trip, 
is the green indicates those sections of Iraq which are 
relatively secure. The dark center brown is where the most 
intense number of attacks are coming, and the lighter shade of 
green are between the two in terms of level of threat. Is that 
correct?
    Secretary Rumsfeld. That is correct and if you'll recall, 
when the U.S. and coalition forces moved up from the south, 
most of the fighting occurred south of Baghdad and in Baghdad, 
and, to a considerable extent, the forces in Baghdad and north, 
in the Saddam Hussein strongholds, in many cases disappeared 
into the countryside and still are there. So they still need to 
be dealt with.
    Chairman Warner. Those forces did not witness the maneuver 
of our heavy forces which at one time were anticipated. Had our 
relations with Turkey been such, we could have inserted heavy 
forces in the north. Is that not correct?
    Secretary Rumsfeld. It's true. We did end up, General 
Franks did, of course, with forces in the north and there was 
fighting up in that area, but it was not as extensive as it was 
in the areas to the south.
    Chairman Warner. Thank you.
    General Franks.

   STATEMENT OF GEN. TOMMY R. FRANKS, USA, COMMANDER, UNITED 
                     STATES CENTRAL COMMAND

    General Franks. Mr. Chairman, thank you very much. Senator 
Levin, it's an honor to appear again before the committee. I'd 
ask that my full statement be entered into the record, Mr. 
Chairman.
    Chairman Warner. Without objection.
    General Franks. Since we last sat in this room, much has 
taken place in the Central Command area of responsibility. A 
brutal regime has been removed in Iraq to be sure, and efforts 
are ongoing to help Iraqis build a new future. Coalition forces 
have continued to help Afghanistan and those people make 
strides toward independence and have continued to seek out and 
destroy terrorists and their networks in that country as well 
as across the central region as part of the global war on 
terrorism. I look forward to discussing these important 
subjects today with the committee.
    Let me begin by bringing a message to this committee from 
some 280,000-plus members of our coalition, those that I have 
been privileged to command. That message for the committee is 
very simple. It's thank you. These men and women in uniform 
very much appreciate the support of this body and the support 
of this committee and all that you have done on their behalf, 
Mr. Chairman.
    Earlier in this week, General John Abizaid took the reins 
of Central Command, and, in fact, he is a principled leader, as 
this committee knows, and a soldier who brings a great deal to 
United States Central Command. I am proud to relinquish command 
to him and to consider him a friend.
    I'd like to begin today by recognizing coalition nations 
whose contributions of forces, equipment, and economic support 
have signaled worldwide commitment to the eradication of 
terrorism.
    Over the past year, the coalition has been steadfast, and 
today there are 63 nations represented in Tampa at our 
headquarters, perhaps the largest coalition we have ever seen. 
A force has been built in the Central Command area of 
responsibility to continue to move forward to the complete 
achievement of all of our objectives in Operation Iraqi Freedom 
as well as in Operation Enduring Freedom, as the Secretary 
said, to prevent recurrence of the events we saw on September 
11, 2001, to deny terrorists opportunities to use weapons of 
mass destruction on our people, to bring terrorists to justice, 
and to dismantle their networks.
    We've also established a visible and viable presence in the 
Horn of Africa, Mr. Chairman, since we last met in order to 
continue that work. Work in the central region is underway, but 
as I'll discuss in a moment, the environment within Central 
Command's region remains challenging and volatile, as the 
Secretary said. Securing U.S. interests in the future and 
ensuring regional stability will continue to involve risks in 
this region and will continue to require the commitment of our 
resources.
    This area encompasses 6.4 million square miles and about a 
half a billion people, as the committee knows, and it runs from 
the Horn of Africa, the Arabian Peninsula to Pakistan and South 
Asia up to Central Asia, as far north as Kazakhstan, including 
the waters of the Red Sea, the northern Indian Ocean, the 
Persian Gulf, key maritime chokepoints of Suez, the Bab el-
Mandeb and the Straits of Hormuz. This is an area that 
represents all of the world's major religions and at least 18 
major ethnic groups. National economies in this region produce 
annual per capita incomes which vary from very little, perhaps 
a few hundred dollars a year, to tens of thousands of dollars. 
The area includes dictatorships, absolute monarchies, failed 
states, democracies, and governments in transition toward 
democracy.
    Humanitarian crises, resource depletion and overuse, 
religious and ethnic conflicts, demographic challenges, and 
military power imbalances create social, economic, and military 
volatility. These factors are particularly significant given 
the geographical and economic importance of the region where 
natural resources provide extraordinary opportunities, but they 
also give rise to a range of socioeconomic problems.
    In the past 2 years, Central Command has been at the 
leading edge of the global war on terrorism, and the context I 
just provided makes it perhaps understandable why the initial 
focus on the war on terrorism would be in this region. The 
command is engaged with U.S. and coalition forces today in both 
Afghanistan and Iraq, and the commitment, as the Secretary 
said, remains strong as our leaders and our troopers continue 
to work to bring security across the region.
    On the ground today in Iraq, our troops are conducting 
ongoing operations. We're combining civil military work with 
direct offensive military action which will continue to seek 
out and bring justice to leaders of the fallen regime and 
others, as mentioned, Mr. Chairman, by yourself as well as 
Secretary Rumsfeld.
    Priorities will continue to include forming and training 
police and security forces as well as the creation of a new 
Iraqi army. We'll continue to work to improve the 
infrastructure, working with Iraqis to support the 
establishment of local governance, providing emergency medical 
care and other humanitarian assistance. Much dangerous work 
remains to be done, but millions of Iraqis have freedoms today 
which 4 months ago were only a dream.
    Our troops continue to work closely with Ambassador Jerry 
Bremer and the entirety of his civilian team to provide the 
tools he needs to be successful. Progress is being made and our 
country is justifiably proud of what has been accomplished. I 
think about lessons learned, as the Secretary mentioned, I'll 
talk to just a few. The combat work inside Iraq saw a maturing 
of joint force operations in a number of ways. Some 
capabilities we saw reached new levels of performance. From a 
joint integration perspective, our experience in Operations 
Southern Watch, Northern Watch, and Enduring Freedom in 
Afghanistan contributed to the jointness and the culture within 
the headquarters of our area.
    These operations helped to improve our interoperability, 
they also helped to improve our command, control, 
communications, computer, and intelligence networking. Our 
forces were able to achieve operational objectives by the 
integration of maneuver forces, special operations forces, 
other government agency assets, precision lethal fires, and 
nonlethal fires. We saw for the first time integration of 
forces rather than deconfliction of forces. I believe perhaps 
most transformational is that particular notion, the business 
of the integration of forces rather than, as we have seen in 
the past, simple deconfliction of forces.
    It seems to me that this integration of the conventional, 
as you said, Mr. Chairman, air, ground, sea forces to leverage 
special operations capabilities dealt effectively with 
asymmetric terrorist-like threats and enabled precision 
targeting simultaneously in the same battle, in the same battle 
space. Similarly we have seen in both Afghanistan and Iraq the 
ability of special operators to use conventional forces in 
order to set conditions for the success of those forces. 
Operational fires have been used to spearhead ground maneuver, 
and our forces have been able to sustain the momentum of the 
offensive while defeating enemy formations in all kinds of 
terrain, open desert terrain, complex terrain, and urban 
terrain.
    We saw jointness, precision munitions, command and control, 
the readiness of our equipment, the state of training of our 
troops, and coalition support as very clear winners during 
Operation Enduring Freedom. The Secretary said that I would 
also mention some of the lessons in my remarks, and I'll do 
that briefly now. We also identified a number of areas where we 
believe we require additional work.
    Fratricide prevention suffered from a lack of standardized 
combat identification, so fratricide prevention remains work 
that we're going to have to focus on in the future. Deployment 
planning and execution were cumbersome and were much more 
closely akin to those required during the Cold War than to 
those required for force projection by our country in the 21st 
century. Coalition information sharing needs to be improved at 
all levels. When we operate a coalition, we need the ability to 
reach back and forth, to and with coalition members. Human 
intelligence and communications bandwidth also represent areas 
where we're going to be required, Mr. Chairman, to focus effort 
in the future.
    A few comments on Iraq and where we stand today. As the 
Secretary says, security continues to improve. Portions of Iraq 
are now and will remain for some time, however, very dangerous. 
The term stability operations does not infer that combat 
operations have ended; indeed, they have not. Our forces are 
engaged in offensive work as members of this committee saw 
during a recent trip all over Iraq.
    As we move forward, the composition and size of the forces 
that we have in that country will change to match the 
conditions, and it will ever change to match the requirements 
recognizing that the enemy we see there also has a vote. So we 
will size ourselves, as we have in the past, in order to meet 
the conditions that we see developed in the future.
    Factors that will influence our force mix inside Iraq will 
have to do, as Senator Levin said, with coalition 
contributions. They will have to do with what we see in the way 
of the enemy threat. They will have to do with what we see in 
the success of the Iraqi people themselves as they field their 
security forces, police forces, infrastructure security forces, 
single site protection capabilities, and as we assist them in 
fielding a new Iraqi army.
    Integration of coalition forces is a major near-term 
effort. The United Kingdom and Poland are committed at this 
point to leading divisions in southern Iraq and many partner 
nations have offered forces to fill those units. Deployment of 
those forces has already begun, Mr. Chairman. We continue 
discussions today with India and Pakistan. At this moment, 19 
coalition partners are on the ground in support of operations 
in Iraq with deployment of an additional 19 countries pending. 
An additional 11 nations are conducting military-to-military 
discussions with the Secretary's staff, the Joint Staff, and my 
staff in Tampa today.
    At this point, we see some 35,000 policemen as having been 
hired, Iraqi policemen. This represents 55, perhaps 60 percent 
of a total requirement, around 60,000 policemen in that 
country. Until we see the complete standing up of that number 
of security forces and policemen, we will continue joint 
patrolling, we'll continue to train with and work with these 
Iraqi forces as we bring them on.
    Creation of a new Iraqi army is also moving forward. The 
plan envisions three divisions located near Mosul, Baghdad, and 
Basra. They will provide for territorial defense and they will 
conduct stability operations. Over the next year, our goal is 
to field approximately nine battalions in order to do that 
work, and initially those forces will focus on performing 
security at fixed sites, assisting in the movement of convoys, 
and providing border control. As it develops, this force will 
work with coalition forces to contribute to stability and 
security throughout Iraq.
    Underlying all security functions is the need to continue 
humanitarian assistance and the conduct of civil military 
operations to improve the quality of life for Iraqi people. It 
is obvious to all that in order to see Iraq move forward into 
the future, security must in fact come along at a pace that 
sees the betterment of the conditions of life for the Iraqi 
people and the establishment of Iraqi governance, the placing 
of an Iraqi face on the government there. It is in our interest 
to move these items forward as quickly and thoughtfully as we 
can, and we'll continue to do that.
    I can't overstate the value of coalition contribution to 
success we have seen up to this point. Hospitals, medical 
supplies, water, food, transportation, expertise in rebuilding 
is being provided by coalition members. The fact that there has 
been no humanitarian disaster in Iraq, no widespread outbreak 
of disease, no hunger, no refugees, or massive problems with 
displaced persons, or any other predicted consequence of war, 
is due in large part to the contribution of our allies.
    The Coalition Provisional Authority, Ambassador Jerry 
Bremer, and our forces will continue to work in concert with 
international and nongovernmental agencies to reverse the 
result of more than three decades of a brutal regime.
    Mr. Chairman, let me conclude by saying the global war on 
terrorism is ongoing. The precision, determination, and 
expertise of our military forces and our coalition partners 
have brought about the liberation of both Afghanistan and Iraq 
in lightning speed with minimum bloodshed. However, these two 
nations have only taken the first steps toward freedom. The 
United States and our coalition partners must be there to 
support the whole journey.
    While we have accomplished a lot, the potential for 
terrorist acts and other setbacks remains very real. 
Afghanistan has a new fragile government, a new army, and with 
coalition support the nation is making strides toward long-term 
stability. In Iraq, Saddam Hussein's regime was destroyed and 
regime supporters are being rooted out. Our focus has changed 
from military destruction of a regime to providing security and 
humanitarian assistance assisting the Iraqi people to grow a 
representative form of government.
    Decisive combat operations have been completed, but much 
work remains to be done. I, as every member of this committee, 
Mr. Chairman, am very proud of each and every one of the men 
and women who have continued to serve selflessly and tirelessly 
in the execution of our mission from Egypt to Kazakhstan, from 
Suez to Pakistan, regardless of the uniform of service they 
wear or the nation from which they come.
    I thank Congress and the American people for the tremendous 
support you have shown and what you have done for me, Mr. 
Chairman. I'd be pleased to join the Secretary in answering 
your questions.
    [The prepared statement of General Franks follows:]

            Prepared Statement by Gen. Tommy R. Franks, USA

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. Since we last met here together, much has taken place 
in the Central Command (CENTCOM) area of responsibility (AOR). We have 
removed a brutal regime in Iraq and have begun to help Iraq build its 
new future. Our forces have continued to help Afghanistan make strides 
towards independence, and have continued to help the Afghan people 
develop their nation while continuing to seek and destroy terrorists 
and their networks all across the central region. I look forward to 
discussing these important subjects with you and to your questions.
    Let me begin by bringing you a message from the more than 281,000 
U.S. and coalition troops that I have been privileged to command. That 
message is thank you. Throughout both Operation Iraqi Freedom and 
Operation Enduring Freedom, our forces in the field have been blessed 
to serve civilian leaders who set clear military objectives and then 
provide our men and women in uniform the tools they need to win. On 
their behalf, let me thank you for all that you continue to do for the 
troops.
    Earlier this week General John Abizaid took the reins of command at 
CENTCOM. He is a principled leader and soldier who has been tested 
under fire, and I am confident about the future of CENTCOM under his 
leadership.
    I would like to begin today by recognizing the coalition nations 
whose contributions of forces, equipment, and economic support have 
signaled a worldwide commitment to eradicate terrorism. Over the past 
12 months, the coalition has been steadfast. Today there are 63 nations 
represented at Central Command's Tampa headquarters.
    We have built a force in the CENTCOM AOR to help achieve our 
objectives in Operation Iraqi Freedom and Operation Enduring Freedom--
to deny terrorists the use of weapons of mass destruction (WMD) and to 
bring terrorists to justice and dismantle their terrorist networks. We 
have also established a more visible and viable presence in the Horn of 
Africa (HOA) in order to combat terrorism and promote stability. Work 
in the Central Region is underway, but, as I will discuss in the 
sections ahead, the environment within the region remains challenging. 
Securing U.S. interests and ensuring regional stability will involve 
risks and will require continuing commitment of resources.

                     CENTCOM AREA OF RESPONSIBILITY

    Our AOR encompasses 6.4 million square miles, from Egypt and Jordan 
to the HOA, the Arabian Peninsula, Pakistan in South Asia, and the 
Central Asian states as far north as Kazakhstan. It includes the waters 
of the Red Sea, the Northern Indian Ocean, the Persian Gulf, and the 
key maritime choke points of the Suez Canal, the Bab el Mandeb, and the 
Strait of Hormuz. The area is home to more than 500 million people, 
representatives of all the world's major religions and at least 18 
major ethnic groups. National economies produce annual per capita 
incomes varying from a few hundred dollars to tens of thousands of 
dollars. CENTCOM's AOR includes dictatorships, absolute monarchies, 
failed states, democracies and governments in transition toward 
democracy. Humanitarian crises, resource depletion and overuse, 
religious and ethnic conflicts, demographic challenges and military 
power imbalances that generate social, economic, and military 
volatility characterize this area. These factors are particularly 
significant given the geographical and economic importance of the 
region where natural resources provide extraordinary economic 
opportunities. However, they also give rise to a range of socioeconomic 
problems and rivalries. Some states have compensated for their lack of 
mineral wealth through the industry of their people. However, other 
nations have not generated the will, resources or organization to move 
ahead. These factors will not be easily or quickly overcome and signal 
additional challenges in the future.
    In the past 2 years, CENTCOM has been at the leading edge of the 
global war on terrorism (GWOT). The Command is engaged with U.S. and 
coalition forces both in Afghanistan and Iraq. Our commitment remains 
strong as our leaders and troopers work to bring security throughout 
the region.
    On the ground in Iraq today, our troops are conducting ongoing 
operations, combining Civil Military Operations with direct military 
action to seek out and bring to justice leaders of the fallen regime. 
Our priorities include forming and training police, security forces, 
and the new Iraqi army; improving the infrastructure; supporting the 
establishment of local government; and providing emergency medical care 
and other humanitarian assistance. Much dangerous work remains to be 
done, but millions of Iraqis have freedoms today which 4 months ago 
were only a dream.
    Our troops are working closely with Ambassador Jerry Bremer and his 
civilian team to provide the tools he needs to be successful. Progress 
is being made, and our country is justifiably proud of all that has 
been accomplished.

                OPERATION IRAQI FREEDOM--LESSONS LEARNED

    Decisive combat in Iraq saw a maturing of joint force operations in 
many ways. Some capabilities reached new performance levels. From a 
joint integration perspective, our experience in Operations Southern 
and Northern Watch, and Enduring Freedom helped to develop a joint 
culture in our headquarters and in our components. These operations 
helped to improve joint interoperability and improve our joint C\4\I 
networks as joint force synergy was taken to new levels of 
sophistication. Our forces were able to achieve their operational 
objectives by integrating ground maneuver, special operations, 
precision lethal fires and nonlethal effects. We saw for the first time 
integration of forces rather than deconfliction of forces. This 
integration enabled conventional (air, ground, and sea) forces to 
leverage SOF capabilities to deal effectively with asymmetric threats 
and enable precision targeting simultaneously in the same battle space. 
Likewise, Special Operators were able to use conventional forces to 
enhance and enable special missions. Operational fires spearheaded our 
ground maneuver, as our forces sustained the momentum of the offense 
while defeating enemy formations in open, complex, and urban terrain.
    We saw jointness, precision munitions, C2, equipment readiness, 
state of training of the troops, and coalition support as clear 
``winners'' during OIF.
    That said, we also identified a number of areas which require 
additional work. Fratricide prevention suffered from a lack of 
standardized combat identification. Units in theater arrived with seven 
different combat ID systems, and our commanders were forced to overcome 
these shortcomings ``on the fly''. Deployment planning and execution 
were cumbersome and need to be improved to meet the operational demands 
of the 21st century. Coalition information sharing must be improved at 
all levels. Finally, human intelligence and communications bandwidth 
are also areas which will require continuing focus.

              OPERATION ENDURING FREEDOM--LESSONS LEARNED

    In Afghanistan, coalition forces continue to deny anti-coalition 
elements sanctuary while disrupting their ability to plan, target, 
rehearse, and execute operations. This is accomplished through active 
combat patrolling from secure fire bases and forward operating bases 
(FOB) in order to promote stability, enhance the legitimacy of the 
Interim Transitional Government of Afghanistan (ITGA), and prevent the 
re-emergence of terrorism.
    During OEF, we saw a number of functional areas and capabilities 
that reached new levels of performance. In some areas, improvements 
were made prior to Operation Iraqi Freedom. For example, the DOD/CIA 
synergy, which worked well during OEF, was built upon the integration 
of liaison officers in each of our headquarters which facilitated 
teamwork and paid great dividends in Iraq.
    Also, we continued to leverage coalition strengths as new coalition 
members were added. ``The mission determines the coalition; the 
coalition does not determine the mission.''
    Advanced technologies employed during OEF were also critical. The 
command and control of air, ground, naval, and SOF from 7,000 miles 
away was a unique experience in warfare as our forces achieved 
unprecedented real time situational awareness and C2 connectivity. We 
learned that precision-guided munitions represent a force multiplier. 
Low collateral damage during both OEF and OIF was a fundamental factor 
in achieving our objectives. Early in OEF we saw the need for an 
unmanned sensor-to-shooter capability to support time-sensitive 
targeting (TST). The armed Predator demonstrates great potential and 
will be a high payoff system in the future. Blue Force Tracking and 
enhanced C\4\I systems increase lethality and decrease response time, 
and also represent transformational technologies. We will continue with 
development of Global Hawk as an unmanned, high-altitude, long loiter 
time, beyond line-of-sight multi-sensor UAV, and will work to 
incorporate laser designation and delivery of precision weaponry from 
that platform.
    The integrated common operating picture (COP) was a very powerful 
tool. Tracking systems were previously Service unique. Workarounds were 
developed for OIF, but there is a need to develop one integrated, user-
friendly, C\4\I architecture that captures blue and red air, ground and 
maritime forces.
    Strategic lift and tanker aircraft availability were stretched 
during OEF and OIF. These forces are critical to rapid future force 
projection, and we must enhance this vital capability in the years 
ahead.
    Combined and joint training of our forces was also a key factor 
during OEF and was carried over into OIF. Our military forces are the 
best-prepared forces in the world, and I thank the Members of Congress 
for providing assets and funding to train these wonderful fighting men 
and women to give them every possible advantage.
    Finally, our ability to take action in OEF was predicated on 
``Strategic Anchors,'' one of which was ``Cooperative Security'' 
relationships, which paid high dividends in basing, staging, and over 
flight rights during recent crisis.

                        REGIONAL CONCERNS--IRAQ

    Although security continues to improve, portions of Iraq are now, 
and will remain for some time, dangerous. The term ``stability 
operations'' does not infer that combat actions have ended. Military 
forces are still required to set conditions that enable progress. As we 
move forward, the composition and size of our forces will change to 
match emerging requirements. Factors that influence our force mix will 
include coalition force contributions, threat, and success in fielding 
Iraqi police forces, security, and the new Iraqi army.
    Integration of coalition forces is a major near-term effort. The 
United Kingdom and Poland are committed to leading divisions in 
Southern Iraq, and many partner nations have offered forces to fill 
those units. Deployment of those forces has already begun. We continue 
discussions with India and Pakistan. At this moment, 19 coalition 
partners are on the ground in support of military operations in Iraq, 
with deployment pending for 19 additional countries. An additional 11 
nations are conducting military to military discussions with respect to 
possibly deploying forces to Iraq in support of stability and security 
operations.
    At this point some 35,000 police have been hired. This fills about 
half of the requirement nationwide. Throughout the country, many of 
these law enforcement officers are conducting joint patrols with U.S. 
military forces, and we will ultimately transition responsibility for 
security and stability to the Iraqis. In the near term, we must build 
upon the momentum we have generated in this area.
    Creation of the new Iraqi army is moving forward. The plan 
envisions three divisions located near Mosul, Baghdad, and Basra to 
provide territorial defense and conduct stability operations. In the 
first year, the goal is to field approximately nine battalions. 
Initially, Iraqi forces will focus on performing security functions at 
fixed sites, convoy security, and border control. As it develops, this 
force will work with coalition forces to contribute to stability and 
security throughout Iraq.
    Underlying all security functions is the need to continue 
humanitarian assistance and the conduct of civil-military operations to 
improve the quality of life for the Iraqi people. In this regard, our 
regional allies have been invaluable. Neighboring nations have provided 
hospitals, medical supplies, water, food, and expertise in beginning 
the rebuilding process. The fact that there has been no humanitarian 
disaster in Iraq; no widespread outbreak of disease, hunger, refugees 
or displaced persons; or any of the other predicted consequences of war 
is due, in large part, to the generosity of our allies. The CPA and 
coalition forces will continue to work in concert with international 
and nongovernmental agencies to reverse the result of years of neglect 
by a brutal regime.

                              AFGHANISTAN

    Our efforts in Afghanistan have given the Afghan people a chance to 
break the chain of violence, civil war, and poverty that many have 
endured their entire lives. Our coalition has made considerable 
progress over the last 18 months, but much remains to be done. The 
average Afghan now enjoys basic freedoms, a higher quality of life, and 
prospects for a better future. A Loya Jirga to ratify a new 
Constitution will be held this fall and national elections are 
scheduled for next summer. President Karzai's transitional government 
continues to develop as he works to expand its authority beyond Kabul. 
Security and stability are the keys to President Karzai's success. 
Since 1 May, our primary focus has shifted to stability operations. A 
stable and secure environment enables reconstruction. U.S. Civil-
Military Operations forces have completed more than 150 projects and 
nearly 300 more are underway. To date, these projects have improved 
drinking water, medical care, transportation, communications, 
irrigation, and agriculture throughout the country. To further our 
reconstruction efforts and to help foster stability, Provincial 
Reconstruction Teams (PRT) are working in Bamian, Konduz, and Gardez. A 
fourth U.K.-led team will soon deploy to Mazar-e-Sharif, and other PRTs 
are being planned for future deployments to additional provinces.
    A critical step toward stability in Afghanistan is building the 
Afghanistan National Army (ANA). The U.S. is leading this effort, 
supported by five coalition partners. To date, three brigades of 
professional Afghan soldiers have been fielded; we project ANA strength 
of approximately 8,500 soldiers by December 2003.

                             HORN OF AFRICA

    Several countries in the HOA responded positively to President 
Bush's call for support against worldwide terrorism. However, these 
states are challenged to conduct successful anti-terrorism campaigns. 
Over 21 million people remain at risk of starvation in the region. 
Long-term conflicts have intensified the debilitating effects of 
natural disasters, especially drought. This forces the dislocation of 
affected populations seeking food, medical care, and safety. Existing 
governments find difficulty meeting the needs of their populations, 
creating an environment hospitable to terrorist cells and transnational 
threats.
    CENTCOM has addressed these issues by standing up a Combined Joint 
Task Force in Djibouti. This Task Force provides a forward presence; 
trains counterterrorism forces; and supervises a number of humanitarian 
assistance efforts to enhance security, improve public health, and 
combat famine. These initiatives are key elements of our security 
cooperation strategy. Close cooperation with interagency and 
international aid organizations facilitates a regional approach to the 
humanitarian effort and maximizes the effects of our efforts.
    The HOA will require a long-term commitment of resources to achieve 
stability, thereby setting conditions that will make it less hospitable 
to terrorists.

                                  IRAN

    Iran has long pursued a goal of regional hegemony through 
modernization of a regionally capable military force, the development 
of WMD, and the use and promotion of terrorism as an instrument of 
foreign policy.
    Tehran perceives itself encircled by the U.S. The enmity and 
abiding mistrust of the U.S. Government is implacable among Iran's 
ruling hard-liners furthering security concerns. Iran's principal 
security objectives remain unaltered with the fall of Baghdad, namely 
the survival of the Islamic state and the preservation of Iranian 
independence, with the secondary goal of expanding Iranian influence in 
the Persian Gulf, Central Asia, and the broader Islamic world. Iran's 
national security policies appear focused on maintaining political 
stability and internal security, expanding diplomatic and economic 
relations, establishing WMD and long-range missile forces backed up by 
unconventional warfare capabilities and maintaining a robust terrorism 
apparatus.
    Shifts in regional security relationships are expected as a result 
of the formation of a stable and productive post-war Iraq. Of course, 
those realignments and perturbations extend beyond Iraq's borders and 
will be of concern to Iran. Following the ouster of the Saddam regime 
in Iraq, Iran has mounted an increasingly sophisticated and 
multifaceted influence campaign that will prove persistent in its focus 
to create an anti-coalition, predominantly anti-U.S., sentiment among 
Iraqis.
    Just as complex is deciphering Iran's dual-track foreign policy and 
often contradictory public statements. Iran's efforts to promote itself 
as a responsible member nation of the international community are in 
direct contrast with its long-standing covert and public support to 
radical resistance groups and terrorists as well as its failure to meet 
its Nuclear Nonproliferation Treaty (NPT) and International Atomic 
Energy Agency (IAEA) obligations.
    The Iranian regime's proclivity for violence through terrorism, in 
concert with its past support of terrorism and an established pattern 
of developing nuclear and other WMD and missile programs, will continue 
to be of concern.

                              GULF STATES

    Transnational terrorists remain throughout the Gulf region. 
Violent, anti-Western ideology appeals to some segments of the 
populace, due in part to the increasing failure of regional governments 
to meet the basic needs of the people. As populations increase, 
regional governments struggle to provide adequate education, housing, 
infrastructure, and jobs. Closed political systems are only just 
beginning to reform. Regional politics and long-standing, hard-line 
stances concerning the Palestinian-Israeli situation exacerbate 
regional instability.
    However, there are also hopeful signs. Many of the Gulf countries 
are moving toward a more representational government. Bahrain and Qatar 
have begun municipal elections; Oman continues working toward opening 
its economy and political system; and Saudi Arabia has begun efforts to 
change the educational system, privatize state industries, and open a 
domestic dialogue on other needed social reforms. Substantive 
improvements will require a long-term, determined effort.
    The Gulf States have stepped up their antiterrorism efforts in 
response to September 11 and the May attacks in Saudi Arabia. Ongoing 
efforts include increasing law enforcement, stemming the flow of 
illegal financial support, tracking personnel movements, and monitoring 
terrorist activities. While their cooperation is extensive, these 
governments continue to prefer working behind the scenes.
    Militarily, the Gulf States continue to perceive a long-term threat 
from Iran. In a show of support for Operation Iraqi Freedom (OIF), the 
Gulf States, for the first time, deployed the Peninsula Shield force in 
defense of Kuwait. Outstanding OIF basing and access support from the 
Gulf States demonstrates tangible results of our active security 
cooperation programs. They understand that our "footprint" in the 
region is likely to change, and each state continues to advocate 
security cooperation with the U.S.
    While most citizens are relieved that the Iraqi regime has been 
removed, opinions differ on coalition activities and what type of Iraqi 
society will eventually emerge. Regional governments are looking to the 
CPA to ensure Iraq does not become segmented. Gulf leaders look forward 
to lucrative trade and economic relations with a rebuilt Iraq.

                         SOUTH AND CENTRAL ASIA

    Pakistan's support has been fundamental to our success in Operation 
Enduring Freedom. President Musharraf has committed substantial 
national resources against terrorism to include arresting a number of 
al Qaeda leaders, freezing the financial accounts of known terrorists, 
and banning fundraising to support Kashmiri militancy. He has pursued 
these actions despite ongoing tensions with India and significant 
domestic pressure, and he continues on a path toward democracy and 
sustained economic development. The U.S. has expressed gratitude and 
solidified his political position by lifting sanctions and granting 
economic assistance. CENTCOM will continue to support our mil-to-mil 
relationship and build closer security cooperation with Pakistan.
    The Central Asian States remain dedicated partners in the global 
war on terrorism. Each country declared its support for the U.S. 
immediately after the attacks of September 11. All offered to host U.S. 
personnel and equipment. Bases established in the Central Asian States 
have been critical to the success of our operations in Afghanistan. The 
defeat of the Taliban and the removal of al Qaeda from Afghanistan have 
enabled the Central Asian States to refocus their attention on internal 
development. We will continue working with our Central Asian partners 
to prevent the resurgence of terrorism, and the Department of State and 
the Bureau of Customs and Border Protection will continue to improve 
their capacity to secure their borders against the flow of illegal 
narcotics.

                           WMD PROLIFERATION

    The proliferation of technologies related to WMD and long-range 
delivery systems continues to be a significant concern in the Central 
Region. As some nations and international extremist groups pursue 
chemical, biological, radiological, and nuclear capabilities, some 
regional allies will seek to offset such threats by pursuing strategic 
weapons of their own, thus perpetuating the proliferation cycle. 
Security cooperation is our best hedge against this possibility.
    Iran continues to pursue WMD. Its nuclear programs are under the 
continuing scrutiny of the International Atomic Energy Agency, and its 
chemical weapons stockpile and probable biological weapons program are 
of concern.
    In South Asia, the missile and nuclear race between Pakistan and 
India is also troubling. Both states continue to develop advanced 
missiles and the risk of miscalculation leading to escalation remains 
of concern.
    We face a severe threat in the potential for chemical, biological, 
radiological, or less likely, nuclear attacks by terrorists. Documents 
found (during the exploitation of suspect WMD sites in Afghanistan) 
indicated the al Qaeda terrorist network had explored methods for 
producing toxins and was seeking to establish a biological warfare 
capability. Terrorists will continue to seek WMD capabilities as their 
need for more sensational attacks intensifies. The extensive press 
coverage of the October 2001 anthrax mail attacks highlighted U.S. 
vulnerabilities and exacerbated an already dangerous situation in the 
Central Region, where many extremists are based and exploring such 
capabilities.

                     TERRORISM AND COUNTERTERRORISM

    Over the past year, the global war on terrorism has been marked by 
major achievements. Multiple terrorist operations sponsored by al Qaeda 
and affiliated extremists have been disrupted; and many terrorists, 
including high-ranking operational planners, have been captured. Al 
Qaeda has proven unable to reestablish the extensive training 
infrastructure it had earlier instituted in Afghanistan. The dispersal 
of its leaders and cadre from Afghanistan continues to impede al 
Qaeda's ability to accomplish timely and secure communications 
exchanges.
    Nevertheless, al Qaeda has responded to our counterterrorism 
initiatives; in this context, several lesser-known personalities have 
emerged and this has translated into strikes such as the May 2003 
bombings of multiple housing complexes in Riyadh. So far, these attacks 
have focused on ``soft'' targets; however, al Qaeda retains an interest 
in striking larger, more spectacular targets.
    Counterterrorism operations against al Qaeda, U.S. victories in 
Iraq and Afghanistan, and the persistent conflict between Israel and 
the Palestinians have generated pressure throughout the CENTCOM AOR. 
Jihadist groups and disgruntled individuals constitute another 
important source of potential terrorist threats. Given this setting, we 
are constantly working to identify vulnerabilities and refine our force 
protection measures.

                     SECURITY COOPERATION OVERVIEW

    Our success in gaining basing, staging, and overflight rights for 
Operations Enduring Freedom and Iraqi Freedom and our influence in the 
region are directly related to an active security cooperation program. 
CENTCOM's program builds relationships that promote U.S. interests, 
build allied and friendly nations' military capabilities, and provide 
U.S. forces with access and en route infrastructure. Prosecution of the 
GWOT requires continued fiscal and political investment in these vital 
programs. I would like to highlight a few dividends of our approach.
    The fiscal year 2003 supplemental appropriation of $908 million in 
FMF is currently enabling the training of a professional Afghan 
National Army and allowing Pakistan to restore its military forces. 
Additionally, long-standing partners such as Jordan are increasing 
their interoperability through FMF-funded purchases. Continued 
investment in security assistance allows CENTCOM to improve the 
capabilities of friendly nations by enabling them to provide for their 
own security.
    International Military Education and Training (IMET) remains a low-
cost, high-payoff investment that helps shape the security environment. 
Courses offered under IMET provide military members of regional states 
an opportunity to attend courses in U.S. military institutions such as 
Command and Staff Colleges and Senior Service Schools. IMET 
participation by students from the Central Region supports 
congressionally-mandated initiatives: providing exposure to the U.S. 
concepts of military professionalism, respect for human rights, and 
subordination to civilian authority. The Counter Terrorism Fellowship, 
a new DOD appropriation, enables us to provide flexible course 
offerings to several nations who are key partners in the GWOT.

                               CONCLUSION

    The global war on terrorism is underway. The precision, 
determination, and expertise of our military forces and our coalition 
partners brought about the liberation of Afghanistan and Iraq in 
lightning speed with minimum bloodshed. However, these two nations have 
only taken the first steps toward freedom, and United States and our 
coalition partners must be there to support the whole journey.
    While we have accomplished much, the potential for terrorist acts 
and other setbacks remains very real. Afghanistan has a new government, 
a new army, and with coalition support the nation is making great 
strides towards long-term stability. In Iraq, Saddam Hussein's regime 
was destroyed and regime supporters are being rooted out. Our focus has 
changed from military destruction of a regime to providing security and 
humanitarian assistance to the Iraqi people, while helping to establish 
a representative form of government. Decisive combat operations have 
been completed, but much work remains.
    I am very proud of each and every one of the men and women who 
continue to serve selflessly and tirelessly in the execution of our 
mission from Egypt to Kazakhstan, from the Suez to Pakistan, regardless 
of the uniform of service they wear or the nation from which they come. 
I thank Congress and the American people for the tremendous support you 
have given them.
    I would be pleased to take your questions.

    Chairman Warner. Thank you, General. All of us join the 
Secretary in his commendation of your distinguished career, 36 
years I believe, am I not correct, and the contribution of your 
family.
    Those were excellent statements by both witnesses, very 
balanced, what went right and what we have to learn to do 
better in the future, and we'll probe that in these questions. 
We'll have a 6-minute round, colleagues. We have almost full 
attendance of the committee, and I'll move on quickly.
    Mr. Secretary, as I departed the one thing that was 
foremost in my mind was, how can we proceed and what steps are 
being taken to reduce the risk to the individual and groups of 
our soldiers and civilians, coalition civilians who are in 
support of this in the face of these repeated daily attacks and 
losses? The most encouraging information that I received was 
from Ambassador Bremer, that he hopes by this July, within 
weeks, to have concluded putting in place the initial steps of 
the interim authority with Iraqis, as I mentioned a council and 
a constitutional group. Is that on schedule, and do you concur 
in my view that that's perhaps the strongest tool that we have 
to reduce these attacks, put an Iraqi face, a degree of Iraqi 
responsibility on this situation as we move towards securing 
their freedom?
    Secretary Rumsfeld. Mr. Chairman, I do. I think it's a 
combination of political progress and, as you suggested, 
Ambassador Bremer is hopeful that sometime next week or the 
week thereafter there will be the governing council set up with 
some 25- to 30-plus members. There are a number of city 
councils that have been stood up in Baghdad and other portions 
of the country.
    I think it is, however, a mixture of the political 
progress, where Iraqis begin to assume responsibility for some 
of the ministries and some of their activities; economic 
progress, as General Franks said, so people see their lives 
improving; and military security. I don't think any one can be 
separated. I think all three are critical, and they all have to 
move forward.
    Chairman Warner. I agree with that. But as soon as we can 
begin to hold some Iraqis responsible for these killings and 
constant attacks, all the better, in my judgment. They can 
publicly address the need to have them stopped.
    Mr. Secretary, with respect to questions of augmenting the 
coalition forces, and specifically as my colleague, Mr. Levin, 
said and as I raised with Ambassador Bremer, the inclusion of 
elements of NATO--can you address that?
    Secretary Rumsfeld. I'd be happy to. I keep hearing people 
say things and people write things to the effect that this is 
the U.S. and the U.K., and it's not. As General Franks said, we 
have 19 countries on the ground. We have commitments from 
another 19 countries. We are in discussions with another 11 
countries. That would bring the total up to 49 nations. My 
understanding is that we currently have on the ground some 
19,000 coalition forces with commitments for another 11,000, 
which would bring the total to 30,000. In addition, the work is 
going forward to develop an Iraqi army, former Under Secretary 
of Defense Walt Slocombe is working hard to achieve that goal, 
and we expect to have thousands of Iraqis back in uniform, 
functioning in a responsible way as well as the police 
evolution that you've discussed.
    Now, what about the U.N. and NATO? The United Nations 
passed a resolution. They've assigned an individual, Mr. Sangio 
de Mello, who works closely with Ambassador Bremer. I believe, 
Senator Levin, you indicated that it was a mystery why we 
hadn't reached out to NATO. We have reached out to NATO. NATO 
is assisting Poland, which has agreed to take a sector in force 
generation. In addition, there are discussions that have been 
taking place in NATO about the possibility of taking on an 
additional role. At the current time, they're planning to take 
over responsibility in Afghanistan this August.
    They have a lot on their platter. But we have reached out 
to just about everybody I can think of asking for assistance of 
various types, and it is coming in. Is it as much as we'd like, 
as fast as we'd like? No, it isn't. But are we hopeful it will 
continue to increase? Yes.
    Chairman Warner. Mr. Secretary, all of us are very mindful 
of the need to maintain a rotation base of our forces back. We 
recognize that probably the OPTEMPO of our military forces of 
all branches are at a very high point at this time, and yet our 
Nation and other nations are faced with a contingency operation 
in Africa, most notably Liberia. I think the President quite 
properly is facing this issue, has sent teams out to make an 
assessment of what needs to be done, will evaluate it, and then 
make a Presidential decision.
    Could you share with us this morning some of the options 
that are being considered and how those options in terms of our 
forestructure might impact our troop redeployments out of Iraq 
or troop redeployments in other areas? In other words, can our 
military accept in your professional judgment--I know they 
will, but what are the consequences of--a Presidential 
decision, should it be made, of a deployment force? We bear in 
mind that if you deploy, say 1,000 individuals, you have to 
have 1,000 in transit, 1,000 in training, so it's a multiple of 
the force that actually goes in the country.
    Secretary Rumsfeld. You're quite right, of course, Mr. 
Chairman, that when you have 1,000 troops deployed overseas you 
do need a rotational base, and it ends up like a multiple of 3 
rather than just the 1,000. First let me say that it is 
critically important that the Department manage the forces in a 
way that we can continue to attract and retain the people we 
need, that the Reserve who have just done a superb job are not 
stressed or called up so frequently or kept there so long that 
it affects their commitment to serve in the Reserves. We need 
them badly, and we have to be attentive to that, and we intend 
to be.
    The rotation out of Iraq is already starting. I don't know 
what the number is, but I think it's something like 142,000 
have already been redeployed. For the most part, there were 
large numbers of Air Force and Navy. There also have been some 
Army and Marine Corps.
    Chairman Warner. Redeployed back home, put in home?
    Secretary Rumsfeld. Redeployed back home, back to their 
bases, wherever they were, mostly in the U.S. The 3rd Brigade 
of the 3rd Infantry Division is now in Kuwait, it's been taken 
out of Iraq and it should be back home in July. The plan for 
the 2nd Brigade is that they would return in August, having 
been there something like 10 months, and the 1st Brigade of the 
3rd Infantry Division is scheduled to return in September and 
they've been in there since about January, so that would be a 
total of about 9 months.
    The Services and the Joint Staff have been working with 
Central Command to develop a rotation plan so that we can in 
fact see that we treat these terrific young men and young women 
in a way that's respectful of their lives and their 
circumstances and the wonderful job they did.
    With respect to Liberia, the President is considering the 
appropriate U.S. role. He has indicated to world leaders that 
he intends that the United States assist in some way with 
respect to Liberia. He has asked the Department of Defense to 
dispatch assessment teams in two locations, one in Liberia and 
it's currently there, several dozen people, and in addition he 
is sending assessment teams to the so-called ECOWAS nations to 
determine the readiness of the ECOWAS forces and the extent to 
which they may or may not be ready to deploy and over what 
period of time, with what type of equipment, having had what 
type of training.
    The United States, Great Britain, and several other 
countries have been in the process for many months now training 
ECOWAS forces, and some have been used in Sierra Leone, some 
are currently committed. So until the assessment teams come 
back, it seems to me that we will not have a good grip on what 
we would propose to the President.
    Chairman Warner. Thank you. Your staff briefed this 
committee yesterday and you yourself will be briefing the 
Senate tomorrow, so I commend you on keeping us informed on it.
    General Franks, lastly, in your planning did you anticipate 
this level of conflict that continues? You've been very candid 
with us this morning. Had you put in place the preparations to 
deal with it, and have you considered perhaps while we're 
standing up an Iraqi army, between now and the stand-up of that 
army, utilizing some Iraqi soldiers that can be trusted to go 
along on the patrols with our own, so that we have not only the 
coalition helmet, but something that the citizens can clearly 
perceive as one of their own helmets?
    General Franks. Mr. Chairman, the latter point first. Yes, 
as we begin to work to build the Iraqi army with Walt Slocombe, 
whom the Secretary mentioned a minute ago, we will, as those 
forces are brought on, position them, work with them in a very 
operational way because, as you said, that serves to put an 
Iraqi face on the security assets that are being used 
throughout the country. So, yes, sir, that is part of the plan. 
With respect to the level of violence, Mr. Chairman, I will 
tell you, I think in a war and in post-conflict, one never 
knows how to gauge what may be expected in the aftermath of 
major combat.
    Was it anticipated, Mr. Chairman? I would say yes, sir, it 
was. Perhaps the way I'll justify that statement is to say that 
the footprint that we see in Iraq today is not the same 
footprint that was in Iraq on the day the President announced 
the cessation of major combat operations. In fact, the 
deployment orders, which had been approved by the Secretary 
prior to the time--I believe it was the 1st of May when our 
President said that the major combat operations had ended--the 
deployment orders which had already been signed, in fact, 
adjusted the footprint for Iraq in terms of military police, in 
terms of civil affairs people, in terms of humanitarian 
assistance type forces, in terms of engineers.
    The plan called for the removal of forces that are much 
more inclined to be used during major combat operations than 
during stability operations, for example, armor formations. So 
I believe, Mr. Chairman, that we did anticipate a level of 
violence, and I can't tell you whether we anticipated that it 
would be at the level that we see right now. Mr. Chairman, I 
think that when a war begins one can always hope for a very 
quick transition to peace, to see a nation begin to rebuild 
itself without a great deal of friction and without a great 
deal of messiness. But on the operational side, on the military 
side we must always be prepared to handle whatever level of 
violence may come along, and, Mr. Chairman, I believe our 
forces have been and will continue to be able to handle the 
levels of violence that we see as this nation tries to bring 
itself together.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Secretary Rumsfeld, 
going back to the NATO issue just for a minute, on April 13 you 
were asked about a possible formal role for NATO in the post-
war effort in Iraq and this is what you said, ``NATO--I've 
suggested to the Secretary General that I thought that would be 
a good thing. If NATO wanted to do that obviously France would 
be opposed I'm told. They are opposed to a lot of things so 
that shouldn't be a problem, because you can do it at 18 
instead of at 19 countries, since they're not a member of the 
Defense Planning Committee.''
    Now, we have apparently not asked NATO to formally decide 
to raise a force for deployment in Iraq similar to what they've 
done in Bosnia and in Kosovo. Why have we not made that request 
of NATO, asked NATO not just to support Poland, for instance, 
as they've done as an individual country, but why have we not 
asked NATO to formally decide as NATO to raise that force and 
to give its endorsement to our action? Is it because we're 
afraid France might not go along, or what? We don't want to ask 
France?
    Secretary Rumsfeld. No, first of all, it's not clear to me 
we haven't. I was told this morning that the discussions taking 
place in NATO include a discussion about a possible NATO role 
in Iraq. Now to what extent the Department of State or the 
United States has or has not issued a formal request, I don't 
know, but I know the discussions are going forward and I know 
that the assistance that NATO is providing, not individual 
countries in NATO, but NATO as an institution is providing to 
Poland, is a NATO institutional action. It is something that 
has been discussed, approved, and under way.
    I also know as I said that NATO is preparing to take over 
responsibilities in Afghanistan so how many things like that 
they're going to be able to do at one time remains to be open. 
But I have no problem, as I indicated then and I indicate now 
some months later, in having NATO involved. Indeed, I think it 
would be a good thing.
    Senator Levin. NATO involved as NATO, formally being asked 
and deciding as an organization to raise and to deploy forces 
in Iraq? You have no problem with that?
    Secretary Rumsfeld. I have no problem with that. Indeed, 
I'm very pleased that NATO has been assisting and is currently 
discussing assisting in additional ways.
    Senator Levin. But if that request to NATO had been made, 
wouldn't you know about it?
    Secretary Rumsfeld. I don't know technically what you're 
getting at, but whether the Department of State has instructed 
the U.S. Ambassador to NATO, or Permanent Representative as 
he's called, to issue some sort of a formal request, I don't 
know. I know NATO has seized the issue, is discussing it. I was 
told that this morning after General Pace had a phone call with 
the Supreme Allied Commander of Europe, General Jones.
    Senator Levin. Would you support asking Germany and France 
to provide forces in Iraq?
    Secretary Rumsfeld. Our goal is to get large numbers of 
international forces in from lots of countries, including those 
two, but we have requests out to a large number of countries.
    Senator Levin. But you would specifically support 
requesting Germany and France to provide forces in Iraq?
    Secretary Rumsfeld. We have made requests to, I don't know 
what it is, something like the Department of State has issued 
requests to something like 70 or 80, 90 countries.
    Senator Levin. Is Germany and France on the list?
    Secretary Rumsfeld. I'll have to ask. I would suspect they 
are.
    [The information referred to follows:]

    There have been no formal requests made to, or offers of support 
from, Germany or France to provide forces in Iraq since the start of 
the war. As I stated during the hearing we would welcome their support. 
However, I do note that government officials from both nations have 
stated publicly that participation requires further endorsement by the 
U.N.

    Senator Levin. But would you support it?
    Secretary Rumsfeld. Why certainly.
    Senator Levin. Good. The troop level, General Franks, 
you've indicated that that is going to depend upon conditions 
that exist in the future. General Abizaid, at his confirmation 
hearing recently, said that he believes that we would have 
large number of troops in Iraq for the foreseeable future. Do 
you agree?
    General Franks. I do, sir.
    Senator Levin. Could you give us just a range of troops? I 
mean, would it be from 100-150,000 for many years? I'm not 
asking for any kind of precise figure, but what's your current 
best estimate?
    General Franks. Senator Levin, that actually is not as hard 
to answer as it might seem. We have about 145,000 troops in 
there right now. As I have talked to commanders at every level 
inside Iraq, one finds that that footprint appears to us on the 
operational side to be about what that footprint needs to look 
like. There has been suggestion that perhaps there should be 
more troops, and, in fact, I can tell you in the presence of 
this Secretary that if more troops are necessary, this 
Secretary is going to say yes. We have talked about this on a 
number of occasions, and when the tactical commanders on the 
ground determine that they need to raise force levels, then 
those forces in fact will be provided. The Secretary may want 
to comment on that.
    Senator Levin. That's reassuring though. In other words, 
the current footprint is your best estimate. That would be for 
the foreseeable future?
    General Franks. Sir, it is for the foreseeable future.
    Senator Levin. Now, on the weapons of mass destruction 
issue, which is back in many ways in the media this week. 
Secretary Rumsfeld, earlier this week the White House 
acknowledged that ``the reference to Iraq's attempt to acquire 
uranium from Africa should not have been included in the 
President's State of the Union speech on January 28.'' On the 
29th, you said on CNN something very similar to what the 
President had said the night before when you said that the 
Iraqi regime ``recently was discovered seeking significant 
quantities of uranium from Africa.''
    Now, just a few weeks ago Condi Rice said the following: 
``that we did not know at the time, no one knew at the time in 
our circle, maybe someone knew down in the bowels of the 
agency, but no one in our circles knew that there were doubts 
and suspicions that this might be a forgery.'' I'm just curious 
as to whether or not you've determined as a policymaker how the 
facts, the falsity of that claim of uranium sale to Iraq from 
Africa, remained in the bowels of the agency for 9 months after 
you made your statement on the 29th.
    Did somebody come to you, did the Intelligence Community 
come to you and say, ``My gosh, we have facts that show that 
that just simply is inaccurate?'' Have you determined how those 
accurate facts, in other words, the knowledge in the bowels of 
the Intelligence Community that it was wrong that Africa was 
solicited by Iraq for uranium and that those documents were 
forged? Have you determined how it happened that that 
information about the forgery stayed for so long in, to quote 
Condi Rice, ``the bowels of the agency''?
    Secretary Rumsfeld. No, I can't give you a good answer. I 
can try to get an answer for the record if you'd like. I must 
say that as someone who reads intelligence every day as you do, 
I find that corrections are being made fairly continuously. You 
review a week's worth of intel, and 2 months later they come 
back and say, ``Well, we said this on this date, but we have 
new information that suggests this or that.''
    The fact that the facts change from time to time with 
respect to specifics does not surprise me or shock me at all. 
It's to be expected. It's part of the intelligence world that 
we live with, this uncertainty and less than perfect knowledge. 
I must say, however, that as we've gone through this period I 
think the intelligence has been quite good, and I don't think 
the fact that there is an instance where something was 
inaccurate ought to in any way paint a broad brush on the 
intelligence that we get and suggest that that's a pattern or 
something. It's just not.
    Senator Levin. Could you find out for this committee for 
the record? This is a significant piece of intelligence. It was 
relied on at the highest level, very publicly, very visibly by 
the President and by you within 2 days of each, right before 
the war. It was a very significant statement about seeking 
uranium in Africa. It was based on intelligence, at the same 
time the Intelligence Community knew in the depths of their 
agency that this was not true. It seems to me it is absolutely 
startling. I think we would all want to know how it could 
possibly have stayed there in the basement of the agency while 
policymakers on the upper floors were making these statements.
    If you could do that for this committee, I think we'd all 
appreciate it.
    Secretary Rumsfeld. I'll try to do that.
    [The information referred to follows:]

    In response to the question on Niger-related intelligence, this 
question is best answered by the Intelligence Community. I assume this 
information is being provided to you as a member of the Senate's Select 
Committee on Intelligence.

    Senator Levin. Thank you.
    Chairman Warner. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I'm interested, in 
light of recent attacks and everything, in your assessment as 
to what's happening--are they more organized than say they were 
3 or 4 weeks ago, and, if they are becoming more organized, is 
there any evidence of how central this organization is? Is it 
regional or is it countrywide? I'd like to hear your assessment 
on that, General Franks.
    General Franks. Senator, because we see more of the 
activity, I ask myself are we seeing more of this violent 
activity in the areas that are shaded on the map that the 
Secretary turned around a minute ago? Are we seeing more of 
this violent activity because some of these Jihadist 
extremists, Baathists, Saddam Fedayeen forces are coming 
together, or are we seeing more violence there because we are 
more offensive and because we are placing more patrols in 
there?
    So the answer that I give you I will caveat with that 
because I suspect that we're seeing increased violence in some 
of these areas because we are more present. We are out looking 
for it because that's our charter, that's what our force is 
going to do. Now in terms of networking among these groups or 
between these groups, Senator, I'm not comfortable right now 
saying that I believe that there is operational control between 
factions operating in Tikrit, Ar Ramadi, Mosul, and Bayji. I'm 
not sure. I recognize the same thing you recognize which is 
that we see increased violence, sir, but I'm not ready yet to 
tell you that I see evidence that these violent acts are being 
coordinated. I might tell you that next week, Senator, but I do 
not yet see evidence of it.
    Senator Allard. Do you see any outside influences coming 
into the country, for example, Iran? Are there any coalition 
forces from any of the neighboring countries that you can pick 
up or any suggestion that there may be?
    General Franks. Sir, since the war started we have seen 
infiltration of elements through Syria, and we have encountered 
those on a number of occasions. I believe that there continue 
to be efforts by Iran, by Teheran, to influence activities 
inside Iraq. We see evidence in there of the intelligence 
services, Iranian intelligence services. We see evidence in 
there of political forces. So, yes, I do see attempts by 
nations in the region--I named those two--to influence 
activities that are going on inside Iraq.
    Senator Allard. Mr. Secretary, I'm aware that Ambassador 
Bremer is trying to get some members on their Iraqi Governing 
Council and get this put together rather quickly, at least in 
the near future. Do you have any idea what we're thinking about 
in terms of makeup of the council? Are we going to include 
Islamic clerics, are we going to have former exiles and Kurdish 
leaders, and when do you anticipate national elections?
    Secretary Rumsfeld. I saw the pool of names, and it's large 
and diverse, in answer to your question. It includes folks from 
all across the spectrum, the Iraqis. Elections are something 
that it seems to me will have to be determined as we go down 
the road. The goal in life is not to have one election one time 
as happened when Adolf Hitler was elected, for example. The 
goal is to have a process and to have true representation and 
true respect for the various elements, diverse elements in that 
country.
    The steps would be something like this, although I can't 
even be certain of that: that there will be a governing 
council, there will be some sort of an interim authority, there 
will be a constitutional convention to develop a constitution. 
The constitution and the Iraqis who develop the constitution 
will make a judgment as to when and at what pace they think 
their country is ready to have elections in a way that would be 
reasonable and create a representative system for them.
    That's out some way. If you think back to Afghanistan, we 
still have a provisional government in that country and their 
elections are expected next year sometime, so it takes some 
time. It's not an easy transition.
    Senator Allard. The Kurdish problem in the north, I think, 
continues to be a problem and the question I have is, from your 
assessment, Mr. Secretary, do you think the Kurds in the north 
are more interested in rebuilding Iraq or are they more 
interested in forming a separate country at this particular 
point in time?
    Secretary Rumsfeld. Oh, I think the former. Everything I've 
heard is that the individuals from the Kurdish section of Iraq 
are, in fact, participating in this process, that they've 
behaved in a reasonably constructive way, that they're relieved 
that the regime of Saddam Hussein is gone, and that they intend 
to play a political role in the evolution of a new Iraq.
    Senator Allard. Mr. Chairman, I see my time is expired. 
Thank you.
    Secretary Rumsfeld. Mr. Chairman, could I make a response 
to Senator Levin on this subject that General Franks answered 
on footprint? He responded for the foreseeable future about 
such as it is, as I recall. I would just amend that slightly by 
saying exactly. We see no reason to think that that footprint 
isn't the right one for the moment. But the composition of U.S. 
forces could change and we could end up with different types, 
as he suggested. Second, the numbers of U.S. forces could 
change while the footprint stayed the same, in the event that 
we have greater success in bringing in additional coalition 
forces, in the event we are able to accelerate the Iraqi army.
    The exact number, therefore, of U.S. forces might change as 
well as the composition even though the footprint, as General 
Franks said, would be roughly the same until we see evolution 
in the political and economic spheres. Thank you.
    Chairman Warner. Two administrative announcements, 
colleagues. We have two votes coming circa 11:30. It is the 
intention of the chair to catch the end of the first vote and 
remain and do the second, and then return and resume the 
hearing.
    Following the open hearing, we will have a closed hearing 
in the Intelligence Committee next door. Thank you very much.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. Secretary, 
General, we're all tremendously proud of the troops' 
effectiveness in Operation Iraqi Freedom. It's a great credit 
to you, Mr. Secretary, and to General Franks. I'm now concerned 
that we have the world's best trained soldiers serving as 
policemen in what seems to be a shooting gallery.
    The President declared an end to major combat operation, 
but the war's not over for the men and women who are on the 
ground in Iraq or their families here at home. The lack of a 
coherent plan is hindering our efforts at internationalization 
and aggravating the strain on our troops. Our troops are tired 
and want to return to their families who are at home coping 
with the absence and the loss of income. They've been gone 
close to a year, and this truly is a hardship. They and the 
American people want to know what the strategy is to stabilize 
Iraq, bring the promise of democracy to the Iraqi people, and 
alleviate the strain on our troops.
    Now I've heard in response to Senator Levin's questions 
about the NATO forces that there are 2 million troops in NATO. 
Clearly not all of them are qualified to go here, but you have 
the Italian carabiniere and the French gendarmes and the 
Spanish guardia civil that are superbly trained troops in riot 
control and dealing with barriers and fire and explosives. Have 
we made a specific request to try and get some of the best 
trained police that exist in the NATO countries to come over 
and provide some relief to these American troops that are in 
the process of being attacked almost daily?
    Secretary Rumsfeld. Yes, in fact, Italy and Spain have both 
made commitments.
    Senator Kennedy. When will they come, can you tell us what 
the expectation is and how many are going to be there?
    Secretary Rumsfeld. I can't tell you precisely. I've always 
believed that it's up to those countries to make their own 
announcements.
    Senator Kennedy. I'm asking about what's been requested.
    Secretary Rumsfeld. We have requested of them exactly the 
kinds of forces you've described and they have made commitments 
to do so. The dates generally for these forces are going to be 
in the latter portion of this summer and into September and 
certainly by October. I'm guessing that some will be coming in 
next month, and then it will be August, September, and October 
that they will be flowing in, but I don't want to refer 
specifically to those countries because I'm speaking to the 19 
countries that have made commitments.
    Senator Kennedy. That's true. But these three certainly, 
among others, have some of the best trained in terms of the 
police function.
    I was troubled just by your earlier response about the 
knowledge of the request of troops from NATO. It would seem 
that you would be the person that would be on the phone to NATO 
to ask these troops to be available, and we just want to know, 
are you on the phone talking to NATO, to General Robertson, to 
request troops? Have you done that? You indicated in an earlier 
response, we want to reach out to everyone. Is it as much as we 
would like? No, in terms of response to NATO. It's not clear 
that we have announced to other countries. I have no problem if 
they want to provide more help and assistance. I think families 
want to know what are we doing. If they have 2 million troops 
over there, what are we doing to bring a major chunk of those 
troops through NATO into Iraq? Is that part of our plan now in 
internationalizing the military phase of it?
    Secretary Rumsfeld. We have made requests of NATO. I don't 
know quite what you're asking----
    Senator Kennedy. I'm asking when have you talked----
    Secretary Rumsfeld. The 2 million troops, Senator----
    Senator Kennedy.--have you picked up the phone?
    Secretary Rumsfeld. The 2 million troops, I believe, 
include the United States of America.
    [The information referred to follows:]

    The Europeans, minus France as a non-integrated military member, 
currently have roughly 2.5 million people in uniform, as you suggested. 
However, I am advised by our senior military leadership the reality is 
that only a modest fraction of that number is actually available to 
deploy to meet the Alliance's challenges. The reasons they are not 
available are varied. Some NATO nations have legal limitations on the 
number of troops they can deploy. Others mandate that only volunteer or 
contract soldiers may deploy. Tens of the current 17 nations, excluding 
France and the United States for this purpose, have such constraints. 
As we know, of the fraction of the troops that could be available to 
deploy, some 70,000, are already deployed by our allies to Bosnia, 
Kosovo, Iraq, Afghanistan, Africa and elsewhere. The result is that it 
is estimated that only a very small number of all non-U.S. NATO forces 
are actually available in the sense of our discussion. 
    There are, however some optimistic changes occurring in NATO that 
center around NATO transformation. These include divesting obsolete 
equipment, and closing unneeded installations. It also includes a new 
and more modern NATO Response Force. Also we have recently seen NATO 
demonstrate its will to have a global capability by its decision to 
deploy, as a NATO command to Afghanistan.

    Senator Kennedy. Then you have, what, 1,700,000 over there, 
out of the 1,700,000 over there?
    Secretary Rumsfeld. I believe, months ago, the United 
States through the Department of State made a request to 
something like 70 or 80 countries for assistance. There have 
been force generation meetings that have been taking place, one 
that took place very recently, there's another taking place I 
believe in New York----
    Senator Kennedy. But your answer, I gather, Mr. Secretary, 
is you're doing everything that you possibly can as a Secretary 
of Defense----
    Secretary Rumsfeld. We believe we are.
    Senator Kennedy. --to make every request of NATO for combat 
troops as well as for the kind of guard functions, and that 
you're satisfied you're doing everything you can within NATO 
and you have made that request yourself, or you're conscious of 
the administration, or if you don't know that, you're going to 
find out whether they have made that request?
    Secretary Rumsfeld. We certainly want assistance from NATO 
and from NATO countries. We have commitments from a good number 
of NATO countries already, and NATO is already assisting.
    Senator Kennedy. In the other area of the development of 
Iraq, I understand the U.S. Government has talked about the 
future of Iraq working groups. But I'm told by the people on 
the ground that there's no formal plan for reconstruction. Can 
you provide us with the operational plans for reconstruction? 
Who are the people, the level of resources that are committed, 
how many Iraqis will be involved in the plan to build, police, 
justice system, the media, the schools, the other institutions? 
Are there plans on paper, and where are those plans? Or are we 
shooting from the hip and taking a piecemeal approach when 
American lives are at stake in terms of the broader security 
issues?
    Secretary Rumsfeld. There certainly are plans for the 
reconstruction of Iraq. I would, however, say that the plans 
are not for the United States or the coalition to reconstruct 
Iraq. Iraq's circumstance today is the result of 30 years of 
repression by the Saddam Hussein regime, a Stalinist type 
economy, and a denial of the people of that country and the 
infrastructure of that country, the kinds of opportunities and 
investments that a wealthy country like Iraq is perfectly 
capable of doing.
    Today if one goes from the Gulf States, from Kuwait or 
Qatar or any of those nations into Iraq, it's like going in the 
old days from Romania into West Germany. It's just stark how 
damaging that regime has been to that country to say nothing of 
the mass graves of people that were killed by that regime.
    The plans do exist, but it will be the Iraqi people that 
will have to build back their country and reconstruct their 
country. A reference was made earlier to nation-building. I 
suppose it's mostly semantics, but I think it's a little heady 
and arrogant to think that you can build another people's 
nation. I think the Iraqi people are going to build their own 
nation back, and they're going to build it in a distinctly 
unique Iraqi way.
    Our task is to try to create an environment to get rid of 
that repressive regime and to try to create an environment 
within which the Iraqi people can put themselves on a political 
and economic path towards a future and not to think that we're 
going to go in there and spend the American taxpayers' dollars, 
and billions of them, trying to rebuild a country in a way that 
fits our image because that's just not going to happen.
    Senator Kennedy. You're not suggesting we're not going to 
be spending billions of dollars of American taxpayers.
    Secretary Rumsfeld. Of course we are. Of course we will.
    Chairman Warner. Senator, the light is on. Thank you very 
much. I didn't mean to interrupt you, Senator, but we have to 
move on.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. General Franks, 
I want to express my congratulations along with the others for 
your leadership, appreciation for your career, and for the 
great troops that you led, how they performed under 
extraordinarily difficult circumstances. They performed so 
well.
    When we think about what has occurred, a lot has occurred. 
We could have as a Nation stayed right here and tried to build 
up defenses at home, or we could have gone after the bases of 
terrorism that were plainly out there in the world. The 
President made a decision--this Congress supported him 
overwhelmingly--to eliminate those bases. We saw those in 
Afghanistan. You've liberated that country, and we've removed 
al Qaeda and the Taliban from authority there. We've now 
liberated the people of Iraq, and our prayer is and our hope is 
that we can help them establish their own nation. It certainly 
will be, as the Secretary said, ultimately their challenge to 
do that.
    I wanted to ask you a couple of things. One of the concerns 
I have is how quickly we can bring on the Iraqi indigenous army 
that will be a servant of the Iraqi army and the Iraqi nation. 
How difficult is that? Do we need more resources? What can we 
do to speed along the creation of a healthy, well-trained army 
that serves the people of Iraq?
    General Franks. Sir, first thank you for your kind remarks. 
We do want to bring the Iraqi national army online as quickly 
as we can. I think the vision is for an order of magnitude of 
12,000 or so within the initial 12 months, if my memory serves. 
We want to have as much Iraqi army as we can, but we want a 
professional Iraqi army when we build it. What I mean by that 
is we want the training of the troopers from the bottom up to 
be done in a very competent way, and we have reinforced for 
ourselves in Afghanistan that we know how to do that, that we 
can do it.
    But what we also learned in Afghanistan is that we do not 
want to create an army that has no place to go. We want to be 
sure that the Iraqis themselves bring along the infrastructure 
for the positioning of those forces as we bring them online, 
and at the same time we want to be sure that we work from the 
top down to create a Ministry of Defense and the operational 
level for an army that can manage them. I would like, Senator 
Sessions, to see this thing, the Iraqi army, come along as fast 
as we can actually control it and put it to work. I am 
satisfied with the pace that Walt Slocombe intends to work on 
that project right now, sir.
    [Supplemental information follows:]

    One of the CPA's major initiatives is to establish a new Iraqi army 
that will help provide for the military defense of the country and, as 
units become operational, will assume military security duties now 
being performed by coalition forces. The old Iraqi military forces 
disintegrated with the collapse of organized military resistance; 
virtually all installations and equipment that were not destroyed in 
the fighting were looted or stolen.
    The CPA formally disbanded the former Iraqi military and security 
services and is currently working on the creation of a new Iraqi army. 
The current plan is to build a force of about 40,000 members (roughly 3 
divisions) over 2 years as the nucleus of the national armed forces of 
the new Iraq. The first battalion begins training this month. The 
Vinnell Corporation, a subsidiary of Northrop Grumman, was awarded the 
contract to conduct the day-to-day training under the supervision of a 
coalition military assistance training team, which will be commanded by 
a U.S. major general and will include officers from the United Kingdom, 
Spain, and other coalition countries. This team is leading the effort, 
including finalizing recruiting, vetting, and training activities.
    It is our intention to build an Iraqi army that has officers who 
possess true leadership skills, takes on traditional army roles such as 
border defense, and is truly a national force that represents the 
demographics of the country. It is our goal to have the first battalion 
in October, 9 battalions by August 2004 and an additional 27 battalions 
by mid-2005 for a total force of 40,000 troops.

    Senator Sessions. General Franks, if you would just briefly 
share with us the status of our commitment to containing Saddam 
Hussein before this war started, those resources that we've 
been committing for over a decade to keeping it in a box, 
including patrolling the Persian Gulf, air flights, and 
Operations Northern Watch and Southern Watch. We think about 
the cost of the operation and the effort to help Iraq rebuild, 
but tell us about the costs we were incurring annually?
    General Franks. Sir, if you think about Operation Northern 
Watch, Operation Southern Watch, and the maritime intercept 
operations that were ongoing between 1992 and 2002, I can't 
give you with precision the math associated with that. The 
number that I would give you would probably be--Operations 
Northern Watch, Southern Watch, $1 to $2 billion a year, 
depending on the year. That does not factor what it costs 
coalition members like the State of Kuwait, for example, who 
paid in assistance in-kind perhaps another $200 to $250 million 
a year during the course of containment.
    Sir, I attempt to justify nothing with respect to 
containment, and I make no comment about whether that was good 
or bad. From an operational perspective, our job was to control 
the skies over Iraq and to ensure as best we could in doing 
that the sanctity, if you will, of 786, 787, and Security 
Council resolutions, some 17 of them that the Secretary 
mentioned earlier. That was the policy. That's what our forces 
worked to do for that period of time. I will offer the 
operational fact, sir, that, at this time, those operations are 
no longer necessary. In fact, there are no longer jets and air 
defense systems shooting at American men and women and then 
returning to the sanctity of bases belonging to the regime.
    Senator Sessions. I think that's an important thing for us 
to consider. I always felt that in fact the Gulf War never 
ended, that there was an agreed-upon peace that was not 
holding. To me something had to be done, and I think those 
actions have been taken.
    General Franks. Sir, if I could insert one thing in 
response to a comment Senator Kennedy made a minute ago about 
troops having been committed a year and in many cases being 
very tired. I believe, having been there, sir, that troops are 
tired at two levels. One is a tactical level where one becomes 
tired, and the other is a level where people do not believe in 
what they're doing. I believe members of this committee who 
recently visited our troops on the ground in Iraq found none of 
the latter, and it's my job and our job to be sure that we 
provide the tactical relief, rest, and quality of life for our 
troops as best we can. But my comment is that I believe that 
our young men and women who are deployed in Iraq, working in a 
very dangerous circumstance, believe in their responsibilities 
and are doing them remarkably well. I'm sorry, sir, please.
    Senator Sessions. Thank you.
    Chairman Warner. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. First, 
General Franks, let me add my commendation for an extraordinary 
career in the Army and service to the Nation. I think you know 
that we're all sincerely appreciative, but I think you also 
know that the appreciation of the soldiers that you've served 
with, their respect is much more, I think, gratifying to you, 
and it should be. Thank you, sir.
    Mr. Secretary, I had the privilege to go with Chairman 
Warner and Senator Levin to Iraq, and I had a chance to meet 
lots of soldiers. I would agree with General Franks. They are 
proud of what they're doing, they will do it as long as we ask 
them to do it, but they had one question of me I couldn't 
answer, particularly the troops in my home State, the 115th 
Military Police Company, the 119th Military Police Company, the 
118th Military Policy Battalion--when are we coming home?
    The answer to that question relies upon having troops 
available to replace these troops because, as you've both 
indicated, our footprint in Iraq will be significant. This 
burden falls particularly with impact upon the Army. Today the 
Army has 370,000 troops in 120 countries. In Iraq, the 
footprint has the 3rd ID, the 4th ID, the 1st Armored Division, 
101st Airborne, 173rd Airborne Brigade, the 2nd Brigade of the 
82nd, the 2nd Light Cavalry Squadron, and the 3rd Army Cavalry 
Squadron, in addition five National Guard enhanced battalions 
in Iraq and two in Kuwait. That's a significant footprint.
    In Afghanistan, shortly we'll have almost two full brigades 
with the 10th Mountain Division to take the mission. In the 
Balkans, we have the 34th National Guard Division from Kansas. 
In Kosovo, we have the 1st Infantry Division, which will be 
replaced by the 28th National Pennsylvania National Guard 
Division. We have forces in Korea, the 2nd ID, we have 
contingency forces in the United States, and there are other 
areas in the world that are dangerous.
    In addition to that, the normal doctrine years ago when I 
was serving was for every deployed unit you had to have a 3-to-
1 ratio. That I think has changed to 5-to-1 now because we also 
have preparation, exercise phases, training center missions, 
reintegration, and then the actual mission. We are dangerously 
stretched thin in the Army and other Services also.
    I know the answer to this will be multinational forces will 
take the place of these troops in Iraq, but so far we've been 
unsuccessful in arranging those forces. It seems to me that we 
have to be prepared to increase our Army, number of brigades in 
our Army, or to activate National Guard Divisions, and we have 
to make that decision soon because of the training these troops 
will need before they're deployed.
    Mr. Secretary, are you planning or prepared to increase the 
size of the Army to meet these commitments?
    Secretary Rumsfeld. First, I would say that I talked to 
General Abizaid this morning, and he is sensitive to the 
importance of troops knowing what the rotation plan will be so 
they have some degree of certainty in their lives. He's 
sensitive to the importance of the quality of their lives, 
whether they get mail and those types of things, and is 
determined to continue the fine work that General Franks has 
done and, now that we've completed major combat operation in 
Iraq, begin to get greater clarity as to exactly how that 
rotation will take place.
    It would be incorrect to say that we expect that 
international forces will replace all of U.S. forces. We don't 
anticipate that. We're going to have to replace U.S. forces 
with U.S. forces in large measure, and we understand that. The 
Joint Staff and the Services have been asked to make a 
presentation to me; the request went back many weeks. They have 
been working in the tank with the Services, and they expect to 
bring that forward sometime this month, in which case they'll 
get clarity as to what people can expect in terms of their 
circumstances.
    Then the question comes, do you need to increase force 
levels, particularly in the Army or Marine Corps, the ground 
forces, I would add? The answer to that question is if we 
believe that's the case, obviously we would come to Congress 
and make that request. At the moment we are attempting to bring 
down our force commitments in a number of countries in the 
world. We have proposals with respect to what's taking place in 
Bosnia and Kosovo, which are through NATO, in together and out 
together, as you're familiar. We have been working to try to 
reduce our force in the Sinai. We have discussions going on 
with Korea as to how we can have our footprint there arranged. 
We have discussions taking place in Europe.
    We also have, I'm told by Dr. Chu--and I don't know if 
we've ever gotten the exact list--but something in the 
neighborhood of 300,000 men and women in uniform doing jobs 
that aren't for men and women in uniform. They're doing 
civilian functions, and they shouldn't be doing civilian 
functions. So we have to continue to try to manage the 
Department in a way that we make the best use of people who 
serve in the armed services.
    If, at some point, it looks as though what you suggest 
might be the case turns out to be the case, clearly we will 
come to Congress and ask for an increase, but at the moment we 
do not see that that's the case.
    Senator Reed. Let me address the question a different way. 
Since September 11, 42,000 National Guard troops have been on 
active duty. That's before Operation Iraqi Freedom. Doesn't 
that suggest to you that there is a need for a increase in 
Active Forces?
    Secretary Rumsfeld. First, I don't have the number at my 
fingertips, and I regret that, but there are a very large 
number of Guard and Reserve that have been on duty that are 
volunteers. They are individuals who were not called up. 
They're not required, but a non-trivial fraction of the total 
have been individuals who were asked, ``Would you like to come 
on and serve on an active service for a period?'' and they have 
said, ``Yes.''
    So it is. You're right, except that within that mix of 
numbers of Reserve and Guard, a lot of them are there because 
they want to be, not because they're being forced to be.
    Senator Reed. You need them, Mr. Secretary.
    Secretary Rumsfeld. You bet we need them.
    Senator Reed. Then the question goes, if you need that many 
National Guardsman over an extended period of time, stretching 
back over a year, doesn't that suggest that the Active Forces 
have to be increased?
    Secretary Rumsfeld. Of course, we have increased the Active 
Forces. We have a provision Congress passed and the President 
has taken advantage of the 2 percent plus, and under an 
emergency even the 2 percent ceiling is not a requirement for 
us, and we are in some cases above the 2 percent. The force 
levels have increased during this period, you're quite right.
    Senator Reed. Mr. Secretary, my time has expired, but I 
think this issue of the size of our forces is rapidly 
approaching a decision point. From what I've seen from the 
extended deployment of our Army particularly, and I agree the 
Marine Corps also, and I would suspect the Navy and the Air 
Force could make similar cases, is that we're reaching the 
point where we have to go ahead and bite the bullet and put 
more forces in our force structure so we can rotate those 
troops who are doing so well and serving so proudly out of 
Iraq.
    Chairman Warner. Thank you, Senator.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. General Franks, 
let me begin my remarks by joining my colleagues in thanking 
you for a truly outstanding career. Our country owes you an 
enormous debt of gratitude, and I join my colleagues in 
saluting you.
    Mr. Secretary, I was honored to be part of the Armed 
Services Committee trip to Iraq recently, and, like my 
colleagues, I had the opportunity to talk with many of our 
troops. I want to echo the impressions that Senator Reed 
received in his conversations. To a person I found that our 
troops' morale was very high despite the harsh conditions under 
which they're serving and despite the dangers to which they are 
exposed.
    But I also found a weariness among our troops, and over and 
over I heard, ``I'm proud of our mission, I helped free the 
Iraqi people, but when do I get to go home?'' I think it is 
important that we communicate to the men and women who are 
serving so that they will have some expectations. One soldier 
from Maine told me, ``I can deal with another 3 months, I can 
deal with another 6 months, but I just need to know.'' I would 
encourage you--and I know that General Abizaid is working on 
this--to share that information with our men and women in 
uniform as quickly as it is available so there can be some 
certainty.
    I would also ask you, Mr. Secretary, to project for us what 
you see as the percentage mix of American troops versus troops 
from other countries as part of the coalition forces by the end 
of the year. Obviously, we can rotate troops home more quickly 
if we can replace them not just with American troops, but with 
troops from other countries. Could you give us some rough 
estimate of what you see as the percentages of American troops 
versus troops from other countries as part of the coalition 
forces by the end of the year?
    Secretary Rumsfeld. As General Franks and I have indicated, 
we now have about 148,000 troops there. We're hoping to have 
the non-coalition forces up to something like, at the moment 
we're looking at, 30,000 sometime late summer, early fall. We 
intend to have the Iraqi army grow as rapidly as we can do so. 
There's actually a fourth source of forces, and that's contract 
forces for site protection to the extent that that might make 
sense. That's roughly what it looks like to me going out toward 
the end of the year.
    Senator Collins. You mentioned, Mr. Secretary, in your 
statement that Iraqis no longer wake up every morning and fear 
wondering whether this will be the day that the death squads 
come. Indeed, all of us feel a great pride in freeing the Iraqi 
people from the breathtaking brutality of Saddam Hussein and 
his regime. Nevertheless, what I found during the trip is that 
there still is very much a climate of fear in Iraq. There's the 
fear that the Americans and the coalition forces will go home 
too soon and that Saddam Hussein will return to power.
    I was struck by a conversation that we had with an Iraqi 
who was running an oil refinery in Basra whom, whenever we 
asked any question that involved Saddam Hussein, would not 
respond. How important is it that we capture or kill Saddam 
Hussein, and how high a priority is it for the coalition 
forces?
    Secretary Rumsfeld. The President has said, and we all 
agree, that the United States and the coalition forces are 
committed to stay as long as is necessary and not a day longer. 
So the idea that we would leave too soon and Saddam Hussein 
would come back is not a realistic concern that anyone ought to 
have. Saddam Hussein is not coming back.
    How important is it that he be caught or killed and that 
closure come to that? It would be helpful. There's no question 
that this individual has created such fear on the part of the 
Iraqi people because of his brutality and the numbers of tens 
of thousands of people he's killed, and the willingness to use 
chemical weapons on his own people and on his neighbors, that 
there is a fear not just in Iraq but in the region that we have 
to be certain that he is not going to be around.
    I think that that will take some time. People don't get 
over that fear immediately. But he's not coming back. He's 
through. That regime is over.
    Senator Collins. You and I know that. You and I know for 
certain that Saddam Hussein is not coming back, but I am 
convinced that the fear that Saddam will come back is impeding 
our progress in reconstructing Iraq. Prior to this trip, I 
would have said that as long as he's out of power, that's 
sufficient. I came back with a very different feeling, a 
determination that unless we capture or kill Saddam that our 
progress is going to be far slower.
    Secretary Rumsfeld. I agree with that, and I will say, 
however, that in answer to your question of what's the 
priority, the priority is very high, as I'm sure you were 
briefed.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add to the record here my pride of the troops as well as the 
leadership of General Franks. What you've done out there with 
our troops is extraordinary, and I want to say thank you, and I 
want to praise you for all of that. I also want to commend 
Secretary Rumsfeld for all he has done with us as well as with 
you and the troops during this period.
    I want to continue to pursue the question of when are we 
coming home because, although I didn't make the trip to Iraq, 
I've heard it at home as well. Mr. Secretary, you mentioned in 
response to Senator Warner's questions that CENTCOM is 
developing a rotational plan for forces in Iraq, and it appears 
at this point that we don't have detailed answers about that. 
My question to you is, when do you expect that plan to be 
completed and will it include troop rotations in Afghanistan as 
well? I would appreciate it if you could brief me on that plan 
when completed as well. As ranking member of the Readiness and 
Management Support Subcommittee, I am deeply interested in this 
issue.
    [The information referred to follows:]

    The Army will be contacting your office soon to provide that 
briefing.

    Secretary Rumsfeld. Senator, CENTCOM's responsibility is to 
communicate the force requirements that they believe they need 
to do the job that they've been asked to do. The Joint Staff 
and the Services then work with them to determine what kinds of 
forces and what kinds of rotation schedules make the most 
sense. That work is currently being done, it's going to be 
presented to me this week, and I expect to be able to make some 
decisions.
    The certainty question is clear to the extent we can get 
that work done, tell them as we've now told the 3rd Infantry 
Division what their certainty is, to the extent we can do that 
with the other forces there. I should add, however, we have 
redeployed over 140,000 troops already including some Army, 
including some Marines, some ground forces, as well as Navy and 
Air Force.
    Senator Akaka. In regard to this deployment, Mr. Secretary, 
I recently visited some of our fine marines at Camp Lejeune and 
our great soldiers at Fort Bragg. Many of them had just 
returned from deployments in Iraq and Afghanistan, and we spent 
a lot of time just talking about what they will need to 
reconstitute their forces after returning home. In past 
operations it has sometimes taken units up to a year or more to 
fully regain high levels of readiness. Do you expect these 
timelines to be about the same after Operation Iraqi Freedom? 
If not, how do you expect to accelerate them, and how much 
additional funding will this require?
    Secretary Rumsfeld. We've asked for some funds already for 
reconstitution, and I don't doubt for a minute that we'll have 
to ask for additional funds for reconstitution. It's important 
that that be done. It varies from unit to unit how much time it 
takes and how much the cost is, but that work is all being done 
by the Joint Staff. The other thing that happens, however, is 
that the combatant commanders around the world look at what 
took place in CENTCOM, in Afghanistan and Iraq, and they begin 
to change their judgments about the numbers of precision 
weapons they would use, for example, relative to dumb bombs, 
and how they might conduct their campaigns. As they involve 
their contingency plans, they then alter their needs, and those 
kinds of things will be coming in the budget that's being 
prepared at the present time for presentation next year.
    Senator Akaka. Mr. Secretary, I'm quite concerned about the 
problem, and I'm shifting to dirty bombs. The General 
Accounting Office recently completed a report for me on the 
availability worldwide of radioactive material that can be used 
to construct such a weapon. Because of this, the looting of the 
Iraqi nuclear sites has been a matter of great concern. I thank 
you for letting an International Atomic Energy Agency survey 
team into Iraq. I would appreciate it if you could provide me 
an update, either now or for the record, as to whether all the 
missing radioactive sealed sources at the sites have been 
accounted for.
    General Franks. Sir, would you repeat the last part of the 
question, just the last phrase, sir. I missed the last part.
    Secretary Rumsfeld. It's the percentage of materials.
    Senator Akaka. I would appreciate it if you could update 
either now or for the record as to whether or not all the 
missing radioactive sealed sources at the sites have been 
accounted for.
    General Franks. We actually are very pleased with the 
results of that and having brought the IAEA in to check the 
work of our troops and some people who had been working that 
very hard. Senator, I will provide for the record the exact 
math, but the amount of yellowcake specifically is what we're 
talking about from two different sites that was unaccounted for 
at the end of bringing all this together actually is 
infinitesimal. Virtually all of the drums and the substances, 
the substance yellowcake, were recovered, and I will give you 
with precision the math on it.
    [The information referred to follows:]

    In the International Atomic Energy Agency report summarizing the 
results of its recent survey inside Iraq, the agency estimates that 
fewer than 10 kilograms of yellowcake material remains unaccounted for, 
and believes this small amount is not a proliferation concern.

    Senator Akaka. Thank you very much.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you very much, Mr. Chairman. Again 
let me, General Franks, echo what Senator Akaka and Senator 
Collins and all the rest of us have said about the great 
contribution you've made.
    In the very beginning of this hearing, Senator Levin 
mentioned that weapons of mass destruction are now back in the 
press. I feel compelled to share at least my feelings--and I 
think of some others up here--that they've never been out of 
the press. It's so obvious that this whole notion that weapons 
of mass destruction they claim that are not found, therefore we 
should not have gone in and done what we have done is nothing 
but an absurd media-driven diversionary tactic. I've never seen 
the likes of it before. What these people are saying is that if 
we didn't find these, therefore we should not have gone in.
    First of all, if it hadn't been for the media, I think that 
would have been put to bed way back in the beginning when they 
found 11 chemical rockets with the capability--and I'm 
recalling this from memory now--of 140 liters of some type of 
chemical. As Richard Butler said, 140 liters of VX could kill a 
million people. Now to me, we know there are 15,000 more like 
that out there but we found those. That should have put it to 
sleep.
    General Franks, when you said three decades of bloody 
regime, that's an understatement, and we all know that, and I 
know that Secretary Rumsfeld has tried to articulate how bad 
that really has been. But what you folks have done is end this 
monstrous bloody regime. When you stop and think and envision 
if we hadn't gone in, thinking about how in 1 day, 3,000 women 
and children tortured to death using nerve gas--and I 
understand that's one of the most painful ways of dying--to 
envision 317 kids under 12 years old lined up and executed. I 
recall right after 1991 when the war was supposed to have been 
over, I think 2 days before that we had the first freedom 
flight into Kuwait. Alexander Haig was on it. There were about 
six of us on this flight. I recall going to the headquarters 
that Saddam Hussein had used and walking through the torture 
chambers and seeing the body parts and running into a little 
boy that had his ear cut off because he had a picture of an 
American flag that was in his pocket.
    This fear, and now when I think about how gratifying it 
must be to the two of you to know, the two of you more than 
anyone else and the team that you put together, that you have 
brought this bloodiest regime since Adolf Hitler to a close. It 
has to be gratifying that people can now have weddings, women 
can now walk the streets without worrying about being summarily 
dragged out and raped and tortured to death, parents can send 
their kids out without fearing that they'll have their tongues 
cut out. So I just would say that, General Franks, as you cap 
off a career, I don't think you ever in your wildest 
imagination would have thought that you'd be doing such a 
liberation the way that you have done.
    There are a lot of things that we'd like to talk about and 
you've covered quite a few, but I would say this. Before I came 
in 1994, I was on the House Armed Services Committee and all I 
heard all those years was jointness, jointness, jointness. 
We're going to have to get to jointness and get rid of this 
mentality of each one out there doing his own thing. We've come 
so far. I think that the effort in Iraq and I might also say 
the effort in Afghanistan is the greatest achievement in 
jointness. I'd like to have your response, either one of you, 
to your impression as to where we can go, how much further of 
this effort of jointness we can go and with the successes that 
we enjoyed.
    Secretary Rumsfeld. I'll start. You're right. The pattern 
in the past has been for the Services to try to do their own 
thing and deconflict as best as possible. What took place in 
Iraq was the most joint warfighting operation I believe in the 
history of the world. I think the team, Lieutenant General 
McKiernan, Lieutenant General Moseley, Vice Admiral Keating, 
Major General Dale Dailey, General Franks and his deputies, 
Lieutenant General Mike DeLong, and General Abizaid, have set a 
pattern for the future that will dramatically leverage our 
capabilities for the future.
    General Franks. Sir, the only thing that I would add to 
that is I think Afghanistan initially and Iraq later gave us 
some insight into what joint can be. I think that expansion of 
that across all our Services, all our combatant commands, is 
the future. I think that that would fall under probably what 
the Secretary would call transformation. I actually believe 
that the notion of this level of jointness is tranformational. 
I think Joint Forces Command, Admiral Ed Giambastiani, my buddy 
down at Norfolk, will be and has the support of the Secretary 
to bring this level of jointness all across our uniformed 
Services in the years ahead.
    Senator Inhofe. I appreciate that very much. Let me get on 
record as saying I agree with much of what Senator Reed said 
concerning a concern on end strength and--you've heard me say 
this before--it's something that I hope you'll keep your minds 
open. I know your close communications with the Reserve 
component will convince you as it's convinced me and many of 
the members of this panel that there has to be relief. I hope 
that will continue to stay open.
    I had occasion to be in Vicenza the other day and talk to 
some of those in the 173rd, about half of those who were 
deployed up to northern Iraq. That was a contingency that we 
didn't know that would be there. We thought we'd be able to 
come down through Turkey and it wouldn't be necessary, but they 
are there. This is one of the minor things that we have learned 
and this hearing is supposed to be about lessons we have 
learned. Since my time is expired I'm going to ask you to give 
this response in the record.
    I know that in Vicenza when the 173rd was to deploy they 
went to Aviano. Fortunately, we had good weather so that the 
staging area, which is out in the open, could accommodate them, 
which it would not have if it had been rainy weather. They're 
now looking at some military construction projects that are 
going to ensure that. That's just one of many, many lessons I'm 
sure we've learned. I'd like to get as many of these examples 
so that we and this committee, as we look at military 
construction in the future and at our activities in the future, 
will be able to isolate these and get your impression on all of 
these things that now we realize maybe should have been done 
before but we should address as a result of our experiences.
    [The information referred to follows:]

    Military construction (MILCON) projects support the Commander's 
strategic vision of how we will operate in our AOR and from our HQ in 
Tampa. MILCON projects are continuously evaluated and assessed to 
ensure they continue to meet the requirements and intent of the mission 
as set by the Commander. Presently, we are reviewing and updating the 
Commander's strategy and long-term vision for the current AOR. MILCON 
projects are but one example of the support needed to ensure that our 
soldiers, sailors, airmen, and marines are able to carry out their 
missions. Currently we have 13 MILCON projects in our AOR: 5 in 
Bahrain, 2 in Oman, 3 in Qatar, 1 in UAE, and 2 in Uzbekistan for a 
total dollar figure of $333 million. The following list includes 10 
planned/future MILCON projects. Funding targets listed are estimates in 
some cases, and only reflect MILCON appropriations. In most cases, 
additional funds from outside MILCON appropriations are required to 
complete the projects.

                                            [In millions of dollars]

                  Location                                     Title/Description                           Cost

1. Afghanistan                               Coalition Joint Task Force 180 (CJTF 180) Joint Operations     5.2
                                              Center (JOC) at Bagram Air Base


    Purpose of the CJTF 180 JOC project at Bagram is to replace the 
existing JOC facility that is approaching the end of its life cycle due 
to fair wear and tear and exposure to extreme conditions. The current 
JOC for CJTF 180, a Corps level command, is comprised of tents of 
various quality and dimensions. Due to the harsh environmental 
conditions at Bagram (cold winters with snow, hot summers, intense UV 
radiation affects due to the altitude, frequent and sustained winds in 
excess of 40 knots, excessive noise caused by high winds, and excessive 
dust) the tents need to be replaced.


2. Bahrain                             Headquarters               25.7
                                        Expansion
                                        (Operations Center
                                        Phase III) at Naval
                                        Support Activity
                                        (NSA) Bahrain


    Purpose of the Headquarter Expansion project at NSA Bahrain is to 
expand the NSA operations center and incorporate a Naval Computer and 
Telecommunications Station (NCTS) satellite communications (SATCOM) 
expansion.


3. Djibouti                            Airfield Supplement         3.0
                                        2 at Camp LeMonier
                                        (Widen Taxiway and
                                        Add Ramp Space)


    Purpose of the Airfield Supplement 2 project at Camp LeMonier is to 
allow the Camp LeMonier taxiway to accommodate C-5 and C-17 aircraft 
and allow ramp space necessary to park aircraft. The current taxiway 
will not accommodate aircraft larger than a C-130.


4. Jordan                              Airlift Apron at           17.5
                                        ``classified Air
                                        Base''


    Purpose of the Airlift Apron project is to provide aircraft parking 
apron space for tactical and strategic airlift.


5. Oman                                Tanker Truck               10.5
                                        Offloading Facility
                                        at ``classified Air
                                        Base''


    Purpose of the Tanker Truck Offloading Facility project at 
``classified Air Base'' is to provide fuel off-load facilities away 
from main operations and cantonment areas.


6. Qatar                               Construct                  51.6
                                        Contingency Ramp at
                                        ``classified Air
                                        Base''


    Purpose of the Construct Contingency Ramp project at ``classified 
Air Base'' is to provide additional contingency aircraft parking 
capability.


7. Qatar                               War Readiness              50.0
                                        Material (WRM)
                                        Storage at
                                        ``classified Air
                                        Base''


    Purpose of the WRM Storage project at ``classified Air Base'' is to 
provide additional storage capability of WRM assets.


8. UAE                                 Flight Line                30.0
                                        Facilities at
                                        ``classified Air
                                        Base''


    Purpose of the Flight Line Facilities project at ``classified Air 
Base'' is to accommodate aircraft operations support.


9. UAE                                 Refueling Ramp and         47.0
                                        Hydrant System at
                                        ``classified Air
                                        Base''


    Purpose of the Refueling Ramp and Hydrant System project at 
``classified Air Base'' is to support aircraft operations.


10. Tampa, FL                          Add to and Upgrade        102.3
                                        CENTCOM HQ


    Purpose is to consolidate CENTCOM staff and coalition personnel 
into an adequately sized, efficiently configured, modern headquarters 
facility. Project includes increased space for additional personnel, 
renovation of the current building, a consolidated coalition facility, 
and upgraded antiterrorism/force protection systems. Project is spread 
over 3 fiscal years.

    Chairman Warner. Senator Byrd.
    Senator Byrd. What is our situation, Mr. Chairman, with 
respect to the votes on the floor?
    Chairman Warner. Yes, the vote has commenced, and at the 
conclusion of your questioning, we will adjourn.
    Senator Byrd. Would you prefer to go now?
    Chairman Warner. I think we would like to have you complete 
your questions.
    Senator Byrd. All right. Mr. Secretary, what is the current 
monthly spend rate to support our ongoing military operations 
in Iraq?
    Secretary Rumsfeld. It's a combination of appropriated 
funds as you, sir, know better than any plus the expenditures 
of funds that are taking place from Iraqi frozen assets, from 
Iraqi seized assets, and from U.N./Iraqi assets under the Oil 
for Food program. I can certainly have Dr. Zakheim come up and 
provide a very precise answer as to what's currently being 
spent.
    [The information referred to follows:]

    The projected monthly average obligation rate for the remainder of 
the fiscal year for military operations in Iraq is about $3.9 billion 
and about $900 million for the global war on terrorism to include 
Afghanistan. These costs are financed with DOD appropriated funding.
    The following are the type of funds available to finance relief and 
reconstruction efforts in Iraq.
    Resources as of June 30, 2003:

                      [In millions of dollars] \1\
------------------------------------------------------------------------
                                                   Available   Allocated
------------------------------------------------------------------------
Appropriated Funds:
  Iraq Relief and Reconstruction Fund \2\.......     2,475.0       954.1
  Natural Resources Risk Remediation Fund (DOD).       502.5       252.0
  Support to the Coalition Provisional Authority       599.0       206.4
   (DOD)........................................
  Non-DOD Resources (State, USAID, Treasury)....       529.2       529.2

Other Assets:
  Iraq State Owned--Vested Assets...............     1,749.1       564.0
  Iraq State Owned--Seized Assets...............       799.7       184.5
  Development Fund for Iraq (DFI) \3\...........     1,071.0  ..........
------------------------------------------------------------------------
\1\ Data as of June 30, 2003; source is the Section 1506 report
  submitted to Congress on July 14. 2003.
\2\ Held by the Office of Management and Budget.
\3\ Established by the United Nations Security Council Resolution
  (UNSCR) 1483 (2003). Revenue generated from the sale of oil and other
  Iraqi commodities will be deposited in the DFI along with any frozen
  Iraqi assets provided by other countries.


    Senator Byrd. Do you recall a figure? Can you give us an 
estimate? I've heard a figure of $1.5 billion a month.
    Secretary Rumsfeld. I would not want to venture a guess and 
be wrong, sir.
    Senator Byrd. Somebody ought to know.
    Secretary Rumsfeld. They do know, and we'd be happy to 
brief you on it.
    Senator Byrd. I'd like to know now. [Laughter.]
    Secretary Rumsfeld. We'd have to adjourn, and I'd have to 
get on the phone with Dov Zakheim.
    Senator Byrd. We'll be back won't we, Mr. Chairman?
    Chairman Warner. Yes, we will, Senator.
    Senator Byrd. Along with that, how much are we spending a 
month to support U.S. military forces in Iraq?
    Secretary Rumsfeld. The expenditures for Iraq are in a 
variety of categories. You might include the salaries of the 
people that are serving there. Those salaries would be paid 
whether they're serving there or they're back in Germany or 
back in the United States. It might include funds as I 
indicated that are coming from other sources. It might include 
funds for reconstitution that are currently being spent but for 
spending on restocks of bombs, for example, and weapons that 
were used during the conflict.
    It is not a question that can be posed and then answered 
with a single number. I wish I were able to do that, but it 
falls into a variety of different baskets under our 
appropriated funds.
    Senator Byrd. I understand that, Mr. Chairman, but I've 
been around here going on 51 years. I'm on the Appropriations 
Committee and we want to fund our military certainly and meet 
the needs, but there must be some figure, some amount, that we 
can cite as an amount that we're spending monthly in 
Afghanistan and the same with respect to Iraq.
    Secretary Rumsfeld. I'm sure there is, and we'll get it for 
you.
    Senator Byrd. That'll be another figure we'll hope to have 
after when we return, Mr. Chairman, I would hope.
    Secretary Rumsfeld. Not likely--that fast?
    Senator Byrd. You like to have figures fast when it comes 
to appropriating money.
    Secretary Rumsfeld. That's for sure.
    Senator Byrd. I would like to know on behalf of the 
Appropriations Committee and Congress how much we're spending.
    Secretary Rumsfeld. We'll try and get it for you.
    Senator Byrd. I hear and I read that it's something like $3 
to $3.5 billion a month to support U.S. military forces in 
Iraq. Now where are these figures coming from that we read 
about and that we in the Appropriations Committee are told from 
time to time?
    Chairman Warner. Mr. Byrd, the warning for 7 minutes has 
stopped. We'll recess now and when we come back, you'll be 
immediately recognized to finish those questions.
    Senator Byrd. Very well. Thank you.
    Chairman Warner. We're recessed.
    [Recess.]
    Chairman Warner. We will continue the hearing. Senator Byrd 
will be recognized following Senator Roberts.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. General Franks, 
from a Kansas Aggie to an Oklahoma Aggie, you've done pretty 
darn well.
    General Franks. Thank you, sir.
    Senator Roberts. We truly appreciate your service and I 
echo all the comments of my colleagues in that regard.
    Mr. Secretary and General Franks, I want to tell you two 
accounts from the chairman's CODEL over to Iraq of which I was 
privileged to be a member, and in which I was trying to 
determine the intelligence capabilities since I am the chairman 
of the Intelligence Committee.
    One is in regards to a massive grave site near Hillah where 
there is a site about the size of a football field. It's my 
understanding there are about a hundred of these grave sites 
around the country and that we have, I think, been involved 
with this task force justice on the accountability and the 
forensic job that remains on about 14 and that will go up to 
about 32, so it's a massive job. It was with anguish and 
despair that our delegation stood on a mound of sand and 
overlooked this pit, half of which has been smoothed over, that 
contained 15,000 Iraqis. They brought them in by truck, three a 
day, and in this pit would disgorge these people and they would 
rape them, they would torture them, they would shoot them. If 
somebody from the neighboring villages would try to rescue the 
kids, why they were simply buried alive. Three thousand were 
excavated when Saddam fell. One thousand were identified, and 
then finally one of the clerics simply declared the whole 
ground holy ground.
    I stood there, and I wondered about man's inhumanity 
against man. Saddam Hussein is a Hitler, a Pol Pot, a Stalin, 
and it gets back to Senator Collins' comment in regards to the 
palpable fear on the part of Iraqis. I underestimated that. I 
know that you have made the statement that he is not coming 
back, we have made the statement he's not coming back, and by 
damn he's not coming back. But I don't think the Iraqis fully 
comprehend that or fully grasp it or fully believe it.
    That is why I think having been through that and having 
learned that he basically executed at least 300,000, probably 
closer to 1,200,000, of his own people and things as graphic as 
I have described that we must capture or kill him--must capture 
or kill him. I know Task Force 20, which you can't really talk 
about much, if at all, has that duty, has that mission. You say 
it is a priority. I would urge you, sir, to say that it is the 
highest level priority because I don't think that we're going 
to get the cooperation that we need and the full partnership 
and have Iraqis enjoy liberty and democracy until we kill or 
capture Saddam Hussein and his two sons.
    I'm not asking you to comment on that. You've already 
responded to it, but I feel very strongly about that. The next 
account that I'd like to bring to your attention is that there 
is a Colonel A.J. Kessel who is operating out of the Saddam 
palace or headquarters there. He is working with the Minister 
of Culture who is an Italian. Colonel Kessel got the bright 
idea that there might be an opportunity to reconstitute the 
Iraqi symphony of all things--after 30 years there had been no 
symphony--and was able to do so by relocating and locating 
people who played in the symphony and obviously some 
replacements because it has been 30 years. They were in evening 
dress that was provided. Some of the members of the symphony 
found their instruments that had been hidden for 30 years, and 
those that did not have them were provided, and they had a 
symphony. It was a packed house. Tom Korologos was at that 
performance and Tom did a magnificent job over there in Iraq.
    The last piece they played, Mr. Secretary, was the Iraqi 
national anthem, prior to Saddam Hussein. When they did that, 
the crowd stood, applauded, and cried tears of joy. There is 
Iraqi nationalism right below the surface that can flourish, 
and there is hope for Iraq. Now I've not asked you a question. 
Those are just two observations that I would make: one, anguish 
and despair on what that man did to brutalize his country and 
the need to bring him, either killed or captured, and his two 
sons to justice, so that we can cooperate with Iraqis because 
they have great fear. You've heard the tapes. You've heard the 
pamphlets. Anybody that is cooperating lives in fear that he 
could come back.
    Then on the other hand, here we have a symphony of all 
things that is going to be a regular performance, by the way, 
from now on. God bless Colonel Kessel, who, by the way, goes by 
the name of Buttons. So Buttons did his job, and that is one of 
the projects, over 1,500 projects, that we are conducting in 
that country that is the untold story because the media doesn't 
cover it. I wish that symphony had been on CNN or, for that 
matter, any other network. It was very impressive. If you have 
any comment, I'd be happy to have you comment.
    Secretary Rumsfeld. Senator Roberts, I agree with you fully 
on the importance of capturing and bringing to justice Saddam 
Hussein, his sons, and the senior Iraqi leadership--just as 
we've been working to try to bring the senior al Qaeda and 
Taliban leadership. We will continue to do it. We recognize the 
problem it poses. The story you've just recounted on the 
symphony is an important one, and I thank you for doing it.
    Senator Roberts. One hour and 28 minutes ago, it was 
announced over Associated Press we have now captured number 23 
on the U.S. most wanted list and number 29. A high-ranking 
member of the Baath party regional command and the former 
Interior Minister were taken into custody. The noose draws 
tighter, and that's good news.
    My time is expired, Mr. Chairman.
    Chairman Warner. Yes, Mr. Secretary, you wish to respond?
    Secretary Rumsfeld. Mr. Chairman, I was asked repeatedly by 
Senator Levin and others, including members of the press, about 
whether or not the United States has made an explicit, specific 
detailed request to NATO for NATO's participation. I did not 
know the answer as to what precisely had been done. It turns 
out that my deputy, Paul Wolfowitz, did travel to Brussels in 
December 2002, and, at least in that one instance, he made a 
specific request to the North Atlantic Council to consider 
contributions that the Alliance could make to post-war 
stability in Iraq, and that's the answer to the questions. 
There may have been other requests, which I suspect there have 
been through the Department of State.
    General Franks. Mr. Chairman, if I could just add a bit to 
what the Secretary said also. I know the committee is aware 
and, Mr. Chairman, I know you're aware certainly that since the 
beginning of Operation Enduring Freedom in Afghanistan we have 
had a French delegation with us in our coalition which, as I 
mentioned earlier, now stands at 63 nations, and that 
delegation has been with us throughout the entirety of both 
operations in Afghanistan as well as the operation in Iraq.
    Chairman Warner. General, when Senators Levin and I, 
Rockefeller and Roberts were in-country there, we met with the 
French officers who were actively participating in the training 
command there in Afghanistan. As a follow up, Senator Levin, 
the Secretary addressed your NATO question. I would simply add, 
Mr. Secretary, that I feel that such additional information--
you said, ``There could well have been other contacts''--I 
would hope you'd provide for the record. But, Senator, you 
might wish to initiate and then we go to Senator Byrd.
    Secretary Rumsfeld. Let me just repeat it so that Senator 
Levin is aware of it. The answer to the question of whether or 
not we've made a specific request to NATO to assist in Iraq is 
we did. Secretary Wolfowitz was sent over there in December of 
last year. He did make a specific request. I'm sure there were 
other specific requests that I'm not aware of either.
    Senator Levin. None since the war?
    Secretary Rumsfeld. I have no idea. I'll be happy to run 
around and try to find out the answer to that but I do know 
there was this one specific one. There may have been some 
before, there may have been some since.
    Senator Levin. If we could get a complete list, if there's 
more than one, it would be helpful.
    [The information referred to follows:]

    On December 4, 2002, in Brussels, Deputy Secretary Wolfowitz 
outlined potential Alliance roles in support of coalition operations in 
Iraq to the North Atlantic Council. These included:

        <bullet> Force protection for U.S. forces in light of the 
        increased terrorist threat;
        <bullet> Backfill for forces deployed in NATO operations;
        <bullet> Security measures against the increased terrorist 
        threat to shipping in the easter Mediterranean;
        <bullet> Support for the defense of Turkey; and
        <bullet> Support for the post-conflict stabilization, 
        humanitarian relief, and reconstruction.

    During a visit to the North Atlantic Council on February 27, 2003, 
Under Secretary of State Grossman reminded the Members of Deputy 
Secretary Wolfowitz's presentation, noting that NATO had to decide how 
it would participate in Iraq. On April 3, 2003, Secretary Powell again 
reiterated to the Members the U.S. desire for a NATO role in post-
conflict stabilization, humanitarian relief, and reconstruction. On at 
least six occasions between February through May 2003 the U.S. 
Permanent Representative to NATO, Ambassador Burns, reminded the North 
Atlantic Council in permanent session of the U.S. requests for support.
    Based on these requests, NATO supported the coalition in the lead-
up to and during the Iraq conflict by helping protect U.S. forces on 
their soil; ensuring the safety of shipping in international waters by 
carrying out surface, submarine, and maritime air patrols and 
surveillance activities, including intelligence collection, in the 
Eastern Mediterranean and escorting civilian ships through the Straits 
of Gibraltar; and supporting the defense of Turkey through deployment 
of chemical-biological defense units, AWACs planes, and Patriot 
batteries.
    Following consultations with the U.S., Poland on May 14, 2003, 
formally requested that the Alliance provide support to the Polish-led 
multinational division in the stabilization force for Iraq. Ambassador 
Burns actively supported this request and worked to achieve consensus 
in the North Atlantic Council for this proposal on May 21, 2003. The 
agreed support will include:

        <bullet> Intelligence;

                <bullet> Battlefield Information Collection and 
                Exploitation System (BICES)
                <bullet> Topographical and satellite imagery products
                <bullet> NATO country handbooks and intelligence 
                databases

        <bullet> Logistics expertise and assistance with logistical 
        planning;
        <bullet> Movement coordination;
        <bullet> Communications support;

                <bullet> CIS Satellite Communications and crypto 
                support (mobile communication module, transportable 
                satellite ground terminal and LAN connectivity 
                equipment)
                <bullet> BICES equipment (secure phone lines and 
                terminals)

        <bullet> Force generation.

    Chairman Warner. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman. Now if we may 
continue with my questions concerning the amounts of spend out 
monies that we're expending in Afghanistan and in Iraq monthly, 
Mr. Secretary.
    Secretary Rumsfeld. Senator Byrd, I've been given a number 
by Dov Zakheim that says that in the fiscal year 2003 
supplemental there are funds for the United States Government 
appropriated to spend in connection with Iraq--that between 
January 2003 and projected through September 2003 will average 
something in the neighborhood of $3.9 billion spend rate per 
month.
    Senator Byrd. In Iraq?
    Secretary Rumsfeld. In Iraq.
    Senator Byrd. $3.9 billion.
    Secretary Rumsfeld. Right.
    Senator Byrd. Okay. Now what has the spend out rate been 
for Afghanistan?
    Secretary Rumsfeld. The estimate that I was given is that 
it's something in the neighborhood of $700 million per month.
    Senator Byrd. $700 million. That doesn't square with the 
press reports that I read which, as I indicated earlier, 
amounted to about $1.5 billion.
    Secretary Rumsfeld. The 1.5 number that I've seen is a 
number that people used 4 or 5 months ago as the projected 
figure for Operation Enduring Freedom, the non-Iraq portion of 
the global war on terror. I don't know what you saw in the 
press, but I have seen that same number in that connection.
    Senator Byrd. But you say that the amount that you're 
stating before this committee today is around $700 million?
    Secretary Rumsfeld. For Afghanistan.
    Senator Byrd. For Afghanistan, per month.
    Secretary Rumsfeld. Yes, sir. The numbers that I've been 
given by Dr. Zakheim of other funds is they anticipate $1.7 
billion from frozen assets to be expended by the end of this 
fiscal year and $800 million in seized assets to be expended by 
the end of this fiscal year. Then there are some additional 
contributions from various other countries that are going on 
and the last time I saw that, it was a number of something like 
$2.3 billion committed by other nations to assist with the work 
that's going on in Iraq.
    Senator Byrd. Now it would seem then that we're spending 
about five times as much per month, a little over five times as 
much per month in Iraq as we're spending in Afghanistan, $700 
million as against $3.9 billion, I'd say 5\1/2\ times. Yet the 
numbers there are we have 10,000 men, I believe, in 
Afghanistan, do we not, and something like 150,000 in Iraq, 15 
times as many men in Iraq but we're only spending 5 times as 
much money.
    Anyhow, do you believe that the spending rate for Iraq and 
Afghanistan will continue to remain at the current rate for the 
next year?
    Secretary Rumsfeld. I don't know what the administration 
intends to propose to Congress by way of funding for that, and 
that's something that is funded out of a whole host of 
different portions of your Appropriations Committee, AID, 
Department of State, Department of Defense, and others. What 
OMB and the President will recommend at some point in the 
future I just don't know, sir.
    Senator Byrd. All right. I see my time is up but let me ask 
this follow-up question which my line of questions leads me to. 
When do you expect to see another supplemental submitted to 
Congress and how large a supplemental should we expect it to 
be?
    Secretary Rumsfeld. I am under the impression that the 
Office of Management and Budget is looking at a supplemental, 
but I do not know when they would decide to submit it or what 
the amounts would be either from my department or from other 
departments because they've not made any recommendations to the 
President on that to my knowledge.
    Senator Byrd. But you have some recommendations to make to 
OMB?
    Secretary Rumsfeld. At some point we will, yes sir.
    Senator Byrd. Do you have any idea how much that's going to 
be?
    Secretary Rumsfeld. I don't. I'm sure that Dr. Zakheim has 
some preliminary work that he's done with the Services in terms 
of reconstitution, and we can try to provide some of that to 
you personally if you wish, but I don't have anything at my 
fingertips.
    Senator Byrd. I'll be pursuing this as a member of the 
Appropriations Committee. Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Byrd.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman, and I might say, 
Mr. Secretary, if you need reinforcements, having been on this 
trip with the chairman and the ranking member, their ages are 
classified but they are in extraordinary shape and energy and 
enthusiasm. It was a privilege to be on the trip with you, both 
of you.
    Chairman Warner. Glad to have you with us, Senator. Thank 
you.
    Senator Dayton. Mr. Secretary, General Franks, I salute 
both of you for your extraordinary success and military victory 
in Iraq. Mr. Secretary, you were very complimentary of the 
General and those who worked with him, but from the published 
reports I've read you were integrally involved as well, and I 
think you should share in that. The strategy that you developed 
and the success--I remember saying beforehand the optimistic 
but realistic scenario would be to be 3 weeks, but that was 
very optimistic and I believe it was 3 weeks exactly from the 
day that you crossed the border to the day that you occupied 
Baghdad. I think that's an extraordinary success, and I salute 
both of you for it.
    I'm not qualified to draw lessons. I'm not experienced in 
military affairs, but it would seem to me that at least a 
similarity in both Afghanistan and Iraq is the dispersal of 
opposing forces rather than a surrender. I don't believe in 
either case there was a formal surrender. As General Sanchez 
told us in our meeting in Iraq, the Iraqi forces dissolved near 
the end of the advance because of the extraordinary lethality 
and precision of our firepower and the overwhelming force. This 
suggests to me that with the follow-through and the 
continuation of that after, there was a risk of prematurely 
declaring the victory has been won and the hostilities are over 
when in fact this continuation of the need to track down 
people, the principals as well as those who have not really in 
their own minds surrendered but are just running away to fight 
another day. That, in fact, leaves our troops even more exposed 
often than perhaps in the initial stage of combat. That's what 
seems is occurring now, which is coming as a surprise to the 
American public who thought that this matter had been declared 
over and, in fact, was.
    That leads me again, Mr. Secretary, to my concern about the 
follow-through in terms of winning the country after winning 
the war. As to the progress that you cite, we witnessed some of 
that with the economic development of the country. The social 
rehabilitation, which I totally agree with you, sir, is not 
ultimately the responsibility of the American taxpayer or 
anyone else in the world but the Iraqi citizens themselves. At 
this point in time it seems that there's a direct correlation 
between the progress that's being made in the non-military 
areas of let's call it social and economic rehabilitation and 
the feelings of the populus toward the American forces and even 
the number of attacks on them.
    I guess in my view, and I don't think this is necessarily 
the Department of Defense--and we were not briefed and 
obviously we didn't see everything--but I'm not aware of the 
same magnitude of non-military projects and initiatives being 
undertaken that are going to make any kind of difference in the 
standard of living in that society. I fear without that kind of 
parallel effort to the military that our forces are going to be 
in a holding pattern trying to preserve this military victory 
but not able to be extricated because this unrest is going to 
continue.
    Secretary Rumsfeld. Senator, I agree completely that it 
takes progress on all three fronts: the political, the 
security, and the economic, and no one is likely to get very 
far out in front of the other. In the last analysis, either 
people will be willing to vote with their dollars, and I don't 
mean U.S. dollars but dinars or whatever, and invest in that 
country, and people will come back to that country because they 
have confidence in it and because it has a well-educated 
population. It has a population that has energy, it has 
resources in oil, and it's not a poor country like Afghanistan. 
It has wealth, and there isn't any reason it can't be as 
prosperous and as successful as its neighbors in the Gulf 
States.
    I think it's going to take some time, it's going to take 
some effort, and that in the end it will happen, it will 
improve, and we'll see progress.
    Senator Dayton. I would assert that that question is about 
when are our troops going to be able to come home, that the 
speed with which we show some visible signs of improvement 
across the country, socially and economically, and obviously 
we're not going to see those through to completion, those will 
take decades. To get things started, however, is going to be a 
major determinant in how quickly our troops are going to be 
able to come home. I don't see, and we were not informed, in my 
recollection, of a magnitude of effort and initiative, which I 
think is going to have to be U.S.-started anyway, or it's not 
going to happen in the near term, to get people to start to 
have faith in the future and also to look at us more favorably.
    I would commend the report in The New York Times this 
morning which talks about a city, Abu Ghraib, and it talks 
about the absence of power there. The head of the council there 
that's been elected said, ``Conditions have never been worse. 
We've never been through such a long bad period.'' I'm sure 
from our experience too there are parts of the country where 
there is more progress being made, there are parts where 
progress is not being made, but I would just again say that I 
don't see, didn't see an organized and well-financed non-
military initiatives to parallel and build upon the success 
that was accomplished militarily.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Rumsfeld. Senator, I believe you said that the 
war was declared over. No one I know in any position of 
responsibility declared the war over. What the President said 
was that major combat operations are completed and now we have 
to go after the remnants of the regime, and that it will take a 
good deal of time.
    Senator Dayton. I stand corrected. That's a better 
description of what was said.
    Secretary Rumsfeld. Second, the war started on March 19, 
major combat was announced as having ended on May 1, and today 
is July 9. That's less than 4 months. Think what took place in 
Germany after World War II in 4 years. Think what took place in 
Japan in years. I think we have to get some perspective on this 
and put this in context and think back in history. This is 
tough stuff. This is hard work. This takes time. As Senator 
Roberts said, fear is a powerful thing, and those people were 
repressed and fearful. Thirty years of a Stalinist type regime 
suffocating the creativity and energy and brilliance of so many 
of those Iraqi people has been a devastating thing on that 
country. We need to have some patience.
    Senator Dayton. All right. I would agree with you. How much 
patience do the American people whose sons and daughters are 
over there now need to have? Do they need to realistically 
expect that those forces are going to need to be there for 2 
years, 3 years?
    Chairman Warner. Senator, we have to move on to other 
Senators. A number are waiting. If you want to make a quick 
response----
    Senator Dayton. My time is up, could I have an answer to 
that question?
    Chairman Warner. Yes. I was just about to say if you wish 
to----
    Secretary Rumsfeld. We responded to that question earlier. 
The answer is that the people who are over there now will be 
coming home. They will be rotated home. The ones that are there 
are not going to stay there for 4 or 5 years.
    Senator Dayton. The question, sir, was whether American 
forces have to be there for 2 years or 3 years.
    Secretary Rumsfeld. The answer to that question is we don't 
know. Nobody knows the answer to that question, how long it 
will take. It will take some time, and I think we all believe 
that it's important that it be done, that's it important we get 
other countries to participate in it. We intend to see it 
through, and it's going to take some patience. When it's done, 
it's going to be darn well worth having done.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. Thank you, Mr. 
Secretary.
    Senator McCain.
    Senator McCain. General Franks, I want to add my 
appreciation for your dedicated service and sacrifice for this 
Nation and your outstanding leadership. I'll reserve any praise 
for Secretary Rumsfeld until he retires. [Laughter.]
    Please accept the thanks of all America on behalf of your 
outstanding leadership. Mr. Secretary, here's what you're 
hearing today from the committee. A survey by the Pew Research 
Center for the People and the Press shows that 23 percent of 
respondents think the U.S. military effort in Iraq is going 
``very well,'' far fewer than the 61 to 66 percent that 
expressed that view during the conflict. Yet at the same time a 
large percentage of Americans, in my view very appropriately, 
think that the decision to go to war was the right thing as you 
state.
    The problem here is that Americans are unsure about the 
future of our involvement in Iraq. What you need to do, in my 
view, is give not just this committee but the American people, 
who hold you in the highest regard and esteem and have the 
greatest confidence in the President of the United States and 
his leadership in this conflict, the concrete plan as much as 
you can. In other words, how much is it going to cost roughly 
and how long we expect to be there, even if it's a pessimistic 
scenario? Also, how many troops are probably going to be 
required given that there are certain variables? In other 
words, this whole issue of how long are they going to be there 
and the uncertainty of seeing the pictures of the wounded or 
dead American soldiers are leading to this unease, and I 
emphasize that's the word, ``unease,'' not disaffection, not 
anger, but unease on the part of the American people.
    I am convinced without a doubt that when Americans are told 
what the plan is for post-war Iraq, then I think you will 
receive overwhelming support on the part of the American 
people. I say in all respect and appreciation for your 
leadership, everywhere I go Americans want to know that. I 
suggest that you have probably been doing that, but probably 
not in a fashion that the American people either are hearing or 
understanding what our future is. But again I want to emphasize 
an overwhelming majority of American people think we did the 
right thing. Whether weapons of mass destruction are found or 
not, the overwhelming majority of Americans support this 
President and your leadership and that of General Franks.
    But they need to be told. That's all they need, and I think 
by the tenor of the questions that you've gotten today, the 
other Senators are reflecting what they're hearing from their 
constituents. I hope you take that as a constructive comment, 
which it is intended to be.
    Secretary Rumsfeld. I do. Thank you.
    Senator McCain. Now I'd just like to move quickly to Iran. 
There's reports today that there's a newly found nuclear site. 
There's accumulating evidence about Iran. I'd like to know your 
assessment of the threat, the situation, whether there's any 
North Korean involvement--I guess I'd like to hear a little 
more information about how you view this situation in this very 
bad neighborhood.
    Secretary Rumsfeld. Senator, as the President has 
indicated, the situation in Iran is roughly as follows: the 
U.S. Intelligence Community has assessed that they do have a 
nuclear weapon program. The IAEA has had uneven success in 
dealing with them. The United States, over successive 
administrations, has had discussions with Russia encouraging 
them to not participate in a cooperative program with them with 
respect to anything involving a nuclear power plant. It's 
estimated that the nuclear facility that they're saying they 
need for energy would produce less energy than the amount of 
gas that they burn off on an annual basis.
    Senator McCain. Have you seen this report this morning?
    Secretary Rumsfeld. I don't know what report you're 
referring to.
    Senator McCain. ``Iranian Exiles Describe Newly Found 
Nuclear Site.'' It was carried in a number of newspapers.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Rumsfeld. I didn't. I have not seen anything in 
the press this morning. I apologize.
    Senator McCain. Do you see any other North Korean 
connection?
    Secretary Rumsfeld. There has been interaction between 
North Korea and Iran over a sustained period of time.
    I would say one other thing. There are recent reports of 
Iranians moving some of their border posts along about a 25-
kilometer stretch several kilometers inside of Iraq, obviously 
not being respectful of Iraq's sovereignty. Certainly that is 
behavior that is not acceptable, and they should be staying on 
their own side of the border.
    Senator McCain. What action do you think we should be 
taking, Mr. Secretary?
    Secretary Rumsfeld. I think that the President and the 
Department of State have been engaged in a variety of 
diplomatic efforts to try to persuade countries to not 
participate with Iran in developing their nuclear capabilities. 
It takes time to understand the success or lack of success of 
those efforts.
    Senator McCain. It seems to me we may have to contemplate 
significantly more. I hope not, but it's certainly disturbing 
news. I thank you, Mr. Secretary. Thank you again, General. 
Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. General, 
we're looking forward to having you as a part of our Tampa 
civilian community and thank you added to all of the accolades 
here.
    I would like very briefly to report to both of you what I 
observed since I just returned from Iraq last night. First of 
all, I think you have a good appointment in General Sanchez and 
the Secretary's and your appointment of General Dayton 
specifically to go after the weapons of mass destruction and 
trying to find out the fate of Captain Scott Speicher, which 
was one of the main reasons for my trip there. I am convinced 
that, in fact, he does have him as a priority along with the 
WMD.
    I went to the Hakmiyah prison. I can only describe it as a 
hellhole. I wanted to go there because of the cell that has the 
initials carved into the wall, MSS, which is the same as 
Michael Scott Speicher. We have no proof that that was the 
case. I observed the torture chamber and the refrigerated 
containers outside where they would put the corpses, and it all 
the more underscored the brutality of this regime.
    Happily I noted on the way in this highly protected convoy 
that went to the prison that economic life was returning on the 
streets. There were crates of refrigerators and boxes of ovens 
that you could see along with the fruits and vegetables, the 
return on the street of economic activity. I was also very 
heartened to find that new evidence has been produced, which I 
have just shared at length with Senator Roberts--the two of us 
have been joined at the hip on this matter of Captain 
Speicher--that is classified but that gives me reason to be 
optimistic for the first time in several weeks that I have been 
pessimistic.
    That doesn't say that he's alive, but that says that we're 
beginning to get evidence that, in fact, we might be able to 
find out. I wanted to give you that report. At the same time, 
some of the frustration that you have heard here, I don't think 
that there's any reason for us to shrink from the fact that 
most of the leadership that briefed me while I was there thinks 
that we're going to be there for a long time. Clearly, I hope 
we're going to be there for a long time, because we have to be 
successful. It is very important in this Senator's opinion that 
we have economic and political stability, and I think that's 
going to require us being there with a lot of effort for a lot 
of time.
    In addition to Senator Byrd, I had just mentioned to you, 
maybe we can confirm that in addition to the 150,000 that are 
there that in the region there are another 80,000 that are 
basically supporting the 150,000, and I think that we ought to 
realize that when leadership was telling me that we were likely 
to be there 5 years, I think it may be longer. Indeed, I can't 
imagine us being out of Afghanistan just in 5 years, and the 
experience that we had in Bosnia, now we're in the 8th year.
    I don't necessarily see that as a negative, but it's, I 
think, what we ought to get on the table and understand that 
over the long haul we're committed for that being a successful 
liberation of those people. Now it gets a lot easier if we find 
Saddam Hussein, dead or alive, because then a lot of this 
assassination that's going on right now--and that's what it is, 
it's premeditated, it was probably planned before the war. 
Unfortunately one of the victims was a member of the Florida 
National Guard, Sunday night, doing guard duty at the 
university at which someone slipped up behind him, shot him in 
the head, and then slipped off into the crowd. That has 
happened five or six times along with what you see, the tactic 
finding where our convoys are going, putting a mine, having a 
remote device, detonating it on a Humvee, and that happened and 
is chronicled in this morning's newspaper again.
    I think we just have to screw up our courage, our 
determination. Finally, I might say that, Mr. Secretary, you 
and I have talked about the question of the morale of the 
troops, the question of the replacement of the troops. I have 
specifically raised the issue of the National Guard and the 
reservists and whether or not a policy change ought to be made 
upping the active duty roster because indeed most every soldier 
I talk to, and I talk to a lot of them from Florida, both at 
the noon hour and then later in the evening, they are pretty 
well under the impression that they have to stay there for a 
year. That's not only the full time Army but that's also the 
activated National Guard and the reservists. Of course, that 
brings enormous disruption in their lives, in their employers' 
lives, in their families' lives that they did not necessarily 
think of that.
    I bring this issue up merely as a policy issue that will 
have to be considered here as well as by you on the question 
of, should we be doing this with these wonderfully trained and 
specially skilled reservists and National Guard men and women, 
or should we not be doing those kinds of tasks that are going 
to have to be done for the long haul in Iraq as well as 
Afghanistan with the active duty roster?
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Secretary Rumsfeld. Senator, very briefly, as I indicated 
earlier, we absolutely have to manage the force in a way that's 
respectful of what the obligations are and what the 
expectations are. One of the things that the Department has 
been working on since the beginning of this conflict is how we 
can rebalance what we have in the Reserve and the Guard 
relative to what we have on active duty. We ought to have on 
active duty the kinds of people that are going to be needed for 
longer term chores or tasks which are going to frequently come 
up. We can't keep calling the same people up four, five, six 
times. It's just not right, and the way the force was organized 
over the past two decades has been the way it is today, and the 
way it is today is that we don't have the right people in the 
Active Force, enough of the right people in the Active Force to 
do those kinds of things.
    We will be coming forward with proposals in a relatively 
short period of time to see if we can't get the people 
proportion of this right.
    Chairman Warner. Thank you, Mr. Secretary.
    Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman, and 
again, General Franks, not only do I want to congratulate you 
on your long and distinguished career but I believe that your 
leadership in both Afghanistan and Iraq will likely be studied 
by military historians for years to come. I thank you for your 
service to our Nation.
    This is a session on lessons learned, and I have two areas 
in particular that I am interested in. The first goes back to 
Senator Levin's early questions, Mr. Secretary, about the 
intelligence, and he focused in particular on the forged 
documents out of Niger that served as the unfortunate reference 
in both comments by you and the President as well as the Prime 
Minister in England and other officials. Senator Levin's 
question basically came down to how could it not have been 
known. In response, and I appreciate your willingness to 
provide specific details to respond to Senator Levin, you made 
a statement that the intelligence has been quite good.
    I would hope, Mr. Secretary, that, as part of the lessons 
learned and the after-action review that I'm sure both the 
civilian and the military leadership are conducting, you will 
certainly go deeply into the question of intelligence, because 
it's not just with the incident concerning the alleged efforts 
by Iraq to obtain enriched uranium from sources in Africa. 
During his confirmation hearing, General Abizaid said, ``[W]e 
had indications from intelligence that they were getting ready 
to distribute chemical weapons to forward Republican Guard 
artillery units. That's what we thought, and so we really 
targeted those artillery units, in particular, very, very 
hard.''
    Then he goes on to say, ``So the answer to the question is, 
I am perplexed as to what happened, and I can't offer a 
reasonable explanation with regard to what has happened.'' Now 
obviously we're all grateful it didn't happen. I know the 
chairman and I on several occasions shared our concerns about 
what would happen if they were deployed, but the fact is that 
in this new threat environment in which we find ourselves, we 
are increasingly reliant on intelligence. We just heard Senator 
McCain refer to a report from Iranian exiles concerning some 
potential new nuclear site in Iran. Therefore, I think that of 
the lessons to be learned, that I hope we have learned, the 
thorough scrubbing and very careful analysis of intelligence 
has to be at the top of the list.
    It may very well be that the American people and certainly 
the majority in this Congress believe we did the right thing 
given what we found there and given the end of the Saddam 
Hussein regime. But I don't think that's the answer to the 
question about the quality, the accuracy, and the use of 
intelligence. I would join in the concerns that Senator Levin 
and others have expressed, not only in closed meetings, but 
also in public venues insofar as possible, that particularly 
the Department of Defense but also other agencies within our 
Government really make it clear what our standards for 
intelligence are and how we can best understand them because in 
a democracy that's critical, this flow of information.
    Now turning to another area of lessons, General Franks, in 
both Operation Enduring Freedom and Operation Iraqi Freedom the 
military we used was fundamentally different than the military 
that fought and won the first Gulf War. Indeed, we saw the 
fruits of a decade's worth of investment in our military. The 
increased use of special forces, precision-guided munitions, 
unmanned reconnaissance, and combat air vehicles benefited from 
the decade's investment.
    As we look ahead to transforming our military, it seems 
clear that UAVs, special forces, precision-guided munitions 
that we invested in during the 1990s will continue to play an 
expanded role; yet, I think it's also important to look at the 
legacy systems like the M1 Abrams tank, the A-10 Warthog ground 
support plane that also played a critical role in this 
campaign. Now in this committee we've debated which weapons 
systems are necessary in the 21st century. As a man with 
enormous expertise and experience in this area, what lessons 
have you drawn from both the Afghanistan and Iraqi campaigns 
about the role of legacy weapons like the M1 tank, the A-10 
Warthog, and others in the transformed military that we are 
going to be building?
    General Franks. Yes, ma'am. I think that about any point in 
the history of our country when we take a look we're going to 
find the need for legacy systems. In this case, ma'am, you 
mentioned two of them, the A-10 Warthog and the M1A2 Abrams 
tank, and there are a number of others. We will find ourselves 
being trained and ready at any point in our history to use 
those legacy systems, and whatever we do tomorrow, we have to 
be prepared with good legacy systems.
    I think the thing that we're seeing now, the expectation 
that I have for the next 2 years, the next 4 years, the next 6 
years is a tremendous effort in the area of transformation that 
will seek to maybe skip some steps in there. I think our young 
people, men and women in uniform, have done, Senator, a 
remarkable job of using very good systems, and, in Afghanistan 
and Iraq, we also used some systems that came about, as you 
said, over the past 10 years, unmanned aerial systems, to be 
sure, precision munitions--very powerful.
    I think the transformation that our armed services are 
looking at now--this is out of my lane but it's my view, it's 
my opinion--seeks to figure out what we are losing by not 
putting more money into technologies. What are we losing by 
perhaps overcapitalizing legacy systems at the expense of what 
we may want in the future? I think I'm glad that bright people 
like some subordinates of Secretary Rumsfeld work such things, 
but I think it'll be a little bit different in the next 3 to 10 
years than it perhaps has been for us in the past 10 years, if 
that makes sense to you. Thank you, ma'am.
    Chairman Warner. Thank you very much.
    Secretary Rumsfeld. Senator, could I make a brief comment?
    Chairman Warner. Yes, of course.
    Secretary Rumsfeld. Two things. First I want to give a 
different number than I gave earlier. I'm told now that the 
$700 million-a-month burn rate on Afghanistan is low, that it's 
actually probably $900 to $950. I suppose if we wait another 
hour we might get a still different number, but that's the 
trouble with trying to do things in real time.
    Senator Clinton, I agree completely on the importance of 
intelligence. I was asked at my confirmation hearing what was 
the thing that worried me most, and I said intelligence 
information. It's such a big complicated world, and there are 
so many areas that need to be looked at today unlike the Cold 
War period where you could focus on the Soviet Union and 
develop a good deal of conviction about it. We're dealing with 
closed societies. We're dealing with countries that very 
skillfully used our advanced technologies, where they're 
trading those technologies. They're indeed trading denial and 
deception techniques among so-called rogue states.
    It is something that we're focused on. We think it is 
enormously important, and I share your concern about it.
    Chairman Warner. Thank you, Mr. Secretary.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Secretary Rumsfeld, 
I only have 6 minutes here, so I'm going to try to keep my 
questions very short and I'd appreciate it if you could try to 
keep your answers fairly concise.
    Let me first start with one of Senator Levin's questions 
earlier in the day where he talked about the breakdown in 
communications here, maybe between the Intelligence Community 
and the Oval Office and exactly how President Bush was allowed 
to talk about the uranium statement in the State of the Union. 
I'd love to get an answer from you on that, and I hope you will 
follow up with Senator Levin with the committee. But my 
question is slightly different from that, and that is, when did 
you know, Secretary Rumsfeld, that the reports about uranium 
coming out of Africa were bogus?
    Secretary Rumsfeld. Within recent days, since the 
information started becoming available.
    Senator Pryor. In other words, right after the speech you 
didn't know that or even before the speech, you had no 
knowledge of that?
    Secretary Rumsfeld. I've just answered the question.
    Senator Pryor. Are you trying to say that in no briefing, 
in no documents that you had or that you were exposed to, that 
was never communicated to you in any way?
    Secretary Rumsfeld. I didn't say that. I see hundreds and 
hundreds of pieces of paper a day and is it conceivable that 
something was in a document? It's conceivable. Do I recall 
hearing anything or reading anything like that?
    [The information referred to follows:]

    Shortly after Mr. El Baradei of the IAEA raised questions publicly 
in a report to the United Nations Security Council on March 7, I asked 
my CIA briefer what the facts were. After checking, he tells me that I 
was advised on March 11 that the CIA believed El Baradei could be 
correct in his suspicions regarding the validity of the documents in 
question. A question similar to the one you asked me came up on ``Meet 
the Press'' on July 13, and I clarified the situation.

    Secretary Rumsfeld. The answer is, as I've given it, no.
    Senator Pryor. The next question is on the lessons learned 
front. We find ourselves in Iraq right now, post-war Iraq, if 
we can call it that. Based on your experience there and your 
wide-ranging experience during your career, is there something 
that we need to do starting now and into the future to provide 
our troops with more training or different kinds of equipment 
for circumstances like Iraq, where they come in there and 
they're an occupying force, hopefully for not very long, but 
still at this point an occupying force? Do we need to do things 
differently? Do we need to do things better?
    Secretary Rumsfeld. We think of ourselves as a liberating 
force, not an occupying force. We think of the role there as 
not permanent, and, General Franks, maybe you'd be the best one 
to respond to the question.
    General Franks. Sir, I think about the national training 
center at Ft. Irwin, California. I think about Twentynine 
Palms, the Marine Corps training center. I think about Red Flag 
and Green Flag Air Force training centers. I think about what 
has been done during the period of time Senator Clinton 
mentioned a minute ago, perhaps over the last 10 years, in fact 
in this case perhaps over the last 15 years, the evolution of 
things rather than sudden discovery.
    Senator, I'll give you an answer that is precisely to that 
same point. For the last 10 to 15 years because of our 
experiences in other places where we were conducting security 
and stability operations, tremendous energy has gone into the 
preparation of the United States Marines, the United States 
Army troopers, airmen and sailors, especially SEALs, for 
example, to be able to work in an environment of security and 
stability operations.
    But, Senator, the point that I would make is no amount of 
training and no amount of preparation is going to make it very 
likely that within a period of 2 months or 4 months or 8 months 
we're going to move our troops into a population of 25 million 
people who have been abused to the extent that the Iraqis have 
been abused over more than 3 decades and cause there to be no 
fractious behavior and cause these groups that we're having all 
the difficulties with to go away.
    So, sir, if I could, I would say again I believe our troops 
are both trained and ready and very capable and doing, by the 
way, an excellent job in this very tough environment. Sorry for 
the long answer.
    Senator Pryor. I don't disagree with anything you're 
saying. In fact, I agree with everything. I just hope that as 
we look at Iraq and understand it and understand our mission 
there that we continue to improve down the road and that's 
really my main point.
    One thing on intelligence, and I don't want to dwell on 
weapons of mass destruction, but there was a number, if I 
recall, of news reports and statements made by the 
administration and others that Iraq was in possession of 
several dozen--if I remember the numbers right--Scud missiles 
before we went into Iraq. The last I've heard, and you correct 
me if I'm wrong, Secretary Rumsfeld, to date there have been 
zero found.
    Secretary Rumsfeld. My recollection that I'm sure is 
imperfect but I recall hearing that there were 10 or 12 Scud 
missiles that were unaccounted for, up to two dozen.
    Senator Pryor. Two dozen accounted for, and they've not 
been found yet then, is that what you mean by that?
    Secretary Rumsfeld. No, there have been none found.
    Senator Pryor. Another thing, Secretary Rumsfeld, if I may, 
in March on ABC News you indicated that you felt like you knew 
where Iraq's weapons of mass destruction were and you gave a 
specific general area, if that's a correct phrase, that they're 
generally around Tikrit and Baghdad and some to the east, 
south, west, and north. Knowing what you know now, do you think 
that was an accurate statement at the time?
    Secretary Rumsfeld. Of course it was an accurate statement 
at the time. It's what I believed.
    Senator Pryor. I understand you believed it at the time, 
but knowing what you know now, do you think your belief was 
accurate?
    Secretary Rumsfeld. I have no reason to believe it's 
inaccurate. I was asked at a time when our forces were south of 
Baghdad in the war, in conflict. I was asked why we hadn't 
found any weapons of mass destruction yet while the war was 
still going on. I allowed as how that the area from Baghdad to 
the north and the west----
    Senator Pryor. Probably that orange or brown area on that 
map over there?
    Secretary Rumsfeld. Probably. Was an area that probably was 
more likely to have the locations of these so-called suspect 
WMD sites. How many hundreds were there?
    General Franks. I think just short of 1,000, Mr. Secretary.
    Secretary Rumsfeld. They were all suspect, and there was 
plenty of time for people to know that they were suspect. As I 
recall, a large majority of them are in the area that I've just 
described. Is that right, General?
    General Franks. Sir, that's right, and there's one 
additional piece to it and that is confirming the negative, 
whether we're talking about up to two dozen Scuds that the 
Secretary mentioned a minute ago. If we know that coming out of 
the 1991 Gulf War there are up to two dozen of these systems 
that have not been found and we know that the United Nations' 
team has spent 11, 12 years looking for them and have not been 
able to confirm that the Iraqis don't have them, then we go 
look for them just as America would expect us to do. We go look 
for them. Sir, that is the case with these nearly 1,000 sites 
that the Secretary mentioned. We must believe that the problems 
are there until we confirm the negative that they're not there, 
and so that's the process that has been ongoing.
    Senator Pryor. I understand the difficulty in that, and I'm 
out of time, but I would like to ask this one last question. 
There's been some confusion in the press reports, et cetera, 
about who actually is in charge of searching for the weapons of 
mass destruction. Secretary Rumsfeld, I'd like to hear who is 
in charge of searching for those weapons.
    Secretary Rumsfeld. There is no confusion about it that I 
know of. The facts are these. The capabilities on the ground in 
Iraq essentially are in the Department of Defense--large 
numbers, helicopters, the ability to move people around and do 
things. So the Department of Defense was asked to form the 
Iraqi Survey Group, which we did. General Dayton is in charge 
of it.
    It was pretty clear to me that the Department of Defense 
did not have the same level of skill that the Intelligence 
Community did and the Central Intelligence Agency (CIA), so I 
sat down with George Tenet, the Director of CIA, and we 
discussed the importance, not of running around using 
helicopters and people on the ground to look for weapons of 
mass destruction, but the importance of gathering intelligence 
through interrogations, figuring out who might know what, who 
could we offer amnesty to, who could we offer a reward to, and 
go through that process that is quite a different thing than 
looking under every tree for WMD.
    He assigned a man named David Kay to work with General 
Dayton, and the judgment portion of it is being made by David 
Kay and his cell back in the United States that is a multi-
agency cell. The actual physically doing of things, looking for 
people, looking for sites is being done under the authority of 
General Dayton. General Dayton reports to me. George Tenet and 
I are as close as you can be on this subject. The people on the 
ground are as close as you can be on this subject, and my 
impression is that the people that have been put in charge are 
doing a good job and handling it well.
    Chairman Warner. Thank you, Mr. Secretary. I'm sure my 
colleague, Senator Levin, would join me--we met with Dr. Kay. 
He was part of the team Ambassador Bremer assembled to brief 
us. Seated right there was General Dayton, and we got clearly 
the understanding that the chain of command was as you 
described. Therefore, there is clarity, in my judgment, as to 
that reporting chain through Bremer and Kay up to you with 
parallel to the Central Intelligence Agency. Thank you for 
that.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and I know, 
General, you're never going to get tired of the accolades even 
though they keep getting heaped on. I want to certainly add 
mine to those of my colleagues and to extend my appreciation to 
the Secretary as well for not only taking our questions today 
but for sticking with this very important task that's before 
us, and that is, of course, working with the issue about end 
strength, with rotation, with deployment, and the obvious 
questions that we're going to be facing in the future dealing 
with retention as well as recruitment because that's going to 
be extremely important to the future of our military.
    I think you need to do as you are in the whole area of 
transformation because obviously the force of tomorrow will 
only maybe slightly resemble the force of today. This is all 
before you, and I commend you in advance for your work on this.
    Regarding the post-war planning, earlier this year I 
discussed with former Army Secretary White the concerns that I 
had regarding the number of military police and the number of 
reservists who had been called up to active duty as a result. 
While I recognize that this is a liberating force, there's no 
question but for a period of time that we'll be looked at and 
probably serve as an occupying force until stability is 
established.
    In Iraq I was told by a group of elected officials in 
Kirkuk, just recently elected group, that they thought that the 
looting had really undercut the effort toward democracy in 
certain parts of Iraq and that while folks who had not had any 
experience with democracy were wondering if this was what 
democracy was going to be about. They don't have outside 
experiences, no other experience to call upon and so their 
first taste of democracy may not have been as sweet as we had 
hoped, ultimately as sweet as we hope that it will be.
    What I'm leading up to is, as we look toward other efforts 
in the world today that we may be called upon to restore peace, 
to establish democracy, are we thinking about the force that 
will obviously involve immediately upon the end of combat 
operations the installation of peacekeeping that consists of 
law and order military police far more than our own military 
forces? Are we thinking about that in terms of transformation 
because it appears that with the lack of staffing that we may 
have had in that area that it may have gotten away from us in 
Iraq, but we may be faced with that in the next effort that may 
be just down the road? Are we building toward that, and will 
that be part of transformation?
    I guess it's unfair to ask you, General Franks, on the way 
out, but do you have any thoughts of it, and then, of course, 
Secretary Rumsfeld, I'd love to have your thoughts too.
    General Franks. Sir, your comment about looting, I think, 
is right. Unfortunately, looting actually was a tool used by 
the regime before we ever undertook this so some of these 
criminal elements--and I'm not sure what the number is, I think 
the Secretary mentioned a number earlier in the testimony.
    Senator Ben Nelson. It's 100,000 I've heard.
    General Franks. Perhaps 100,000 let out of jail, and so the 
looting by those people as well as other disgruntled people, 
for sure affects the taste that the Iraqis have in their 
mouths.
    In terms of expectation, sir, I'm not at all sure that I 
believe that the planning or execution of the post of the 
initial 60 days or so--and that's how long we've been looking 
at this, the initial 60 days or so of post-major combat 
operations--can be characterized as, ``Well, you weren't quite 
with it.'' Actually, what we'll do, I suspect, and the 
Secretary will comment on this, is as the Services think 
through what the structure needs to be for our Armed Forces 
over the next 10, 20 years, as part of transformation, I 
believe that sort of study will be undertaken to decide do we 
have the balance about right. Are we about right in Active 
component, Reserve component? Are we about right in the numbers 
of armor troopers, in the numbers of military policemen?
    Sir, that's the best that I can do.
    Senator Ben Nelson. Thank you.
    Secretary Rumsfeld. There's nothing I can add. It clearly 
is important that as soon as possible at the end of a conflict 
that you have the ability to assert control over an area. It is 
also impossible to do. You cannot go from a warfighting 
circumstance in 1 minute and have a whole lot of forces decide 
not to fight you, as they did from Baghdad north, and blend 
into the countryside and think that you have the ability in 1 
hour from a powerful warfighting force into a stabilization 
force capable of guarding every hospital, every school, every 
museum, every suspect weapons site in a country the size of 
California. You can't do it.
    Senator Ben Nelson. But is there a period of time that in 
the planning process you could isolate it down to say that it's 
something that you should be aiming for within 2 weeks, 7 days, 
or is there a time frame that you can narrow it down to?
    Secretary Rumsfeld. Absolutely and they did that.
    General Franks. Sir, the comment that I would make is that 
when you plan a war or an operation with a mission that says 
remove a regime, you recognize that--and, in fact, the 
Secretary includes in his statement--some half-dozen or so 
things that can go wrong. As a planner, what one does is take a 
look at the things that can go wrong and try to put some scope 
around how long this operation will take because if we can 
figure out about how long it's going to take and about what 
size force in terms of the numbers of tanks and aircraft and so 
forth we need, then we can figure out how long we have in order 
to get the sort of force, Senator, that you're mentioning 
loaded and get it on the ground so that it's Johnny-on-the-spot 
and ready to do some work.
    Senator Ben Nelson. That's exactly why I was asking 
Secretary White if he thought we had the skill sets--sufficient 
staffing and support--necessary to be able to move and be able 
to do that in advance of the occurrence.
    General Franks. Sir, actually in this case we couldn't do 
that. I make no defensive comment about this. We'll let history 
reflect whatever it chooses to reflect. But I can tell you that 
there is a direct trade-off between the size force built and 
the amount of deception and surprise one achieves. One more 
day, 1 more week, 1 more hour, 1 more month to build additional 
forces which we would all applaud now would have resulted in a 
totally different war than the one we saw.
    Senator Ben Nelson. The problem with trying to deal with 
lessons learned is that there's always an element of criticism 
that's a part of it. When it's not intentional to be critical, 
if you're not critical, you don't learn the lesson.
    General Franks. Sir, I agree with that.
    Senator Ben Nelson. Thank you very much, gentlemen.
    Chairman Warner. Senator, I indicated to the General that 
as this committee continues to complete its reports on the 
operations in both Afghanistan and Iraq, and by no means in my 
judgment are either operation at that point where we do an 
after-action report because action is taking place, the General 
has offered to return in his civilian capacity to take further 
questions.
    Yes, Mr. Secretary?
    Secretary Rumsfeld. I'm going to have to excuse myself. 
This has gone considerably longer than I had expected.
    Chairman Warner. I recognize that, and I would like to ask 
of you if you can provide just a brief few minutes in closed 
session in SH-219 next door. We want to have one or two 
questions on the WMD program, and then you'll be free to go. We 
thank you. This has almost been a 4-hour public open discussion 
of all issues relating to these important deployments of our 
troops.
    Thank you very much. I'd like to put in today's record a 
Washington Post article, April 2, 2003, by a former Marine 
Corps Colonel, Gary Anderson. I was hoping to address it. Time 
doesn't permit. We are adjourned.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Lindsey O. Graham

                 UTILIZATION OF GUARD AND RESERVE UNITS

    1. Senator Graham. Secretary Rumsfeld, I have received several 
complaints regarding Guard and Reserve personnel stationed in Iraq 
lacking missions; being under utilized; and, when used, assigned to 
duties for which they have not been trained. Some of this has been 
because of delays in getting their equipment over to them in a timely 
manner. Can you discuss this in more detail and specifically speak to 
the 151st Signal Battalion, 122nd Engineer Battalion, and the 3rd 
Infantry Division?
    Secretary Rumsfeld. The general practice for unit deployments is 
for passengers to arrive by airlift 7 to 10 days prior to unit cargo 
arrival by sealift. This permits the passengers to arrive, perform 
necessary inprocessing, acclimatize personnel to the environment, and 
take necessary logistical actions to receive the cargo at the seaport 
of debarkation.
    In order to move a unit's equipment by the most efficient and cost 
effective means--sealift, the movement requirements must be submitted 
for contract actions well in advance of projected arrival into the area 
of operations (AOR). Transit times from continental United States to 
the CENTCOM AOR average about 30 days. These long lead times present 
unique deployment challenges, especially to Reserve and National Guard 
Forces, which must undergo mobilization and training activities 
stateside in preparation for deployment. Synchronizing completion of 
these activities as far in advance as the sealift requirements' arrival 
is not an exact science and occasionally the goal of passenger arrival 
7 to 10 days before sealift cargo cannot be achieved. Occasionally, 
these units will complete mobilization activities earlier than 
projected. Rather than keep the forces stateside, with no real mission, 
the operational commander requests the forces to deploy when complete 
mobilization. At that point though, the cargo is already underway via 
sealift and cannot be accelerated. This is what happened to the first 
two units in question (151st Signal Battalion, 122nd Engineer 
Battalion). Some 3rd Infantry Division troops were also affected by 
this difficult synchronization of airlift and sealift arrivals.
    While these units may not be capable of performing their assigned 
tasks immediately without their cargo, they are capable of performing 
important base support and security missions until their cargo arrives. 
CENTCOM and the force providers realize this is not the ideal situation 
and make every attempt to synchronize passengers arriving via airlift 
with their unit equipment arriving by sealift.

                  LIVING CONDITIONS FOR TROOPS IN IRAQ

    2. Senator Graham. Secretary Rumsfeld, I have also heard from 
concerned family members regarding the shortage of drinking water and 
slow mail delivery for our troops in Iraq. Please discuss any problems 
that have occurred and what has been done or will be done to help in 
these areas.
    Secretary Rumsfeld. With regard to drinking water, theater 
requirements are four bottles per soldier per day. Water is procured in 
Kuwait and Turkey and moved by a combination of military and contractor 
trucks to bases throughout Iraq. Convoy security and force protection 
requirements can upset or delay deliveries. Dedicated escorts for 
convoy operations have improved pushes to northern Iraq by 100 
percent--only 2 days from Kuwait to 4th ID. Staffs at all levels manage 
the program. Combined Forces Land Component Command (CFLCC) reports on 
hand balance of theater bottled water in Kuwait as 12 days of supply 
(at 4 bottles per soldier per day). Combined Joint Task Force-7 (CJTF-
7) reports 2 to 5 days of supply at the forward units in Iraq. Units 
report no shortages and the situation continues to stabilize.
    Concerning slow mail delivery, current average transit time for 
letters and parcels is 12-15 days, down from 13-18 days. Current trend 
is decreasing as transportation routes are optimized.

          GUARD AND RESERVE UNITS ROTATION AND DEPARTURE DATES

    3. Senator Graham. Secretary Rumsfeld, in accordance to military 
guidelines and protocols, please provide me with an update on expected 
rotation and departure dates for South Carolina Guard and Reserve 
units.
    Secretary Rumsfeld. The policy for Army units currently in-theater 
is that they will remain there for one year, unless conditions change 
to allow their earlier release. This policy was established to ensure 
our ability to successfully prosecute the military mission, while 
providing our members as much security as possible, which is enhanced 
by the proficiency and confidence generated through stability and 
continuity of units. We will continue to promote judicious and prudent 
use of our National Guard and Reserve Forces. Attached is a roster of 
South Carolina Guard and Reserve units that are mobilized indicating 
mobilization date and tentative demobilization date.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy

                        FAMILY SUPPORT SERVICES

    4. Senator Kennedy. Secretary Rumsfeld, one of the military 
components I don't want us to forget are our military families. They 
too are a key to readiness, and I am very encouraged by the reports and 
briefings I have received about the Marine Corps' OneSource family 
assistance pilot program. For about the price of a fast food lunch this 
program delivers an integrated and comprehensive family support program 
that both maximizes military services and integrates community-based 
programs to a Marine Corps family for 1 year.
    The beneficiary satisfaction is really encouraging, and this 
program is working especially well for our Marine Corps active duty 
families as well as Marine Corps reservists who don't necessarily live 
near bases or other service members for support when deployed. The 
Marines are rightfully excited about OneSource, and I think once the 
word gets out on this program, you're going to be getting a lot of 
calls from other Members of Congress wanting the Department of Defense 
to get this program out to everyone.
    I want to know if based on the encouraging success of OneSource 
during one of the most stressful periods for our military families, is 
the Department considering expanding the pilot program so more of our 
service members and their families can take advantage of this good news 
program?
    Secretary Rumsfeld. We, too, have been extremely pleased with the 
success of the OneSource program. This program offers service members 
and their families, from any location in the world, 24 hours, 7 days a 
week access to a professional counselor via a toll-free telephone line, 
the Internet, and e-mail. The program offers the service in more than 
130 languages. The Department has already expanded this program to all 
Special Operations Forces and to several installations in the European 
Command. The Army implements this program for active duty and Reserve 
members this summer, and in the fall of this year the program will be 
expanded further to include all Navy active duty and Reserve members. 
This program will be a boon for reservists and their families who are 
often far removed from military installation support services.

    5. Senator Kennedy. Secretary Rumsfeld, what can we do to help make 
this program available to more of our military families?
    Secretary Rumsfeld. I appreciate your support for the quality of 
life of our military members and their families. The military family 
lives with a high level of stress not only because of frequent 
deployments that place the service member/parent/spouse in harm's way, 
but also because of frequent moves, disruptions in the military 
spouse's employment, and the challenges created by children changing 
schools. The OneSource program is a primary means of support to 
families dealing with these challenges, especially the two-thirds who 
live off-base and the 60 percent with family responsibilities. Our 
service members have strong family values and high aspirations and 
expectations for their quality of life. To that end, the Department, in 
its new social compact, has entered into a written commitment to 
improve life in the military, underwrite family support programs, and 
work in partnership with families to accomplish the military mission. 
The OneSource program leverages the power of public-private 
partnerships and technology to deliver services. The Department 
appreciates your continued support to deliver support services to 
military members and their families, wherever they are in the world.

                                AIR WAR

    6. Senator Kennedy. General Franks, I was tremendously impressed 
with the complexity of the air war--1,800 aircraft, over 40,000 
sorties, and only 7 aircraft lost due to enemy fire. This kind of 
success does not come without incredible coordination. What command, 
control, communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) lessons can we take from Operation Iraqi 
Freedom?
    Secretary Rumsfeld. In support of Operation Iraqi Freedom, we 
planned, deployed, and integrated the most complex theater air control 
system in history. This complex C\4\ISR architecture provided our 
Combined Forces Air Component Commander (CFACC) with a redundant and 
sustainable command and control system and the ability to effectively 
meet all objectives within a Joint, Combined, and Coalition Force 
environment. We successfully integrated intelligence, surveillance, and 
reconnaissance (ISR) assets in support of our Suppression of Enemy Air 
Defense (SEAD) campaign, streamlined and decentralized the command and 
control (C\2\) in support of our Counter-Theater Ballistic Missile 
campaign, successfully integrated the Special Operations Forces, and 
were able to provide persistent ISR over the entire battlespace 
enabling real-time surveillance, targeting, and cross-cueing in support 
of the Combined Forces Land Component Commander.
    The many valuable lessons learned from OIF are being formally 
documented and coordinated between the components and Services at this 
time. This in itself is a complex undertaking. However, we are gaining 
valuable insights into systems interoperability requirements, the 
balance required between network centric systems, strategic and 
tactical communications requirements, and those areas requiring 
improvement in tactics, techniques, and procedures (TTP).
    We have also seen the value of expanding command and control roles 
of assets such as the E-3 AWACS into non-standard C\2\ roles supporting 
time sensitive targeting (TST) and support to our Special Operations 
Forces, as well as the value of forward stationing C\2\ and ISR assets 
to enhance the support to ground forces in a dynamic battlefield 
environment. The integration of unmanned aerial vehicles and their 
video feeds into our C\4\ISR architecture and the use of new C\2\ 
applications in the decisionmaking process were key elements in our 
ability to prosecute emerging TSTs. Additionally, we are validating the 
existing requirements for advanced datalink capabilities to connect 
sensor and shooter platforms and the requirement for the development of 
courses to better train and integrate the ISR planning through tasking 
and execution cycle. Our ability to fully integrate our coalition 
partners including systems, networks, training, and exercises is also 
being highlighted.
    The design and implementation of the complex C\4\ISR architecture 
developed and executed during OIF is best described as an overwhelming 
success story. While we will certainly identify areas needing 
improvement, it is believed that these improvements or changes required 
in systems, doctrine, and TTP are on the margins of our current C\4\ISR 
capabilities and not at the core.

                       PATRIOT MISSILE EVALUATION

    7. Senator Kennedy. Secretary Rumsfeld, I understand that you have 
conducted an evaluation of the performance of the Patriot missile's 
performance during Operation Iraqi Freedom. We are very interested in 
the findings of this evaluation. The Patriot missile system is very 
important to our military as well as our allies. There is concern over 
the incident involving the Royal Air Force's Tornado jet and what role 
the Patriot missile played as opposed to human error in that 
regrettable accident. Can you share with us the Department's findings 
on Patriot's performance in Operation Iraqi Freedom?
    Secretary Rumsfeld. On 18 June, the Department briefed the Senate 
Armed Services Committee professional staff members on Patriot tactical 
ballistic missile performance during Operation Iraqi Freedom. Copies of 
the briefing were provided to the staffers. Unfortunately, at this 
time, neither the combatant commander nor the United Kingdom Ministry 
of Defense has completed their investigations. Anticipate these 
investigations being completed in the near future.
    Any information dealing with fratricide must first be released by 
the combatant commander involved and briefed to Congress. Until that 
time, it is premature to release any further information on this issue.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                       NATIONAL GUARD DEPLOYMENT

    8. Senator Byrd. Secretary Rumsfeld, the mobilization of National 
Guard and Reserve units has hit the States very hard. When floods hit 
West Virginia last month, the West Virginia National Guard was unable 
to send out its engineers to respond to the crisis. Every one of those 
engineering units has been deployed for Federal duty. If summer rains 
cause more floods and mudslides, my State will have to wait for 
engineers from other States to arrive, or rely on expensive contractors 
to do the work that would have been done by the men and women of units 
like the 459th Engineer Company, the 119th Engineer Company, and the 
1092nd Engineer Battalion. Is anything being done to relieve the strain 
on the State missions of the National Guard because of these 
deployments to Iraq and elsewhere?
    Secretary Rumsfeld. I signed out a letter July the 9th to the 
Secretaries of the Military Departments, the Chairman of the Joint 
Chiefs of Staff, and the Under Secretaries of Defense directing them to 
rebalance the forces. In that letter I enumerated three principal 
objectives that I wanted to achieve:

        <bullet> Structure Active and Reserve Forces to reduce the need 
        for involuntary mobilization of the Guard and Reserve, and 
        structure forces to limit involuntary mobilization to not more 
        than 1 year every 6 years.
        <bullet> Establish a more rigorous process for reviewing joint 
        requirements; ensuring force structure is appropriately 
        designed.
        <bullet> Make the mobilization and demobilization process more 
        efficient.

    I levied actions that I expect to be completed, and an aggressive 
set of milestones for the responses. I believe this action will indeed 
relieve the strain on our National Guard and Reserve units. I assure 
you that I am as concerned as you are and will strive to ensure the 
continued judicious and prudent use of our valuable Guard and Reserve 
Forces.

    9. Senator Byrd. Secretary Rumsfeld, will National Guard units 
under high demand for State duty be deployed back to the United States 
on a priority basis?
    Secretary Rumsfeld. Units that have deployed for operations 
overseas have initially been mobilized for up to 1 year, contingent 
upon the needs of the combatant commander. The policy for Army units 
currently in-theater is that they will remain there for 1 year, unless 
conditions change to allow their earlier release. This policy was 
established to ensure our ability to successfully prosecute the 
military mission, while providing our members as much security as 
possible, which is enhanced by the proficiency and confidence generated 
through stability and continuity of units. We will continue to promote 
judicious and prudent use of our National Guard and Reserve Forces.

                 COSTS FOR VARIOUS MILITARY OPERATIONS

    10. Senator Byrd. Secretary Rumsfeld, what is the total amount of 
funds spent in fiscal year 2002 for the global war on terrorism, 
Operation Noble Eagle, Operation Enduring Freedom, and Operation Iraqi 
Freedom?
    Secretary Rumsfeld.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    11. Senator Byrd. Secretary Rumsfeld, what is the total amount of 
funds spent to date in fiscal year 2003 for the global war on 
terrorism, Operation Noble Eagle, Operation Enduring Freedom, and 
Operation Iraqi Freedom?
    Secretary Rumsfeld. See answer to question 10.

    12. Senator Byrd. Secretary Rumsfeld, what is the estimated total 
amount of funds that will be spent in fiscal year 2003 for the global 
war on terrorism, Operation Noble Eagle, Operation Enduring Freedom, 
and Operation Iraqi Freedom?
    Secretary Rumsfeld. See answer to question 10.

    13. Senator Byrd. Secretary Rumsfeld, what is the monthly spending 
rate, as of January 2003, for the global war on terrorism, Operation 
Noble Eagle, Operation Enduring Freedom, and Operation Iraqi Freedom?
    Secretary Rumsfeld. See answer to question 10.

    14. Senator Byrd. Secretary Rumsfeld, what is the monthly spending 
rate, as of April 2003, for the global war on terrorism, Operation 
Noble Eagle, Operation Enduring Freedom, and Operation Iraqi Freedom?
    Secretary Rumsfeld. See answer to question 10.

    15. Senator Byrd. Secretary Rumsfeld, what is the monthly spending 
rate, as of May 2003, for the global war on terrorism, Operation Noble 
Eagle, Operation Enduring Freedom, and Operation Iraqi Freedom?
    Secretary Rumsfeld. See answer to question 10.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman

                 LIVING CONDITIONS FOR THE IRAQI PEOPLE

    16. Senator Lieberman. Secretary Rumsfeld, it appears that the U.S. 
military is now engaged in a classic battle for the hearts and minds of 
the Iraqi citizenry, and it also appears that we may be losing this 
battle. Can you tell us what positive steps are being taken to improve 
the basic living conditions of the majority of the populace?
    Secretary Rumsfeld. I do not agree that we are losing the battle 
for the hearts and minds of the Iraqi citizenry. Twenty-three million 
Iraqis have been liberated.
    Despite the difficulties they face, most Iraqis are far better off 
today than they were 4 months ago. Iraqis do face the enormous 
challenge of rebuilding from 3 decades of tyranny. We must not 
underestimate how difficult that task will be. But we can take comfort 
knowing that, as we freed them from tyranny, we did not add to their 
burden by destroying Iraq's infrastructure. To the contrary, we saved 
it.
    Today, coalition forces are helping the Iraqi people rebuild and 
get on the path to stability and democratic self-government. We are 
making progress in helping Iraqis reestablish security and commerce; 
restore power and basic services; reopen schools and hospitals; and 
establish rule of law. With each passing week, more services come 
online; power and water are restored in more of the country; gas lines 
disappear; and more Iraqi police are on the streets.
    Indeed, civil society is beginning to form. There are now dozens of 
independent newspapers sprouting up, in Baghdad and throughout the 
country. Town councils and associations are forming, and people are 
expressing opinions openly for the first time in decades.
    Vendors in Baghdad are selling videotapes detailing the atrocities 
that took place in Saddam's prisons. As the President put it last week, 
these are ``the true monuments of Saddam Hussein's rule--the mass 
graves, the torture chambers, the jail cells for children.''

    17. Senator Lieberman. Secretary Rumsfeld, can you provide any kind 
of estimate as to when the majority of Iraq's urban populace will enjoy 
better basic services than they did in prewar Iraq?
    Secretary Rumsfeld. In some parts of Iraq, particularly the 
southern area including Basra, and the north, they are already enjoying 
better services, especially when you remember that Saddam used basic 
services as rewards or punishments.
    It is true there are some Iraqis who are not better off today--
those who comprised the small, elite segment of Iraqi society that 
benefited from the dictatorship. Such people exist in any dictatorship. 
They are understandably unhappy now that the regime that favored them 
has been removed from power.
    The Coalition Provisional Authority, led by Ambassador Bremer, and 
coalition forces are working alongside the Iraqi people to restore 
basic services to levels that either match or exceed prewar 
capabilities as rapidly as possible. For all the difficulties in Iraq 
today--and there are tough challenges to be sure--it is important to 
keep in mind all of the problems that Iraqis do not have to overcome 
because of the way the war was fought. Today, Iraqis do not have to 
rebuild oil wells, bridges, roads, and dams that were not destroyed in 
the war. They do not have to bury large numbers of innocent civilians, 
or rebuild residential neighborhoods, because of the compassion and 
precision with which coalition forces fought.

    18. Senator Lieberman. Secretary Rumsfeld, is there an orchestrated 
plan weaving the restoration of basic services into a larger campaign 
to win the hearts and minds of the Iraqi citizenry?
    Secretary Rumsfeld. U.S. policy goals for the recovery of Iraq 
remain to establish a secure environment for the Iraqi people and the 
conduct of relief and recovery activities; achieve measurable 
improvement in the lives of the Iraqi people; maximize contributions 
from other countries and organizations; and prepare the Iraqis for 
self-government.
    Security continues to be the top coalition priority. Security is 
the foundation for success of reconstruction efforts in Iraq and a 
fundamental task in our administration of Iraq. We have made 
significant progress since the collapse of the Iraqi regime, but 
substantial challenges remain.
    At the same time, the Coalition Provisional Authority is working 
with Iraqis to get government functions operating. In Iraq, basis 
services have been provided by the government. The various ministries 
are already working to develop operating budgets, and to support 
activities for the remainder of this calendar year and for 2004.
    Restoring dependable electrical service throughout Iraq is job 
number one now because, without it, nothing else works in the country. 
The good news is that combat damage to Iraq's electrical, water, and 
other key infrastructure was comparatively light at the conclusion of 
the war, because coalition military planners made a conscious effort to 
spare these structures.

    19. Senator Lieberman. Secretary Rumsfeld, who is the ultimate 
authority in Iraq in charge of the above?
    Secretary Rumsfeld. Ambassador Bremer is the President's special 
envoy to Iraq and the Administrator of the Coalition Provisional 
Authority. This authority includes the responsibility to oversee the 
use of U.S. government appropriations in Iraq, as well as Iraqi state 
or regime-owned property that is properly under U.S. possession and 
made available for use in Iraq to assist the Iraqi people and support 
the recovery of Iraq.
    Since the creation of the Coalition Provisional Authority (CPA), 
the Administrator of the CPA has had the primary responsibility for 
identifying requirements for relief and reconstruction in Iraq, and for 
overseeing, directing, and coordinating all U.S. Government programs 
and activities in Iraq, except those under the command of the 
Commander, U.S. Central Command.

                      WEAPONS OF MASS DESTRUCTION

    20. Senator Lieberman. Secretary Rumsfeld, who is in charge, in 
theater, of the search for weapons of mass destruction?
    Secretary Rumsfeld. The Iraq Survey Group (ISG) is in charge of the 
search for weapons of mass destruction in theater. Major General Dayton 
commands this group and reports to the Commander, U.S. Central Command 
while informing the Commander, Combined Joint Task Force Seven (CJTF-7) 
of ISG activities. The Director of Central Intelligence, through his 
special advisor to the ISG, Dr. Kay, provides strategic guidance and 
focus for the ISG and the search for weapons of mass destruction.

                       SEARCH FOR SADDAM HUSSEIN

    21. Senator Lieberman. Secretary Rumsfeld, how important is 
ascertaining the location and/or fate of Saddam Hussein and his sons? 
Who is in charge of this effort?
    Secretary Rumsfeld. I do not believe that killing or capturing 
Saddam Hussein is necessary to win the war. Either event would 
certainly dishearten many of the Baathist ``bitter-enders'' attacking 
our forces, and would further damage the ability of these insurgents to 
intimidate the local population. But everyone should be clear that 
Saddam's reign of terror is over, and regardless of his personal fate, 
his regime will never return to power in Iraq.
    The center of gravity in this conflict is the trust and confidence 
of the Iraqi people. As long as we are seen to be working to 
rehabilitate the dilapidated Iraqi infrastructure, create a free market 
economy that offers hope to all Iraqis, and help the Iraqis to 
establish a genuinely representative government, Iraqis will continue 
to support us in our fight against the Baathists and the foreign 
jihadists. Eventually, as we realize these goals, the Iraqi people 
themselves will be able to defeat the insurgents in their midst who 
seek to return the nation to a brutal dictatorship or turn it into an 
extreme fundamentalist state. 

                   ATTACKS ON U.S. PERSONNEL IN IRAQ

    22. Senator Lieberman. Secretary Rumsfeld, as attacks continue 
against U.S. personnel in Iraq, will forces be drawn off of the 
reconstruction effort and reassigned to force protection? Won't this 
result in precisely what our foes in the region want: namely a failure 
on our part to provide for the Iraqi citizenry, and an effective 
recruiting tool for all those who oppose the U.S. presence in that 
country?
    Secretary Rumsfeld. U.S. forces have not been drawn off of the 
reconstruction effort and reassigned to force protection. The vast 
majority of U.S. forces are engaged in security tasks, not 
reconstruction. Most of the reconstruction effort is being handled by 
the Coalition Provisional Authority and their contractors. While there 
are some U.S. forces performing reconstruction tasks, notably the civil 
affairs personnel and engineers, in the aggregate U.S. forces are 
performing these reconstruction functions while simultaneously 
conducting operations against former regime loyalists and terrorists. 
These missions are not mutually exclusive.

    23, 24. Senator Lieberman. Secretary Rumsfeld, do you have 
indications or information that entities may be organizing the 
opposition to the U.S. and orchestrating recent attacks on U.S. 
personnel? Would you characterize these as random killings, or is the 
resistance being directed? By whom? Saddam Hussein? Baath party 
elements? If these attacks are not centrally orchestrated, are they 
symptomatic of the beginning of a popular uprising?
    Secretary Rumsfeld. The anti-coalition attacks are being carried 
out by loyalists of the former Iraqi regime who are fighting to regain 
the status they enjoyed as beneficiaries of Saddam, and to a lesser 
extent, foreign and indigenous Sunni radical Islamists who naturally 
resist any form of what they perceive as Western occupation of their 
lands. Presently, intelligence indicates that anti-coalition attacks 
neither result from nor are symptomatic of a popular uprising.
    The dissolution of the Iraqi regime led to the dispersal of many 
former regime elites, including government officials, security service 
members, and military officers. This group of former regime loyalists 
is predominantly ethnic Sunni, and had long profited, if not subsisted, 
as a result of its loyalty to Saddam's autocratic regime. We assess 
former regime elites fund and direct localized political and violent 
resistance to the coalition. Intelligence community assessments 
conclude that the opposition has not yet matured into a nationally 
organized movement.
    Intelligence indicates that former regime loyalists and radical 
Sunni Islamists may have begun to work together. This may indicate 
coalescence among resistance groups, but does not yet portend their 
central direction or widespread public support.

            COORDINATION OF U.S. CIVILIAN AND MILITARY NEEDS

    25. Senator Lieberman. Secretary Rumsfeld, how do U.S. civilian and 
U.S. military authorities in Iraq coordinate their needs, and what 
steps have been taken to improve that coordination? Are those civilian 
authorities satisfied with the level of coordination and responsiveness 
that they receive from the military; are they sufficient to protect 
them while allowing them to accomplish their task and facilitating 
their efforts to accomplish that task?
    Secretary Rumsfeld. The Coalition Provisional Authority coordinates 
the efforts of all U.S. and coalition government agencies conducting 
activities in Iraq. The CPA coordinates regularly with the Coalition 
Joint Task Force and CENTCOM for security requirements and other 
military support.
    The security situation in Iraq is complex. In some areas, the 
security environment is generally permissive--there is reasonable 
freedom of movement, recovery activities proceed without significant 
hindrance, and coalition forces are engaged in stability operations. In 
other areas, the environment is less permissive and coalition forces 
are engaged in combat operations against remnants of the Baathist 
regime. There will be times when security requirements will be seen as 
an impediment to other important tasks, but I have every confidence in 
the skill and abilities of those servicemen and women who are charged 
with ensuring the safety of the many non-combatants working in Iraq.

                      U.S. TROOPS AND PEACEKEEPING

    26. Senator Lieberman. Secretary Rumsfeld, given the doctrine of 
preemption and regime change adopted by this administration, it would 
seem to even the casual observer that the indoctrination of our troops 
with peacekeeping and follow-on stability skills would be extremely 
important. Do you believe that U.S. troops receive enough training to 
handle these types of missions?
    Secretary Rumsfeld. To date, the performance of U.S. forces during 
peacekeeping and peace enforcement operations clearly shows that they 
have had adequate training beforehand to accomplish assigned missions 
to the high standards expected of them by their Nation. I would even 
say that mission performance shows that training has been adequate to 
ensure risk to U.S. forces is acceptable. Considering the complex 
environment typically presented by such operations, the overall 
performance of U.S. forces has been remarkable.
    In accordance with our joint training doctrine, training of U.S. 
forces before being assigned a specific operational mission is focused 
on mission essential tasks required in operational plans or in 
warfighting doctrine. These tasks are centered on performance in a 
major theater war. Such performance represents the `worst case'--the 
most difficult-to-master performance required of U.S. forces, and 
provides a disciplined foundation from which U.S. forces are best 
postured to execute any mission they may be assigned and adequately 
prepared should an assigned peacekeeping mission escalate.
    Once a specific mission assignment is received, unit leaders make 
maximum use of available training time, both prior to deployment and in 
the theater of operations, by narrowing their training focus on exact 
mission requirements. If time allows, mission execution is rehearsed 
before execution to help ensure success. Units rotating into a theater 
to replace an already employed unit frequently have adequate time 
during training to undergo more rigorous mission rehearsal exercises 
that replicate the operational environment as closely as possible and 
provide an opportunity for all members of the operational team to 
practice performance required by the mission. For such training, U.S. 
forces have benefited immeasurably from Department of Defense ongoing 
efforts to update training venues to reflect the current operational 
environment (e.g., to incorporate operations on urban terrain and with 
civilians on the battlefield).
    Finally, training support agencies throughout the Department of 
Defense assist deployed forces by providing training support packages 
the ability of in-theater forces to `reach back' into centers of 
excellence, and helping commanders gather and disseminate operational 
lessons learned.
    As anecdotal evidence of the effectiveness of preparatory training 
for deploying forces, I offer the following extract from an after 
action report of the U.S. Army's 3rd Infantry Division, which is being 
redeployed from Iraq.
    Topic A--Training for Combat
    The roots of the division's successful attack to Baghdad are found 
on the training fields of Fort Stewart, Fort Irwin, and Kuwait. The 
division crossed the line of departure with a mature and trained group 
of staff officers, commanders, and soldiers. The ability of the 
division to stabilize company commanders and field grade officers after 
conducting multiple CONUS contingency response force (CCRF) and 
National Training Center (NTC) rotations produced a seasoned fighting 
force that was trained and ready to fight and win on any battlefield.
    A direct correlation can be drawn between the division's training 
cycle prior to crossing the line of departure and the division's 
successful attack into Iraq. The division conducted multiple integrated 
live fire maneuver operations on urban terrain and detailed command and 
control exercises at the task force through the division level to 
prepare for combat.
    All maneuver battalions conducted externally evaluated force-on-
force and live fire training events focused on offensive operations at 
the company team level through the battalion task force level. Every 
rifle squad conducted combined arms training focused on entering and 
clearing a complex trench system and a multiple room structure. These 
training events focused every maneuver unit in the division on the 
exact missions soldiers would execute weeks later against the Iraqi 
Regular Army and Fedayeen death squads.
    The division artillery conducted live fire training events prior to 
crossing the line of departure that massed every firing system in the 
division at a single point and ensured every firing battery was trained 
and ready to mass fires anywhere on the modern day battlefield.
    The 4th Brigade (BDE) trained both close combat attacks in support 
of the ground maneuver commander and shaping operations under the 
brigade commander's control while in Kuwait. This served to not only 
synchronize the brigade's internal aviation assets, but to also 
synchronize the division's aviation assets with the ground maneuver 
forces. The tactics, techniques, and procedures (TTPs) established 
between 4th BDE and the maneuver brigades facilitated the rapid and 
safe employment of attack aviation in combat.
    The division fought to train under realistic conditions in 
preparation for combat. The priorities were clear and subordinate 
leaders executed training that produced a disciplined, lethal, and 
flexible force capable of accomplishing any tactical task.
    The requirement for tough realistic training has not changed in the 
past 227 years. The division lived under the ``train as you fight'' 
motto for the 12 months preceding the war. The training proficiency, 
lethality, and maturity of the division serve as an example for the 
Army to follow.
    The American people can take pride in the courage and determination 
of our Nation as evidenced in the 3ID's conduct during the war. The 
skill demonstrated by 3ID in combat operations was a product of their 
training. That same training produced a well-disciplined force capable 
of rapidly transitioning to peacekeeping and stability operations. 
Training to the high end of the spectrum of war produced a well-
trained, disciplined force capable of executing peacekeeping and 
stability operations.

    27. Senator Lieberman. Secretary Rumsfeld, what kind of specialized 
civil affairs, peacekeeping, or peace-enforcement training do U.S. 
forces receive as part of their traditional military education?
    Secretary Rumsfeld. Civil affairs, peacekeeping, and peace-
enforcement factors are incorporated throughout professional military 
education curricula. The U.S. Army John F. Kennedy Special Warfare 
Center and School provides specialized civil affairs training for those 
officers and NCOs assigned to civil affairs billets. Furthermore, 
instructions are provided in the law of war, law affecting peacemaking 
and peacekeeping operations and rules of engagement to commissioned, 
warrant, and noncommissioned officers through traditional military 
education courses such as Officer Advance, Warrant Officer Advanced, 
Advance Noncommissioned Officer and the Command and General Staff 
Officers Course. The U.S. Army Training and Doctrine Command is 
divesting itself of Cold War oriented instruction in professional 
military education courses. This includes updating doctrine, scenarios, 
threat, opposing force, and the operational environment. A wide range 
of opposing forces scenarios integrated with the variables in the 
operating environment continue to be integrated in the programs of 
instruction of professional military education courses, as illustrated 
by the following three examples. First, students must be able to 
demonstrate a sound knowledge of the complexities and related issues 
necessary to plan, prepare, execute, and assess missions (offense, 
defense, stability operations, and support operations) in a full-
spectrum operational environment. Second, operational scenarios in 
courses include joint, multinational, interagency, and 
intergovernmental operations, and integrated conventional Special 
Operations Forces operations. Third, courses have also been revised to 
incorporate the following macro-variables in the operating environment 
into meaningful elements considered by students as they participate in 
the various training scenarios.

        <bullet> Physical environment
        <bullet> Nature and stability of the state
        <bullet> Military capabilities
        <bullet> Technology
        <bullet> Information
        <bullet> Economics
        <bullet> External organizations
        <bullet> Social demographics
        <bullet> Regional relationships
        <bullet> National will
        <bullet> Time

    28. Senator Lieberman. Secretary Rumsfeld, what was the 
philosophical underpinning of the decision to close the Peacekeeping 
Institute (PKI), given that this was the only DOD facility that focused 
on exactly what we've engaged in Bosnia, Kosovo, Afghanistan, and Iraq, 
and that peacekeeping seems to now be a primary mission of the U.S. 
military?
    Secretary Rumsfeld. The decision to close the U.S. Army PKI at the 
Army War College was based on the recommendations of the recently 
conducted Realignment Task Force. As a result of subsequent world 
events, closing the PKI has been put on hold. We are in the process of 
reviewing the PKI's mission with a probable outcome that it will be 
retained at the Army War College, with an updated charter and structure 
in keeping with our current policies and focus.

    29. Senator Lieberman. Secretary Rumsfeld, are the reports that the 
PKI is being reopened true? Will there be a real plan to provide the 
PKI with focused resources and dedicated funding?
    Secretary Rumsfeld. Based on world events, the U.S. Army has put a 
hold on closing PKI. We are in the process of reviewing the PKI's 
mission with a probable outcome that it will be retained at the Army 
War College, with an updated charter and structure in keeping with Army 
and DOD current policies and focus.
    The PKI's mission will be similar to the previous PKI mission but 
will be more focused on the complex stability operations in which the 
Army is engaged. Its mission will be to study the strategic 
implications for the Army of stability operations; support senior Army 
leaders in understanding and dealing with the implications of stability 
operations on the Army, and the impact of international organizations 
and nongovernmental organizations on the Army's conduct of peacekeeping 
and stability operations; understand current and future allied and 
other nations' militaries' objectives and doctrine on the strategic 
aspects of stability operations; contribute to evolving stability 
operations doctrine; and help educate the next generation of Army 
strategic leaders on stability operations.
    PKI's operating budget request for fiscal year 2004 is $250,000. 
Costs do not include civilian and military manpower that are currently 
funded within the respective programs. This funding is included in the 
Operations and Maintenance, Army request.

    30. Senator Lieberman. Secretary Rumsfeld, in his 2000 Presidential 
campaign, the then-Governor G.W. Bush stated that he opposed U.S. 
participation in peacekeeping operations because it reduced military 
readiness and morale. Did this position inform the decision to close 
the PKI? Is this also the view of the Department of Defense today?
    Secretary Rumsfeld. The DOD could not find such a reference in 
President Bush's campaign speeches.
    The commitment of U.S. military forces is a serious issue that the 
President examines on a case-by-case basis. The U.S. military is 
capable of performing duties across the spectrum of military 
activities, from high-end warfighting to peace operations, and has 
world-wide commitments. As can be seen in numerous places around the 
world, the U.S. is working with its friends and allies to ensure that 
peace and stability reign. The conduct of stability operations--
including peacekeeping and peace enforcement--is an important activity 
for the U.S. and its allies. At the same time, we are naturally 
concerned about the stresses that long-term deployments place on 
military personnel and their families, and we will continue to examine 
our commitments globally to ensure that we maintain the best fighting 
force possible.
    The Army's decision to close the Peacekeeping Institute was taken 
as a result of the recommendations of its Realignment Task Force. 
Acting Secretary of the Army Brownlee has amended that decision by 
directing the commandant of the Army War College to reestablish the 
functions of the Institute as part of the Center for Strategic 
Leadership.

                       U.S. MILITARY RECRUITMENT

    31. Senator Lieberman. Secretary Rumsfeld, what impact on 
recruitment for the regular forces has the war on Iraq and its 
aftermath had?
    Secretary Rumsfeld. The decision on whether or not to enlist is 
highly individual in nature and generally reflects a complex 
interaction of economic risk/benefit assessments and effective factors. 
As a result, some individuals are deterred in times when the 
operational tempo is high while others are attracted. As military 
activity continues in association with Operation Iraqi Freedom and the 
global war on terrorism, it is still too early to tell whether these 
operations will have a measurable long-term impact on recruiting. 
However, all Services are currently at or above their fiscal year-to-
date recruiting goals for the active components. Recruit quality also 
continues to hold steady above the DOD quality benchmarks of 90 percent 
high school graduates and 60 percent scoring in the top 50th percentile 
on the Armed Forces Qualification Test.

    32. Senator Lieberman. Secretary Rumsfeld, what impact on 
recruitment for the Reserve Forces and National Guard has the war on 
Iraq and its aftermath had?
    Secretary Rumsfeld. As military activity in support of Operation 
Iraqi Freedom and the global war on terrorism continues, it is still 
too early to tell whether these operations will have a measurable long-
term impact on Reserve recruiting. Currently, the Reserve components as 
a whole are achieving 96 percent of their recruiting objectives year-
to-date in 2003, and they are exceeding their authorized strength. 
Recruit quality is very comparable with past years. Individually, all 
Reserve components except the Army National Guard and the Army Reserve 
are exceeding recruiting objectives. The Army Reserve has shown 
significant improvement in recruitment in the second quarter and is 
currently achieving 98 percent of its objectives. While the Army 
National Guard is finding it challenging to meet its large recruiting 
objective, it remains within acceptable limits of its required end 
strength. We are closely monitoring the recruiting efforts of the Army 
National Guard and are working with them to overcome the challenges 
they are currently facing.

                       TROOP MORALE AND ROTATION

    33. Senator Lieberman. Secretary Rumsfeld, some units stationed in 
Iraq have been in theater for close to a year now and there have been 
reports that the conditions in which they are operating combined with 
these extended tours are contributing to low morale. Can you comment on 
the morale of the deployed troops, and whether or not some of the most 
heavily relied upon units can expect to be rotated out of theater 
shortly?
    Secretary Rumsfeld. Troop morale in the entire CENTCOM AOR and 
specifically in support of Operation Iraqi Freedom is of the utmost 
concern of the President of the United States, Department of Defense, 
and the Commander of U.S. Central Command. With some units currently 
stationed in Iraq that have been in theater for close to a year, their 
living conditions have improved remarkably over the last several 
months. Upgrades in their quality of life include: increase in Army Air 
Force Exchange Service (AAFES) operations (exchanges, and food and 
beverage operations), installation of phone banks and satellite phones 
for morale calls, increase of additional fitness and recreational kits 
to the forward areas, and rest and recuperation (R&R) trips to give 
respite for the troops in the most austere environments. In addition to 
these improvements, Armed Forces Entertainment (AFE) and USO are 
sending entertainment groups into the forward deployed areas on a 
continuous basis to include Project Salute, the largest AFE/USO show 
ever seen in CENTCOM's AOR. Morale among the troops is tremendous 
considering the energy and effort spent over the last several months 
ridding Iraq of a terrible regime. Efforts to continually improve 
quality of life for our troops remain a very high priority. These 
troops are serving their country well, far from home, and making 
tremendous strides in making the world a safer and better place for the 
Iraqi people and the people around the globe.

                   MULTINATIONAL PEACEKEEPING IN IRAQ

    34. Senator Lieberman. Secretary Rumsfeld, some nations have balked 
at the prospect of placing their troops earmarked for follow-on 
stabilization operations in Iraq under a unilateral U.S. command. Yet 
it grows increasingly apparent that we must not, cannot, go it alone in 
that theater. How will you, or do you even plan to, include other 
nations in peacekeeping efforts while respecting their desire for 
multinational leadership of these contributed troops?
    Secretary Rumsfeld. Thus far, as of 17 October, 33 nations have 
contributed troops to the stabilization mission in Iraq, and 57 nations 
have contributed either aid or humanitarian supplies. Coalition forces 
in the south sector are under U.K. leadership, and in the center-south 
sector are under Polish leadership. The deputies and staffs of these 
command elements include officers from all countries contributing to 
the stabilization mission in the applicable sector.
    In fact, the Turkish and Japanese governments have recently 
indicated a willingness to send combat troops. The Republic of Korea is 
sending noncombat troops and is considering a combat contribution after 
a very positive report from their survey team. Based upon bilateral 
discussions we have had with other nations, we are optimistic that we 
will see further troop contributions in Iraq. Thus, the United States 
is not ``going it alone'' in Iraq.
    Passage of U.N. Security Council Resolution 1511 on 16 October also 
shows international support for our mission.

                   SEARCH FOR WMD AND LESSONS LEARNED

    35. Senator Lieberman. Secretary Rumsfeld, as the administration 
has shifted from nonproliferation measures to counter-proliferation, it 
will be increasingly important for the U.S. military to find, seize, 
and assess weapons of mass destruction and associated sites. Yet in 
Iraq, the effort to do just these things began haphazardly and has not 
improved to any great degree since. What are the lessons learned that 
the DOD has `taken away' from the ongoing search for Iraqi WMDs?
    Secretary Rumsfeld. U.S. prewar planning focused on finding, 
seizing, assessing, and dismantling or destroying Iraqi weapons of mass 
destruction and the programs that developed and maintained them.
    During combat operations, the immediate focus was to protect the 
forces from the effects of the use or discovery of weapons of mass 
destruction. The unit deployed with V Corps, the 513th Brigade, was 
manned, trained, and equipped for this purpose. In addition to the 
force protection task, it also was capable of identifying sites, 
materials, documents, and individuals who, in the aftermath of the 
combat operations, were assessed to have been of intelligence value in 
subsequent exploitation efforts.
    Prior to the outbreak of combat operations, plans were developed to 
deploy the Iraq Survey Group to take on the longer-term mission of 
exploitation, assessment, dismantlement, and destruction.
    In the June time frame, the units associated with the 513th rotated 
out of Iraq as the ISG deployed, and the ISG is now systematically 
going about the process of uncovering Iraq's WMD program.
    In his February 2003 speech to the United Nations, the Secretary of 
State outlined the extensive effort by Iraq to hide its WMD program 
from U.N. inspectors and, by extension, to deny and deceive the United 
States about its WMD capabilities and intentions.
    Our experience thus far underscores the need for a robust human 
intelligence capability, particularly with respect to entities to which 
our access is actively denied.

                     SERVICE TRANSFORMATION VISION

    36. Senator Lieberman. Secretary Rumsfeld, much of the DOD's 
transformative vision is characterized by quick deployments, quick 
victories, and quick disengagement from conflicts. Yet with the 
administration's declared doctrine of preemption and preventive war, it 
seems likely that future conflicts will continue a decade-old trend: 
that of peacekeeping and stability operations. How does the DOD's 
vision of service transformation take this into account?
    Secretary Rumsfeld. Our vision of transformation encompasses 
developing new concepts for the employment of military force across the 
spectrum of conflict, from major force-on-force combat to stability 
operations. These are reinforcing mechanisms in that transformation at 
one end will have benefits across the spectrum of our core 
competencies. The Joint Staff, Joint Forces Command, and the military 
Services are developing future joint concepts that will support our 
operational goals as laid out in the 2001 Quadrennial Defense Review. 
The Transformation Planning Guidance includes guidance on developing a 
joint operating concept in stability operations, with particular 
emphasis on peace enforcement.

                           MILITARY STRATEGY

    37. Senator Lieberman. Secretary Rumsfeld, one of the lessons of 
the war against Iraq is one of access and its importance to U.S. battle 
plans. When Saudi Arabia and Turkey refused to allow U.S. forces to 
stage from their territory, they prevented the northern front against 
the Hussein regime from being opened, and, in doing so, they prevented 
the U.S. Army's most digitized division, the 4th ID, from entering the 
battle. How have these events affected DOD planning for future 
conflicts? How will the U.S. assure access to future theaters of 
conflict, and/or how will the U.S. `work around' such denials of access 
in the future?
    Secretary Rumsfeld. Military planners realize that the issues of 
access, in the form of basing and overflight permission, are 
politically sensitive issues. For this reason, our planners develop 
contingencies that account for events like access denial. A good 
example of this contingency planning was the immediate insertion of the 
173d Infantry Brigade in Northern Iraq despite denial of access by 
Turkey. Branch plans are developed to account for denial of access when 
it affects the base plan. From this standpoint, there will be no long-
term affect on DOD future planning efforts. We are confident that by 
combining this approach with continued close coordination between DOD 
and political agencies within the U.S. Government, we can minimize the 
impact of any such eventualities.

    38. Senator Lieberman. Secretary Rumsfeld, most of the U.S. follow-
on stabilization plan was highly dependent on an assumption that the 
Iraqi citizenry would overwhelmingly welcome the U.S. troops as 
liberators and that they would happily work alongside U.S. during 
reconstruction efforts. What was this assessment based on?
    Secretary Rumsfeld. This assessment was based on the Iraqi peoples' 
experiences under 30 years of Saddam Hussein's tyranny. These 
experiences include genocide, mass graves, torture chambers, children's 
prisons, starvation and deprivation as Saddam, his family, and his 
cronies acquired more palaces and luxury cars, and a repressive police 
state unlike any since the darkest days of Stalin's Soviet Union.
    These assessments have been supported by the public opinion polling 
that has been conducted in Iraq since the end of the war. According to 
Zogby International, 7 out of 10 Iraqis say they expect their country 
and their personal lives will be better 5 years from now. The National 
Democratic Institute Focus Reports find that Iraqis are grateful for 
the ouster of Saddam, and are excited about their newfound freedoms. 
According to Gallup International, 71 percent of Baghdad's residents 
indicated that they do not want U.S. troops to leave in the next few 
months.

                          SERVICE EVALUATIONS

    39. Senator Lieberman. Secretary Rumsfeld, I am troubled that the 
U.S. has engaged in three wars since 1999 and has failed to embark on 
an objective, independent assessment of any of them. Indeed, the DOD 
seems content to allow the individual Services to undertake their own 
evaluations. Why, in an age of `jointness,' isn't the DOD aggressively 
pursuing after-action lessons-learned reports, as opposed to rolling 
evaluations by individual services?
    Secretary Rumsfeld. The Department of Defense understands the 
importance of capturing lessons learned from military operations. In 
fact, the Department has been very aggressively pursuing and publishing 
detailed lessons learned reports for quite some time such as the 
Department's ``Kosovo After Action Report.'' Since then, we have 
collected joint lessons from Operation Enduring Freedom and Operation 
Iraqi Freedom and are in the process of assessing these lessons at 
Joint Forces Command and the Joint Staff.
    All combatant commanders, to include the United States Joint Forces 
Command, collect and assess operational joint lessons from actual 
operations in the form of Joint After Action Reports. Additionally, the 
Joint Staff captures and assesses joint lessons at the strategic level. 
In each case the Department of Defense records both the success areas 
and areas which need improvement. The Joint Forces Command after action 
report for Operation Iraqi Freedom is due late this year.

                              BOMBER FORCE

    40. Senator Lieberman. Secretary Rumsfeld, the bomber force has 
performed brilliantly over Iraq, as it did in Afghanistan. Indeed, this 
force dropped nearly 70 percent of all air-deployed ordnance against 
Iraq. Yet while the Air Force plans to buy over 2,000 tactical aircraft 
over the next 20 years, there are no plans for fielding a new bomber 
until the 2030s. Why?
    Secretary Rumsfeld. While all of our bombers and their aircrews 
performed magnificently during Operations Enduring Freedom and Iraqi 
Freedom, our long-term plans call for developing promising technologies 
in the near term so we can enhance our long-range strike capability 
beginning in the 2012-2015 time frame. The fiscal year 2002 President's 
budget provided $30 million for independent studies and technology 
development by the Air Force Research Lab and the Institute for Defense 
Analysis to assess future bomber concepts and technological investments 
required for pursuing a future long-range strike platform. These 
studies, along with others, indicate that aggressive modernization of 
existing platforms is not a substitute for developing and fielding new 
technologies. In order to capitalize on technological advancements and 
yield the greatest possible return on investment from constrained S&T 
resources, we will continue to mature the necessary technologies in 
order to begin a long-range strike acquisition program in 2012-2015 
time frame.

               INTELLIGENCE ON ENEMY COMBATANT COMMANDERS

    41. Senator Lieberman. Secretary Rumsfeld, according to a recent 
report, although intelligence on Iraqi forces and capabilities was 
strong, intelligence on enemy combatant commanders was shaky, at best. 
What steps is the DOD, along with the Intelligence Community, 
undertaking to rectify this shortfall?
    Secretary Rumsfeld. DOD and the Intelligence Community have already 
begun adjusting intelligence collection and analysis based on 
appropriate lessons learned from OIF. We are making significant 
improvements in both areas. For instance, we are developing and 
fielding better collection systems and techniques across all 
intelligence disciplines and providing state-of-the-art analyst support 
tools. HUMINT reform will soon be initiated, a key element in 
addressing new world threats, as well as positive actions to improve 
the analytical skill sets required to increase our knowledge base on 
future enemy key personalities. We recognize that the enemy combatant 
commander's perspective may be a key factor in our own decisionmaking 
process. To that end, we are taking a multifaceted, multidisciplined 
approach to focus on those individuals, to include training our 
analysts to better understand the societies and cultures that produce 
those commanders. These initiatives will ensure we go into the next 
conflict with better information on our future adversaries' commanders. 


    [Whereupon, at 1:17 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
